<html>
<title> - KOSOVO OPERATIONS SUPPLEMENTAL APPROPRIATIONS FOR FISCAL YEAR 1999</title>
<body><pre>[Senate Hearing 106-278]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-278


 
   KOSOVO OPERATIONS SUPPLEMENTAL APPROPRIATIONS FOR FISCAL YEAR 1999

=======================================================================

                                HEARING

                              before the

                      COMMITTEE ON APPROPRIATIONS

                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations


                                <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate

                                  --------

                      U.S. GOVERNMENT PRINTING OFFICE
 58-307 cc                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402

                            ISBN 0-16-059985-7



                       COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director



                           C O N T E N T S

                              ----------                              

                    OFFICE OF MANAGEMENT AND BUDGET

                                                                   Page

Statement of Jacob J. Lew, Director..............................     1
Opening statement of Hon. Ted Stevens............................     1
Statement of Hon. Robert C. Byrd.................................     2
Prepared statement of Senator Conrad Burns.......................     4
Statement of Hon. Christopher S. Bond............................     4
Statement of Hon. Richard C. Shelby..............................     5
Prepared statement of Senator Richard C. Shelby..................     5
Prepared statement of Senator Daniel K. Inouye...................     6
Statement of Hon. Ernest F. Hollings.............................     6
Statement of Hon. Byron L. Dorgan................................     7
Statement of Hon. Pete V. Domenici...............................     7
Prepared statement of Senator Pete V. Domenici...................     8
Statement of Hon. Jon Kyl........................................     9
Statement of Hon. Frank R. Lautenberg............................    10
Prepared statement of Senator Frank R. Lautenberg................    10
Statement of Hon. Tom Harkin.....................................    11
Prepared statement of Senator Tom Harkin.........................    12
Statement of Hon. Barbara A. Mikulski............................    13
Statement of Hon. Harry Reid.....................................    14
Statement of Hon. Patty Murray...................................    15
Prepared statement of Senator Herb Kohl..........................    16
Prepared statement of Senator Larry E. Craig.....................    17
Opening statement of OMB Director Jack Lew.......................    18
Summary of request for military operations.......................    19
Summary of request for humanitarian relief.......................    21
Assistance to the frontline states...............................    23
Prepared statement of Jacob J. Lew...............................    24

                         DEPARTMENT OF DEFENSE

Statement of Hon. John J. Hamre, Deputy Secretary of Defense.....    29
Prepared statement of William S. Cohen...........................    29
Operation Allied Force...........................................    29
Refugee crisis in Kosovo.........................................    30
Content and assumptions of fiscal year 1999 supplemental.........    31
Preserving force readiness.......................................    31
Responding to congressional inquiries............................    32
Preparing the supplemental request...............................    33
Readiness concerns...............................................    34

               U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

Statement of Hon. J. Brian Atwood, Administrator.................    35
    Prepared statement...........................................    38
Humanitarian assistance..........................................    39
Economic assistance to the frontline states......................    39
Security support.................................................    40
Diplomatic operations............................................    40
Is funding sufficient to meet the evolving situation on the 
  ground?........................................................    41
Funding fiscal year 2000 items...................................    43
Impact of cruise missile funding on security worldwide...........    44
Two wars strategy and readiness..................................    44
Economic reconstruction in the Balkans...........................    45
What should be the U.S. share of the cost of the mission?........    46
How are the Kosovo mission costs paid for?.......................    47
What share of the Kosovo mission costs should the United States 
  pay for?.......................................................    49
U.S. capacity to fight two wars..................................    50
Two war strategy and Iraq operations.............................    51
Funding of war crimes tribunal...................................    52
Explaining the mission to the American people....................    53
Letter from Senator Conrad Burns.................................    55
Model of Apache helicopter for Kosovo............................    56
Dealing with two nearly simultaneous contingencies...............    56
Estimate of costs for reconstructing the Balkans.................    58
Rotation of deployed troops......................................    59
Replacement and recovery costs...................................    59
Target approval..................................................    60
Duration of Kosovo operation.....................................    61
Is there a cost estimate for a ground war?.......................    62
Emergency funding for humanitarian disaster relief in Central 
  America........................................................    63
Allied burden sharing............................................    65
Kosovar refugees coming to the United States.....................    66
U.S. relations with Russia.......................................    67
Kosovo operations status.........................................    68
Assistance to Macedonia..........................................    71
Reimbursement to the United States for some costs of mission.....    72
Handling refugees coming to the United States....................    72
Adequacy of proposed supplemental................................    73
Additional committee questions...................................    74
Questions submitted by Senator Pete V. Domenici..................    74
Cost to sustain and/or expand military operations................    74
Increased readiness needs........................................    75
Allied contributions.............................................    77
Questions submitted by Senator Larry Craig.......................    77
Allied contributions.............................................    77
Ground troops....................................................    78
Allied forces....................................................    78
Ground troops....................................................    78
Paying for future NATO missions..................................    78
Kosovo...........................................................    79
Questions submitted by Senator Byron L. Dorgan...................    80
Munitions........................................................    80
Kosovo funding...................................................    80
Kosovo...........................................................    80
NATO allies......................................................    80

                                  (iii)


   KOSOVO OPERATIONS SUPPLEMENTAL APPROPRIATIONS FOR FISCAL YEAR 1999

                              ----------                              


                        TUESDAY, APRIL 27, 1999

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 10:05 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Specter, Domenici, 
Bond, Gorton, McConnell, Burns, Shelby, Gregg, Bennett, 
Campbell, Hutchison, Kyl, Byrd, Inouye, Hollings, Leahy, 
Lautenberg, Harkin, Milulski, Reid, Kohl, Murray, Dorgan, and 
Durbin.

                    OFFICE OF MANAGEMENT AND BUDGET

STATEMENT OF JACOB J. LEW, DIRECTOR


                 opening statement of hon. ted stevens


    Chairman Stevens. Good morning. I apologize for being 
slightly late because of a conference downtown.
    This morning, this committee will hear testimony on the 
supplemental appropriations request for military and 
humanitarian relief activities stemming from the North Atlantic 
Treaty Organization (NATO) air campaign against Yugoslavia.
    Our witnesses are the Director of the Office of Management 
and Budget, Jack Lew; the Deputy Secretary of Defense, John 
Hamre; and the Chairman of the Coordinating Council for 
Humanitarian Response, Brian Atwood, who additionally serves as 
the administrative aide.
    The President submitted a request for $6.05 billion on 
April 19. That request was referred to this committee on April 
21. The administration request designates the entire amount as 
an emergency pursuant to Section 251(b) of the Budget Act.
    This appropriation, if approved, combined with the previous 
fiscal year 1999 appropriation for operation in and about 
Bosnia would result in at least $8 billion in spending on 
military assistance program in the successor states of 
Yugoslavia in one year.
    Since 1995, we have spent more than $10 billion on military 
assistance programs related to Bosnia. Costs related to Kosovo 
for one year could match or exceed that figure.
    Virtually all of these funds have been sought as emergency 
spending at the administration's request above the budget caps 
that were established in August of 1997.
    Earlier this month, I joined 20 other members of Congress, 
including Senator Durbin of this committee, to visit Albania 
and Macedonia to view firsthand the refugee crisis and the 
military buildup in that region.
    In addition, we met with military and NATO leaders at the 
air base in Albiano and at NATO headquarters in Brussel. For 
myself, I returned from that mission much impressed by the 
determination and dedication of our military forces, engaging 
both a serious military threat and a very tough weather 
situation with regard to the undertaking of an air campaign.
    In contrast, the refugee situation appeared to be very 
grave and seriously lacking in organization and planning. It 
appears that we and NATO had simply made no provision for the 
flow of refugees triggered by the start of the air war.
    And, Mr. Atwood, I understand you recently spent several 
days in the region. We will welcome your observation and 
assessment of progress in that regard.
    My memory will last forever seeing people standing in line 
for a three-quarter-of-a-mile line to receive one meal a day, 
cold meal a day, with eight people serving 38,000 people in 
that line that we saw.
    Our focus today must be on the spending issues presented by 
the supplemental request.
    And the impact on military readiness of the pace of 
operations in and around Kosovo is significant, and the funds 
that have been spent today--to date must be replenished. But 
make no mistake, the human crisis of the refugees is real and 
immediate. These challenges will not be solved by this single 
supplemental bill.
    Congress and the administration must decide whether there 
is an equitable division of the burden for dealing with this 
crisis in the Balkans between our nation and our partners in 
Europe. Those will be some of my questions today about who is 
paying the bill for the air campaign.
    I returned from the visit to the region concerned that we 
are bearing the brunt of the fighting and the cost and taking 
the risk and responsibility for the refugees as well as 
apparently assuming the burden for the future reconstruction of 
Yugoslavia.
    Mr. Lew, we look forward to your assessment on how these 
challenges will fit in with the caps we face on spending, along 
with other priorities such as implementation of the Yi River 
agreement.
    I am now very pleased to present my--our great friend, the 
former chairman, a ranking member, Senator Byrd.


                    statement of hon. robert c. byrd


    Senator Byrd. Thank you, Mr. Chairman, and thank you for 
scheduling this hearing.
    I thank our witnesses for appearing before the committee to 
review the request from the administration for $6.05 billion in 
supplemental funding for the Kosovo military and humanitarian 
operation, as well as for Operation Desert Fox in Iraq.
    And I appreciate your leading the Congressional Delegation 
to the region, Mr. Chairman, to get a firsthand report on 
NATO's military and humanitarian needs.
    I was represented by staff on that trip and have been 
briefed on the situation. And like you, I am very deeply 
concerned about the fate of the refugees, both trapped inside 
Kosovo and in the refugee camps in Albania and Macedonia.
    I would like to take a moment to commend our U.S. military 
forces for the superior skill and courage that they are 
demonstrating in Kosovo and Yugoslavia. I hope that this 
hearing will send a strong message of support to our men and 
women in uniform and their families.
    The conflict is demonstrating not only the high caliber of 
our active duty units, but also the absolutely vital role that 
the Guard and Reserve play in today's military force structure. 
And I salute the men and women who serve in these units.
    This is a large supplemental funding request. There are 
many in Congress who suggest that it is not enough. I fully 
understand the emergency nature of the request.
    I am also mindful that Yugoslavia has been simmering on the 
front burner for many months. It has not, in my opinion, 
prudent fiscal policy to launch such a major undertaking on 
what amounts to a wing and a credit card and wait until the 
bills come in to reckon with the costs.
    It seems to me that the President and his foreign policy 
and military advisors should have seen this coming in one form 
or another and planned accordingly.
    I think they have underestimated this man and grievously 
so. Instead, as happened so many times with Bosnia, this 
committee is being handed a bill stamped ``emergency'' and 
asked to pay it.
    No matter how we end up paying for the Kosovo operation, 
this is not free money. We need to budget for these operations.
    Surely, some thought is being given to the long-term 
picture. Along with its military plans and its diplomatic 
plans, I strongly urge the administration to bring Congress a 
fiscal plan for any subsequent round of expenditures in Kosovo.
    On that note, Mr. Lew, Dr. Hamre and Mr. Atwood, I look 
forward to hearing your assessment of the situation in Kosovo 
and your estimate of the current and anticipated funding needs 
of this operation.
    Thank you.
    Chairman Stevens. Gentlemen, we have ten people that are 
also here and entitled to make an opening statement.
    The Senator and I have taken six minutes between us, so may 
we suggest that you limit your comments to not more than three 
minutes also?
    Mr. Campbell, you are first.
    Senator Campbell. I think in the interest of time, Mr. 
Chairman, I will pass on a statement.
    Chairman Stevens. Senator Burns.
    Senator Burns. Thank you, Mr. Chairman. I want to thank you 
for calling these hearings. I will submit my statement in the 
essence of time.
    I just wanted to raise one issue of my letter to Senator 
Cohen on March 9 that has not been responded to. I asked 
several questions that I think would help clear up what our 
mission is and the role that Congress plays and that would be 
my only question at this time. And I will submit my statement.
    I thank the Chairman.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Thank you, Mr. Chairman.
    I want to express my appreciation to the Chairman for 
calling this hearing and providing us all with an opportunity 
to discuss the most pressing issue facing the world today. My 
thanks as well to the gentlemen before us who have the task of 
answering some necessary and difficult questions by members of 
the Committee.
    On March the ninth I sent a letter to the Secretary of 
Defense requesting information on Operation Allied Force and I 
am disappointed that I have not yet received a response. My 
questions were of a fundamental nature and reflected the 
concerns of constituents throughout Montana and, I suspect, the 
rest of the nation.
    The questions involved the issue of readiness of our 
troops. Our national defense capability has been and continues 
to be declining. Morale and recruitment are declining. While we 
have the very best personnel, we simply do not have enough 
personnel. The result is soldiers spending too much time away 
from family and too many hours at their assigned duty. Quality 
of life issues have not been adequately addressed and the 
result is that we are not recruiting nor retaining our Armed 
Forces Personnel.
    The interventionist strategy of this Administration has 
only made the situation worse. I am told that we have over a 
quarter million troops scattered throughout the world in over 
one hundred and thirty countries. Our military is over-extended 
and, at the same time, we have serious deficiencies in 
equipment as well.
    Today's hearing will be one of many where the 
Administration will be afforded the opportunity to explain its 
strategy in Kosovo and the costs associated with that strategy. 
I am hopeful that the Administration will more fully articulate 
strategy in order to secure the support of Congress. And I am 
hoping as well that the Administration will be forthright in 
assessing the true costs of our actions.
    I am attaching my letter to Secretary Cohen that I referred 
to in the opening of my statement. I request that it be 
included in the record along with my statement and renew my 
request for a response. All of America is waiting for 
straightforward answers to some straightforward questions
    Mr. Chairman, I assure you that I could continue for quite 
a while longer with my statement but I will instead defer to my 
colleagues who I am confident have equally important issues to 
raise themselves.

    Chairman Stevens. Senator Bond.


                 statement of hon. christopher s. bond


    Senator Bond. Thank you, Mr. Chairman. I want to submit a 
slightly longer statement to the record. I want to say here at 
this--at this meeting that I--I believe I, along with all the 
members of this committee, support our troops 100 percent.
    I support them so much I do not wish to see them squandered 
in ill-planned or unplanned endeavors that are the result of 
one diplomatic misstep after another.
    And we are concerned about that. Flexibility in plans is 
great on the battlefield, but complete flip-flops on the 
operational war plans leads us to question whether our leaders 
who made the decision paid adequate attention to the military.
    I thought we learned--we seemed to have flown into a blind 
valley and I--I thought the escalation of conflicts would have 
been something we would have been concerned about as a result 
of our experience 30 years ago.
    And we--many of us want to know if--if we ``win'' in 
Kosovo, if that entitles us to station troops for 25 years in 
that country to separate warring ethnic groups.
    I have a major problem, however, that I do want to raise. I 
have attempted on a number of occasions to find out basic 
information such as which units from my state would be involved 
in prosecuting the operation.
    The legislative liaison office of the Joint Chiefs of Staff 
told my staff that they could not divulge that information, 
even though we had B-52 pilots on Central News Network (CNN) 
telling who they were and their units after returning from 
missions.
    On another occasion, I requested a list of the aircraft we 
used in the bombing campaign, what aircraft flew what types of 
missions, how many targets were assigned, what the mission 
success was for each mission. I did not ask for future plans. 
My staff was told that NATO was restricting that type of 
information.
    Yet, you come and ask us to give you money to replace 
expended weapons, and you do not tell us what weapons you used. 
Somehow, that just does not make a lot of sense to me. And I do 
not know whether it is of concern to other members of the 
committee. I want to call it to your attention.
    Thank you, Mr. Chairman.
    Chairman Stevens. Thank you, Senator.
    Senator Shelby.


                  statement of hon. richard c. shelby


    Senator Shelby. Mr. Chairman, I ask that my entire 
statement be made part of the record, and I will be brief.
    Mr. Chairman, we all realize we are here today for a very 
serious reason. Our nation is at war, whatever they call it. 
And this committee must weigh in on how to pay the bill, and I 
would submit to all of you that success, if we have it in the 
Balkans, is not going to be cheap.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    Good morning Gentlemen. Thank you for being here this 
morning.
    We are here for a very serious reason. Our nation is at war 
and this committee must weigh in on how to pay the bill. Many 
in the Administration and NATO are reluctant to call it a war. 
However, when a nation drops bombs on another nation for the 
better part of a month with no end in sight, reasonable people 
would refer to that activity as war.
    Make no mistake, I want this nation to succeed. However, I 
have grave concerns about why we are there; our national 
interest; our military strategy; the effect of this operation 
on our worldwide military readiness, and how we can and should 
conclude this operation.
    The Balkans are not a place for the faint of heart. It is a 
harsh region and if there is a national interest in fully 
prosecuting this war we must be prepared to pay a heavy price 
in both dollars and maybe American lives. I hope that does not 
happen, but we must be realistic with the American people. 
Success in the Balkans, in any form, will not be cheap.
    I have a number of questions regarding my stated concerns. 
I look forward to hearing your responses.

    Chairman Stevens. Senator Hollings--for the gentlemen that 
have just come in, we are limiting opening statements--Senator 
Inouye--pardon me, Senator Inouye.
    Senator Inouye. That is OK.
    Chairman Stevens. We are limiting opening statements to 
three minutes, if you will. Each round will be seven minutes 
per member on questions.
    Senator Inouye. Chairman, I wish to commend you and Senator 
Byrd for calling this hearing on this very important subject. I 
ask that my statement be made part of the record.
    Chairman Stevens. Thank you, Senator.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Mr. Chairman, I want to commend you and Senator Byrd for 
holding this hearing today. It goes without saying that this is 
a most serious subject.
    As I understand it, the administration is requesting $6.1 
billion to carry our operations in and around Kosovo through 
until the end of the fiscal year.
    There has been much speculation in the press that Congress 
will add additional sums to this request. I, for one, think we 
must ensure that we provide enough funding to support our men 
and women in uniform.
    I also agree with those who argue we must do our share to 
support those caught up in this human tragedy in and around 
Kosovo.
    Having said that, I am disturbed that some might be looking 
at this as a way to solve other shortages or to make up for 
what some describe as a flawed budget resolution.
    And, what is even worse, there are some that see this bill 
as a ``target of opportunity'' and they want their weapons 
systems added to it. In previous times that would be called 
profiteering.
    Mr. Chairman, I know you agree with me that we cannot stand 
for that.
    I hope that this hearing will instruct us on just how much 
funding is really needed and how it can be best utilized.
    Mr. Chairman, thank you for your courtesies and I look 
forward to hearing the testimony from our witnesses.

    Chairman Stevens. Senator Hollings.

                  Statement of Hon. Ernest F. Hollings

    Senator Hollings. Thank you again, Mr. Chairman, for 
holding this hearing.
    It is not the money. I am worried about the policy. I would 
accept whatever the witnesses attest to that is needed. I voted 
against this policy. I still do not think it is worth the life 
of a single GI, and I could get into that later.
    What I am concerned about, Jack Lew, is the statement of 
the majority leader on the weekend saying that it is really not 
a $6 billion package. It is going to be about $6 billion more.
    And then when I asked, he said, ``Well, yes, it would come 
out of Social Security.''
    I want you and Dr. Hamre to be thinking about that, because 
we have not had any application for $6 billion more before this 
committee, and that is what we want to find out about.
    Thank you.
    Chairman Stevens. Senator, we have not presented that yet. 
I will be happy to give you that sheet as we go along here.
    Senator Hollings. Well, you think we need $6 billion more 
too than the other needed in Kosovo?
    Chairman Stevens. I think we need to provide these people 
the systems that they have asked for. When we were on that 
trip, they asked for specific items, and I had hoped to ask 
for----
    Senator Hollings. In excess of the $6 billion?
    Chairman Stevens. Pardon?
    Senator Hollings. In excess of the $6 billion that the 
President requested?
    Chairman Stevens. Yes. Yes.
    Senator Hollings. Thank you.
    Chairman Stevens. Senator Lautenberg.
    Senator Lautenberg. No.
    Chairman Stevens. Senator Dorgan.

                   Statement of Hon. Byron L. Dorgan

    Senator Dorgan. Chairman, let me just put a statement in 
the record. But I do want to say this about emergency spending; 
it is an emergency, and I will support the funding that is 
necessary to support our troops and the missions.
    But in February, other emergency spending requests were 
requested. This committee took action. Senator Harkin, Senator 
Burns, myself and others from farm country understand that that 
urgency, that emergency still exists. Spring planting is going 
on. The money necessary for spring planting loans is not 
available. That legislation has not gone through the Congress.
    It is not this committee's fault, but while we are talking 
about emergencies here this morning, let us understand that the 
request received in February has already been acted on and now 
sits before the Congress.
    We need action on it quickly if we are going to respond to 
an emergency in farm country. And so I urge all of us to try to 
do something about that in the coming days.
    I would share Senator Byrd's remarks. I appreciate your 
leadership and the leadership of others here in the Senate to 
go to the region and wish I had been able to go. My schedule 
would not allow me to do that, but thanks for your leadership 
in doing that.
    Chairman Stevens. Senator, just for your information, I did 
request that the House hold that up because it was my judgment 
that if we tried to bring that other bill back at this time, we 
would face amendments for the money, in this bill before the 
committees would be able to consider that and make 
recommendations. So the House is holding that bill at our 
request waiting to see what is going to happen with this bill.
    Senator Dorgan. I would just point out the dilemma: Spring 
planting is about to begin. There is no money for spring 
planting loans in a number of states. And those family farmers 
who are wondering whether they are going to be able to continue 
to farm now do not have an answer.
    Chairman Stevens. But it is my judgment you are going to 
get that bill sooner following the procedure we have outlined. 
I hope I am right.
    Senator Domenici.

                   Statement of Hon. Pete V. Domenici

    Senator Domenici. I want to say to Senator Byrd: You raised 
the question here of, ``Should the White House have anticipated 
some of this and requested it in advance?''
    Well, we all should note that the President of the United 
States has indicated that we are going to rebuild Yugoslavia. 
We are going to rebuild the war-torn parts of Kosovo.
    On the morning paper, we saw a bridge. It looked like our 
earthquake disaster out there in California when the bridges 
collapsed. We are probably going to pay for that. Anybody that 
thinks this $6 billion is anything but a down payment on this 
war is just not paying attention.
    And frankly, I believe, the administration ought to be 
asking for more rather than less, because the truth of the 
matter is we are going to spend more rather than less.
    It is going to be far more than this $6 billion. Frankly, I 
do not think it is enough, because we are in a very dire state 
of readiness before this event.
    I believe the Chairman is right. We better find out what 
impact this war has had on our readiness, on our supplies, on 
our munitions, on our various things that we are in short 
supply because of this war.
    Now, we have to pay for those. And frankly, I don't think 
it is right to pay for them next year. We ought to pay for them 
this year.
    We ought to get some estimates of what this cost is going 
to be.
    But I can also state to everyone we are doing it in a way 
that is not going to be very cheap for the American taxpayer.
    And for those who say it is coming out of the Social 
Security trust fund surpluses, they are right. There is no 
other place to get it.
    The President's request, I say to my friend Senator 
Hollings, requires that the surplus, which we were 
accumulating--as a matter of fact, we paid down the debt $80 
billion this year by accumulating Social Security surplus.
    Now, we are going to have to go use some of that, and the 
$6 billion was out of that. The $12 billion will be out of 
that, or whatever we spend will come out of that.
    There is no other source of money. We must go use it or 
borrow money. And we--we cannot borrow money when we have a 
surplus.
    So from my standpoint, I am very concerned about how much 
it is going to cost, and we have some other emergencies in the 
United States. You have just expressed one about farm belt 
country, counties and states. So we ought to not be worried 
about doing this on the cheap side.
    We ought to be putting plenty of money in, because there 
are plenty of repercussions from this on our military and on 
the pursuit of a strong solid military with high morale.
    [The statement follows:]

             Prepared Statement of Senator Pete V. Domenici

    I thank Senator Stevens for calling this important hearing. 
Current U.S. involvement in NATO operations in Yugoslavia 
require immediate attention to the pressing needs of the men 
and women in uniform. Addressing those needs in a comprehensive 
and calculated manner should be our objective here today.
    We threatened air strikes as early as last October. If the 
talks at Rambouillet has been successful, we would be dealing 
with emergency appropriations for U.S. peacekeeping operations. 
The peace talks collapsed, and NATO started the current bombing 
campaign. There is no hint of an early or easy conclusion to 
the crisis.
    All of these scenarios were foreseeable to some extent, yet 
the current Administration lacks the courage to take the lead 
in these matters. The Administration thrusts explanations and 
accountability upon the Congress.
    The President repeatedly suggests that the U.S. will 
rebuild Yugoslavia. After we've concluded this ill-conceived 
campaign and accelerated the humanitarian crisis, the U.S. will 
supply a major portion of peacekeepers and foot the bill for 
our share of reconstituting the war-torn parts of Kosovo.
    Yet today the Administration's request is for $6 billion.
    The Administration is asking us to believe that the costs 
for continued military operations, humanitarian activities, 
economic assistance to the bordering countries, and 
replenishing depleted munitions and missile stocks through the 
end of this fiscal year is included in this low-price package.
    Anybody that thinks this $6 billion is anything but a down 
payment on this war is not paying attention. Frankly, I believe 
the Administration ought to be asking for more rather than 
less, because eventually we will spend more than less.
    I do not believe this is sufficient for numerous reasons. 
However, the main reason is that the U.S. military's readiness 
was already in a precarious state prior to this recent 
engagement.
    People inside the Defense Department report extremely 
serious shortages in support equipment, spare parts, munition, 
and experienced personnel. Here are just a few examples. ``War 
Reserve'' stocks have largely been used up for operations in 
Bosnia and Iraq. Cannibalization rates for aircraft are roughly 
twice of what they were last year for bombers. Skilled pilots 
and mechanics are in very short supply. We are running out of 
key munitions--not just cruise missiles, but even more basic 
laser guided bomb kits.
    Last year Senator Stevens and I requested that GAO 
investigate the reasons for retention problems in the military. 
The preliminary findings of this study indicate that the major 
reasons for leaving the military is that they don't have 
sufficient equipment, constantly face shortages in spare parts, 
and don't have enough people with the skills to meet the 
demands.
    In other words, pay and pension are not their foremost 
concerns. Their frustration and fatigue is directly related to 
and being compounded by operations in the Balkans. We will 
continue to witness skilled and specialized military personnel 
leaving in droves, if we do not pay close attention to how this 
current adventure exacerbates an ongoing readiness problem.
    This is going to cost a lot more than $6 billion. We need 
to find out what impact this war has had and will have on 
readiness, including spare parts and munitions stocks. And we 
need to pay for them this year, not next.
    We need real estimates, not the discount rate for this 
campaign. We should assume higher costs and allow for possible 
contingencies up to October in putting together a reasonable 
response to the Administration's request.
    Repeatedly, I am asked about how our involvement in this 
civil war will impact social security. I must admit that I'm 
pleasantly surprised that even in our discussion of a war, we 
are asking questions about social security. We spent a lot of 
money in the past several years on military operations other 
than war without asking any questions about the solvency of our 
social security system.
    This money will come out of the Social Security trust fund 
surpluses. There's no other source to draw from. But U.S. 
taxpayers and retirees will hear this from us long before the 
Administration comes forward to explain it.
    I'd like to also remind everyone present that Kosovo is 
only one of several situations this Committee must address. As 
the members at this hearing know all too well, we've also got 
an emergency in Central America. The devastation of Hurricane 
Mitch required immediate U.S. assistance and was just as much 
an emergency as this situation in Kosovo. And this happened 
just next door to us. Despite the overwhelming tragedy, we 
still haven't passed that bill.
    In closing, I would like to make two simple points. First, 
I have never been one to cut corners on questions of U.S. 
defense. The men and women who have uprooted their lives to 
contribute in this campaign deserve our respect and full 
support. Second, I strongly concur with my fellow Senators on 
the Committee who suggest that the Administration make sure 
this is the last emergency request we see this year.

    Chairman Stevens. Senator Kyl.

                       Statement of Hon. Jon Kyl

    Senator Kyl. Thank you, Mr. Chairman. I concur with the 
remarks that you and the distinguished ranking member made and 
the comments that Senator Domenici just made.
    I am participating in a markup in the Judiciary Committee 
on the bankruptcy bill. I will have to leave here in a few 
moments, but I appreciate the opportunity to be here briefly.
    Chairman Stevens. Thank you, Senator.
    Senator Harkin--oh, Senator Lautenberg, pardon me.
    Senator Lautenberg. It is OK.
    Chairman Stevens. No. Wait. I think Harkin was here first. 
All right. Whoever.
    Senator Lautenberg. I made the chair ready for him, Mr. 
Chairman. [Laughter.]

                 Statement of Hon. Frank R. Lautenberg

    Senator Lautenberg. I--Mr. Chairman, first, I commend you 
for getting to the subject, getting on it, and let us try to 
deal with it fairly quickly, but thoroughly.
    The fact of the matter is that I am fully behind the action 
taken by our country and fully behind funding the campaign as 
we discuss it here.
    I am opposed to adding lots of other non-direct campaign 
resources--I am sorry--resources for other than the military 
campaign.
    And I hope, Mr. Chairman, that we will keep this clean, 
attend to the other emergencies as they occur, even as we try 
further to restrict what emergencies are.
    It seems particularly ironic to me that we are talking 
about emergencies on the one hand and a binding agreement 
across the table here that there are other emergencies that 
have to be tended to, and yet we have people who want--who say 
that we ought to restrict the definitions, the timing, et 
cetera, two-thirds vote or 60-person vote.
    I was in Kosovo with Senator Harkin in November and have 
pictures. I am not going to show them here. We have all seen 
pictures of what the Serbians were doing way before this 
campaign got started. So they are using this as an excuse.
    And I am pleased to see that coming this Friday, there will 
be some of the Albanian refugees coming to New Jersey to Fort 
Dix. We are going to do our part to try and house them and care 
for them until this dispute is resolved, but Mr. Chairman, we 
have to move on with it.
    I will submit a statement for the record, and I hope that 
we can dispense with this important business fairly quickly.
    [The statement follows:]
           Prepared Statement of Senator Frank R. Lautenberg
    Mr. Chairman, the United States and our NATO allies are rightly 
conducting air and missile strikes against a Yugoslav regime and forces 
carrying out horrific genocidal attacks against the ethnic Albanian 
population of Kosovo.
    We need to pay for our role in these military operations and do our 
part to aid the neighboring countries and help more than a million 
Kosovars who have been driven from their homes. The President has 
properly designated these costs as emergency spending.
    We should not delay this assistance by trying to add non-emergency 
military spending as a way to circumvent the balanced budget agreement. 
This is an emergency spending bill, not a Christmas tree to be adorned 
with everyone's favorite defense project. In fact, during consideration 
of the Budget Resolution we debated how much we should allocate to 
defense to address readiness concerns and other needs.
    I am concerned that we have not yet held a conference to provide 
needed aid to help the victims of hurricanes Mitch and Georges and 
American farmers. We should work on the offsets in that bill to make it 
acceptable to the Administration, include the requested Kosovo 
supplemental, and get it to the President without further delay.
    I hope we can avoid politics and quickly address genuine emergency 
spending needs, for the victims of the natural disasters in Central 
America and the victims of the man-made disaster in Kosovo. I look 
forward to working with my colleagues to make this happen.

    Chairman Stevens. Senator, I will be pleased to get the 
whole committee a copy of this list. We are--the President 
requests on military matters now--there is humanitarian also--
$5.5 billion.
    We are suggesting an operation and maintenance (O&M) and 
depot increase of $3 billion. That is for operations, depot 
support, spare parts and recruiting, a munitions augmentation 
of $460 million.
    Operational has been identifying recognizance, electronic 
warfare as key priorities. That is a total of $9.36 billion and 
the potential pay increase, which is $1.8 billion, raises that 
to $11.16 billion.
    There is still a matter of whether we look at the 
retirement. I do not intend to do that, but some people are 
thinking about that.
    That takes it up to about $13 billion, but as a practical 
matter, every one of those items was mentioned to us on the 
trip. We will hear about them later today, I am sure.
    Now, let us go to Senator Harkin.

                      Statement of Hon. Tom Harkin

    Senator Harkin. Thank you, Mr. Chairman. I just ask my 
entire statement be made a part of the record.
    Chairman Stevens. Yes.
    Senator Harkin. First, I happen to be on the side of those 
that believe that our involvement in Kosovo is justified.
    I believe it is an apt way to close out the 20th century 
and perhaps send a warning to would-be dictators in the 21st 
century that this kind of action will not be tolerated. We will 
join with other democratic nations, both in Europe and in other 
parts of the world to ensure that such people like Milosevic 
will not be able to get by in the 21st century with what others 
have gotten by with in the 20th century. The deployment costs 
us money, but I believe in the long run it is going to be a lot 
cheaper than if we do nothing at all.
    That is on the policy side.
    On the budget side, I really question adding a lot more 
money to the budget on top of what we are adding for air 
involvement now in Kosovo.
    And I say that not because I am opposed to a pay raise. I 
have been advocating that for a long time, and there are some 
other operational readiness things that we need.
    But I think just to add additional Pentagon spending on as 
a layer on what is necessary for our actions in Kosovo is to 
skirt what we ought to be doing. Congress needs to take a hard 
look at how the military is spending its money.
    I have asked for a GAO investigation and we have gotten a 
report back. Later today, I and some of my colleagues are 
releasing this GAO report detailing some very serious inventory 
problems.
    The Navy is unable to ship enough supplies from its 
contractors to its warehousers and end users. In fact, the 
shortfall is about ten percent.
    However, the inventory problem was not because of a lack of 
money, but because the Navy lost about ten percent of its 
shipments. This is $3 billion of lost shipments. Now, these 
items----
    Chairman Stevens. Senator, could we confine ourselves to 
what is going on in this request, please?
    Senator Harkin. But----
    Chairman Stevens. That is not in this request.
    Senator Harkin. No. But what I am trying to point out, Mr. 
Chairman, is that before we start layering on a bunch of other 
stuff, here is $3 billion that they have lost. We ought to----
    Chairman Stevens. If they lost it, they are not going to 
find it in time to get it to Kosovo. [Laughter.]
    Senator Harkin. No. You are right about that. But that is 
why we need the administration's request. But before we start 
adding on layer after layer, this, I think, is something that 
we have to address.
    Chairman Stevens. We will be pleased to schedule another 
hearing for that, but that is not this hearing, Senator.
    Senator Harkin. Well, Mr. Chairman, with all due respect, 
if we are going to be asked as appropriators to add more and 
more money on for operational and maintenance and other things 
like that on top of the Kosovo request, then I do have to ask 
the question, ``What are they doing with the money that we have 
already given them?''
    I believe that is a legitimate question to be asked and 
that is why I have asked the GAO to do this investigation.
    I will just point out one thing. In 1941, then Senator 
Truman from Missouri, at the very height of our involvement in 
World War II, when we were beginning to build up, formed a 
committee to look into war profiteering, the kind of things 
that are happening here, and the Congress supported that. And 
his whole goal was to make sure that the taxpayer got the most 
for their dollars.
    And I am just trying to say that precisely because we are 
in a war now that we should not just all of a sudden give a 
blank check to the military for whatever they want.
    I think we really have to be cautious about it. That is my 
whole point, Mr. Chairman.
    [The statement follows:]
                Prepared Statement of Senator Tom Harkin
    I see two important questions now before the Committee. First, are 
the NATO operations in Kosovo and Serbia justified? I believe the 
answer is yes. Second, what effect with the operations have on our 
military, including the Pentagon budget. The effects on the budget is 
the focus of today's hearing.
Kosovo Operations
    In my view the United States and our NATO allies are doing the 
right thing by forcing the Serbian military to stop its horrible 
attacks against the people of Kosovo. As we all know, the goal of the 
NATO operations is stability for the region. And it is going to take a 
lot of effort on the part of all parties involved. The refugees need to 
return home and their freedom of movement needs to be restored as well 
as their quality of life.
    One key element is Milosevic himself. Maintaining any kind of 
stability will be difficult if he continues his current course. He 
thrives on creating chaos and instability. Even if he pulls his 
military and police forces out of Kosovo, an international peacekeeping 
force will be necessary to prevent a similar situation from happening 
again.
    And I think the NATO plan of action generally makes sense. NATO is 
following a specific air war campaign plan and is proceeding 
systematically, attacking a large list of targets. NATO is degrading 
Milosevic's war making machine.
Defense Supplemental
    A key question for the Committee is the financial costs of the war. 
The Pentagon asked for more than $5 billion as part of a special 
emergency supplemental that will pay for the operation through 
September.
    Unfortunately, some in Congress want to use the Kosovo mission as 
an excuse to spend billions of dollars more on the military. There is 
talk of adding more than $10 billion on top of the Pentagon request. 
This is simply inappropriate. It is one thing to replace the used 
bullets or bombs. It is another to buy a lot of unnecessary and 
expensive weapons under pressure from military contractors.
    We have been hearing a lot of questions in the past few weeks as to 
whether our military has become hollow. There are some real problems 
with our forces, however, simply throwing money at problem, perceived 
or real, is not the answer.

    Chairman Stevens. Senator Byrd and I envied then Senator 
Truman because he held 38 days of hearings out of Washington in 
the springtime and did not miss one vote. [Laughter.]
    Senator Mikulski.
    Senator Harkin. So were you both in the Senate then?
    Chairman Stevens. Pardon? Strom was here just ahead of me. 
[Laughter.]
    Senator Mikulski.

                 Statement of Hon. Barbara A. Mikulski

    Senator Mikulski. Thank you very much, Mr. Chairman. Thank 
you for organizing the hearing, and we will look forward to the 
testimony.
    I just want to make a few brief comments. I had the 
pleasure this weekend of joining--being at the meetings with 
the NATO leaders as they discussed both Kosovo and the new 
strategic concept.
    I was joined by my colleague, Senator Bill Roth, and was 
heartened to hear that our NATO allies want to continue to stay 
the course and stay the course on the strategy that has been 
developed.
    Therefore, though, to show the American commitment, I think 
it is important that we absolutely move expeditiously with this 
request. We show our support for the military. But where there 
are other issues related to readiness, I think they need to be 
dealt with in other hearings.
    However, I am concerned about replenishment, whether it is 
in men, women or material that we are not only supporting them 
financially, but we are supporting the replenishment.
    I hope we focus a great deal on this hearing, though, also 
on the humanitarian. We can get so involved in talking about 
``What type of gear do we need?'', that we forget that the 
whole point of this is the humanitarian.
    We have the head of--the Catholic Relief Services are in 
Baltimore. I know the non government organizations (NGO) are 
doing an outstanding job, but they are stretched to the limit. 
We need to hear that.
    We know that our military is actually involved in creating 
the infrastructure for the delivery of humanitarian relief. We 
need to know that and what comes out of the military budget.
    We also need to know how we should support the frontline 
states, so we do not have an implosion and collapse in Albania 
or an explosion in Macedonia.
    And last but not least, though I know it is not a subject 
of this hearing, we must keep in our mind our----
    Chairman Stevens. Move over and let him get in, will you?
    Senator Mikulski. Oh.
    Chairman Stevens. Pull a chair in there.
    Senator Leahy. That is OK. I will just stand.
    Chairman Stevens. Pull a chair in there.
    Senator Mikulski. I--I will wait until everybody is----
    Chairman Stevens. I am sorry. I apologize.
    Senator Mikulski. Oh, that is OK. It is just----
    Chairman Stevens. Senator Leahy needs a chair.
    Senator Mikulski. We know it is very----
    Senator Leahy. We have got a seat over here.
    Chairman Stevens. You can join our side. [Laughter.]
    Get over here. We need you. [Laughter.]
    Pardon me, Senator.
    Senator Mikulski. OK.
    Chairman Stevens. Pardon me, Senator.
    Senator Mikulski. Could I--I would really like to be able 
to continue my statement----
    Chairman Stevens. Yes, ma'am.
    Senator Mikulski [continuing]. And--and not have----
    Chairman Stevens. We are trying to get him a seat, Barbara.
    Senator Mikulski. No. No. I understand that. But I think--
there is a seat over there. And sitting next--I have found 
sitting next to Senator Domenici very pleasant on more than a 
few occasions. [Laughter.]
    But this is really a very serious matter, and I believe in 
all the briefings that I have gotten the whole humanitarian 
situation and the cost has not been given the visibility that 
we need. So we really need to do this.
    Second, what really needs to be also kept in the back of 
our mind is the funding related to Hurricane Mitch. If our NGOs 
are stretched to the limit, you cannot fund Catholic Relief on 
bake sales. And all--and my concern for Hurricane Mitch is if 
we do not address that, we are going to have very serious 
problems on our own borders while other nations are facing the 
border.
    So we really look forward, Mr. Atwood, to you making your 
presentation; and to you, Mr. Deputy Secretary, on how our 
military is playing a role.
    Mr. Chairman, that is all the remarks I wish to make.
    Chairman Stevens. Thank you very much.
    The sheet that I have just given all of you is the working 
paper that my staff and I have been working on with regard to 
supplemental military and other humanitarian items beyond that.
    Senator Reid.

                      Statement of Hon. Harry Reid

    Senator Reid. Mr. Chairman, thank you very much. This 
hearing is, of course, apparently very important and it is. But 
I personally appreciate all the other informational hearings 
you have held while you have been chairman of this committee. 
They have been most helpful.
    This package that is before us will protect the military 
readiness of those forces in the Balkan theater and other 
United States forces that assures our military has full 
measures of resources necessary to carry out the Kosovo air 
campaign and also funds U.S. commitment to provide humanitarian 
relief now in response to future refugee assistance needs.
    Mr. Chairman, I--I am not at first glance totally opposed 
to the supplemental items. I think we have to take a very close 
look at them.
    I also want to reiterate, underline, and put an exclamation 
mark by what the Senator from Maryland has just said. I think 
we also have to include the previous supplemental that has 
already passed both bodies of this Congress.
    And I hope we can move on with this whole package in the 
immediate future.
    Chairman Stevens. Thank you, Senator.
    Senator Murray.

                     Statement of Hon. Patty Murray

    Senator Murray. Thank you, Mr. Chairman. Thank you for 
allowing me to sit on your side for lack of seats on our side. 
I assume that means we are getting more members. I am not sure. 
[Laughter.]
    Mr. Chairman, in the interest of time, I want to hear from 
the witnesses. I think this is an extremely important hearing. 
I think we need to move expeditiously on this package.
    Clearly, the American public is--is behind this at this 
time, and I look forward to the witnesses testifying before us 
today.
    Chairman Stevens. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman, for convening 
this hearing.
    Just a couple of comments: I believe it is very important 
when we take up this request for $6 billion that we have some 
idea as to where we are heading and what the total cost is 
going to be as best we can project it.
    I am concerned that we are involved in a war without 
Congressional authorization as required by the Constitution. 
The Senate has authorized the air strikes, but has put a 
specific reservation on ground forces, but the House has not 
acted, and we are a bicameral legislature.
    It seems to me that we ought to have some idea as to where 
we are heading with the great many conflicting reports coming 
out.
    The President over the weekend said that he was going to be 
looking to the Secretary General of NATO for a reevaluation of 
the need for ground forces, which surprised me a little. I 
would think that kind of leadership ought to be coming from the 
President, because the United States is the driving force.
    We have comments from France and Great Britain about ground 
forces. I think the Congress needs to have some idea as to 
where we are going and what the total cost is going to be, 
because we do not want to exercise our authority through 
control of the purse strings.
    When our fighting men and women are over there, we, 
obviously, have to back them up. But I believe it is necessary 
to have some projection as to where we are going and what the 
total cost is going to be.
    One other point, I would hope that this hearing will take 
up the funding for the war crimes tribunal. We have a very 
excellent opportunity for cross political pressure against 
President Milosevic by proceeding against him as a war 
criminal, providing the evidence holds up. And the indications 
at the moment are that it does.
    But that is a signal to others in his chain of command and 
that can have a very salutary effect, so that it is necessary 
that adequate funding be provided for the war crimes tribunal.
    But overall, I think you will find a receptive audience 
here, gentlemen. But Congress has to be involved, if not at the 
takeoff, during the course of these flights, so we know exactly 
what is going to happen and what the ultimate costs are going 
to be.
    Thank you, Mr. Chairman.

                    additional submitted statements

    Chairman Stevens. Thank you. I would like--I--I thank all 
of you for your patience.
    If any other members wish to submit statements for the 
record, they will be inserted at this point.
    [The statements follow:]

                Prepared Statement of Senator Herb Kohl

    Like many of my colleagues who have spoken before me, I am 
deeply concerned about what is happening in Kosovo. I support 
the request before us today because we cannot stand by while 
this dictator Milosevic causes pain and suffering for all the 
people of the region. Although the Administration and NATO 
worked diligently to bring a peaceful resolution to the 
conflict in Kosovo, the use of force was always held out as an 
option. There is an international consensus that now is the 
time to use that option. It is my hope that air strikes will 
pave the way for a diplomatic resolution in Kosovo, a 
resolution that provides for the safe return of refugees, and a 
political arrangement for the people of Kosovo that can be 
supported by all.
    The air strikes, as well as the humanitarian and military 
efforts we have engaged in so far, define the phrase 
``emergency situation.'' I appreciate the Administration's 
efforts to present us with a request that addresses this 
emergency before us, and only that. While I am prepared to 
support a funding request that addresses truly emergency needs, 
I have concerns that this bill will become a magnet for 
increasing the defense budget beyond what is necessary.
    Congress just passed a budget that set severe caps on 
spending that many of us believed were not feasible. If this 
bill becomes a backdoor method of increasing spending on non-
emergency defense items, our fears will have proven founded. If 
we believe that defense is not adequately funded, we should 
openly and honestly budget more for defense. We should not use 
the tragedy in Kosovo as an excuse to bust a budget that 
everyone knows is unrealistic and unworkable.
    That said, the Administration has brought us a request that 
is, for the most part, justifiable as emergency spending. 
However, I do have some questions about how you arrived at some 
of the funding levels for State Department operations. For 
example, $30 million for police training and $25 million for 
increased diplomatic activity seem excessive, especially in 
light of the incredible humanitarian crisis unfolding. The 
international community is struggling to meet the basic needs 
of the refugees who are fleeing from Kosovo--food, water, 
shelter and medicine. And yet, there are ample funds for police 
and politicians and no funds for food aid.
    The UNHCR currently estimates that there are 1 million 
refugees, and that number could go even higher. To meet food 
aid demands in the region, the World Food Program estimates 
that $66 million to $102.7 million will be needed. Of those 
totals, the U.S. share would be $4.9 million to $7.7 million.
    In spite of this need, there is nothing in the President's 
budget to provide additional funding for the Public Law 480 
program--our international food aid program. In fact, the House 
has rescinded $30 million in the Public Law 480 Title I program 
(which can be used for Food for Progress grants or transferred 
to the Title II assistance program) and the President's budget 
proposal for fiscal year 2000 included reductions in both 
Titles I and II.
                                ------                                

              Prepared Statement of Senator Larry E. Craig
    Mr. Chairman, thank you for holding this very important hearing 
today about paying for the military operations in Yugoslavia.
    I am deeply concerned about the current operation in Kosovo. It is 
very apparent that President Clinton hoped for the best, and got the 
worst when be began the campaign. I voted against the authorization for 
air strikes against Yugoslavia because I do not believe this so-called 
``campaign'' is in U.S. national security interests, or an appropriate 
action for NATO--a defensive military alliance.
    Despite the fierce air war over Yugoslavia, Milosevic does not 
appear ready to capitulate any time soon. Meanwhile we must closely 
examine the impact this operation is having on our ability to defend 
our national security interests around the world.
    Prior to the Kosovo operation, it was evident that our Armed Forces 
were feeling the strain. For example:
  --Since 1989, manpower has been cut by nearly one-third, the number 
        of missions has quadrupled, and defense spending has been 
        dramatically reduced.
  --In spite of claims to the contrary, President Clinton's fiscal year 
        2000 defense budget represents a real decline of 1 percent 
        (inflation adjusted) from current spending levels, and marks a 
        39-percent drop from the spending levels of the mid-1980s.
  --The Kosovo mission is increasing an already high operational tempo 
        for our service members. As defense spending declines, the U.S. 
        military has been asked to do more with less. Since 1990, U.S. 
        armed forces have been used in 37 major foreign missions, 
        compared to 22 between 1980 and 1989.
    At what point will this mission in Kosovo jeopardize our ability to 
defend our vital interests around the globe, if it hasn't already? The 
impact on readiness is real. For example:
  --800 U.S. aircraft are planned for deployment to the Balkans. This 
        deployment reportedly will tie up 7 combat air wings out of 20.
  --The Pentagon's declared mission is to be able to fight, and win, 
        two ``major regional conflicts (MRCs)'' almost simultaneously. 
        The humanitarian mission in Kosovo now accounts for two-thirds 
        of the number of planes needed for one such fight.
  --7 out of 10 of the Army's active division are currently involved in 
        operations. Only the 25th Infantry, the 82nd Airborne, and the 
        101st Airmobile Divisions are not committed.
  --Since March 24, the Pentagon has diverted needed planes from the 
        Pacific command and the Iraq operation, to the Balkans.
  --There is no aircraft carrier in the Pacific because the U.S.S. 
        Kitty Hawk has been diverted to covering in the Gulf while 
        other carriers go to the Adriatic.
    It is clear that this Administration never considered what would 
happen if Milosevic did not give in after the first wave of bombings. 
As a result, it is no surprise that we find ourselves in the current 
situation. President Clinton believed that he could impose an 
artificial solution on an ancient ethnic conflict.
    This grave miscalculation has both magnified the violence against 
ethnic Albanians, destabilized neighboring states, and has jeopardized 
our national security interests. Now it appears that the Administration 
obviously intends to reinforce failure.
    This weekend the President said the Serbs ``had 40,000 troops in 
and around Kosovo and almost 300 tanks. It takes time to reverse that, 
but we are working on it and we will prevail if we execute well with 
real determination.''
    The truth is that we are not reversing the situation. Indeed, more 
intense bombing will weaken the Yugoslav military, but destroying 
buildings and even tanks is not likely to drive Serbian troops out of 
Kosovo. In fact, there are more Serb troops in Kosovo today than there 
were before the campaign began (approximately 8,000 more.)
    Meanwhile the U.S. finds itself paying the lion's share of the 
Kosovo costs, both financially and militarily. The label ``NATO 
campaign'' is a misnomer. For example:
  --Of the roughly 1,000 aircraft in the campaign, about 700 are 
        American.
  --While U.S. warships have launched Tomahawks by the hundreds, the 
        British Royal Navy has fired a grand total of five cruise 
        missiles since March 24th.
  --At least 58 percent of the combat sorties are flown by U.S. planes.
  --At least 65 percent of supplies sorties have been flown by U.S. 
        planes.
    Everyday we hear a different report as to whether the 
Administration is considering the introduction of ground troops.
    In spite of the mission's laudable goals, it is clear that a ground 
war is not the solution. It would be a costly and grueling endeavor 
that would bog down U.S. troops in Kosovo for years as peacekeepers and 
guarantors of the Kosovars' human rights. An open-ended commitment 
would divert America's military forces from more urgent threats to U.S. 
national interests, such as those posed by Iraq and North Korea--a 
gamble we cannot afford to take.
    Mr. Chairman, thank you again for holding this very important 
hearing.

    Chairman Stevens. Mr. Lew, we are going to call on you 
first. When you first came to the committee not quite a month 
ago, we were talking about $3 billion from--from the 
administration's point of view.
    We are now looking at $6.05 billion on this and we have 
gone a little bit further than that in terms of our 
suggestions. We would be happy to have your comments about not 
only the bill you presented, but about what you know about what 
we are seeking to add.

               Opening statement of OMB Director Jack Lew

    Mr. Lew. Thank you, Mr. Chairman. I would like to begin, if 
I could, just to reiterate some of the comments that were made 
by the members of the committee, sitting here today talking 
about the funding of this operation.
    It really is incumbent on us to begin with--by recognizing 
the commitment, the skill, the readiness of our troops abroad 
right now and the excellent way in which they are performing 
their duty, and to recognize the efforts undertaken by 
Americans and voluntary international organizations and our 
allies to provide urgent humanitarian relief.
    There really is an extraordinary effort underway, with an 
extraordinary alliance performing together.
    Mr. Chairman, Senator Byrd, members of the committee, I 
appreciate the opportunity to appear today to describe and 
respond to questions about the President's request for 
supplemental appropriations to fund activities with regard to 
Kosovo.
    Last week, the President submitted a request for $6.049 
billion in supplemental requests. And that package sends a very 
clear message. We will protect readiness and provide the 
resources necessary to maintain the current operations for as 
long as necessary to succeed.
    The 1999 supplemental request is not a schedule or a 
deadline for this operation. It is merely the 1999 funding 
portion of the operations.
    The administration's package does protect the military 
readiness of forces in the Balkans and around the world. It 
does ensure that our military has the resources necessary to 
carry out the Kosovo air campaign for as long as necessary, and 
it funds a U.S. commitment to provide immediate and anticipated 
humanitarian relief.
    Because the current situation in Kosovo was not anticipated 
in the context of the fiscal year 1999 appropriation cycle or 
during the preparation of the President's fiscal year 2000 
budget, we think it is necessary and appropriate that it be 
treated as an emergency request.
    We think it is critical that Congress pass this legislation 
very quickly because the real issue in terms of readiness is a 
question of the timing of this funding.
    The request includes all the resources that the Department 
of Defense needs to maintain readiness, but it needs to get a 
clear signal very quickly that the funding will be provided.
    We also urge Congress to act expeditiously on the other 
supplemental requests that are pending: the Central America 
supplemental, the agriculture relief supplemental and the 
Jordan supplemental.
    These matters have been pending since February. They remain 
very, very urgent and time sensitive. And we hope we can work 
together to get those enacted quickly.

               Summary of request for military operations

    I would like to briefly review the funding levels. The 
funding for military activities is $5.123 billion; $3.3 billion 
is for current and projected operations in Kosovo; $698 million 
is for munitions replenishment, and $850 million is contingent 
funding for readiness and munitions reserve.
    This request also includes $274 million to cover the 
Department's unanticipated strike and operation costs in 
Southwest Asia.
    On the humanitarian side, the request includes $335 million 
for the Department of Defense Refugee Assistance, which brings 
the total for the Department of Defense to $5.458 billion.
    The total for international affairs is $591 million. This 
includes $386 million for humanitarian operations, $55 million 
for state operations and other stabilization efforts, and $150 
million for securing the frontline states.
    Combined, the package requests $721 million for 
humanitarian operations and refugee relief when you combine the 
State Agency for International Development (AID) and the 
Department of Defense portions.
    I would like to, if I could, review the objectives of the 
operation and some of the funding requests and some of the 
details that I think are very important for us to go through.
    We must protect the readiness of our U.S. forces. The 
current Kosovo operations are being paid for out of funds that 
were in the Department of Defense previously. And if they are 
not replenished, if they are not replaced very quickly, the 
Department will need to move resources around in a way that we 
think would undermine readiness.
    That is why there is time sensitivity to this request. 
Secretary Cohen has testified that we need funds tomorrow, and 
no later than Memorial Day. I think that suggests a very real 
sense of the time considerations in terms of avoiding a 
readiness crisis.
    We must ensure that our military has the full measure of 
resources necessary to carry out the Kosovo air operation for 
as long as necessary.
    The supplemental request anticipates maintaining in theater 
all the forces that are there and all the forces that are 
scheduled to be deployed there for the balance of the fiscal 
year.
    Chairman Stevens. Now wait, Jack. When you submitted that 
to us, there were 700 airplanes there. There are 1,000 there 
now. When you submitted it to us, there were 2,200 people along 
with Apache helicopters. There is 5,500 now. You did not 
include that money at the time. You did not know they were 
coming.
    You now just called up in addition to that another 3,000 
Reservists and National Guardsman this morning. So that is not 
quite correct, is it?
    Mr. Lew. Well, Mr. Chairman, I was going to get to that. 
But I am happy to go out of order and address that issue right 
now.
    This request does include all of the air resources that 
have been requested by General Clark. They include all of the 
ground support for the Apaches, and they include the funding 
for the Reserve call-up. We will have more to say about that 
later today.
    Chairman Stevens. You anticipated that 30 days ago?
    Mr. Lew. Well, as you know, Senator, the package was 
developed contemporaneously with the operational plan being 
undertaken.
    When we first spoke about this, actually the number was 
very close to where it is now. The number developed in a two- 
to three-week period as we got the additional requests from 
General Clark and as we determined the cost of putting those 
additional resources into play.
    The last change that was made between our conversations was 
made in order to accommodate the Reserve requirements and to 
accommodate them at a generous level, certainly a level in 
excess of what we anticipate we will be using in the short-
term.
    The package, to put it into a time frame, provides $287 
million to fund the estimated cost of the initial U.S. air 
campaign through April 30, and $3 billion to sustain air 
operations for the balance of the fiscal year.
    As you know, we cannot predict when the air campaign will 
achieve its desired outcome. And the principle behind the 
funding was that funding should not drive the decision. The 
funds should be available for the operation to proceed for as 
long as necessary.
    I would like to underscore that the supplemental request 
does not provide funding for the deployment of U.S. ground 
forces to Kosovo.
    The only ground expenses are the expenses associated with 
the Apache helicopters, which technically are Army operations, 
even though they are aircraft. We have fully funded the ground 
support for the Apaches, but that is the only ground expense 
included.
    Chairman Stevens. Jack, I do not know how you can say that. 
We were there and we were told it was a surprise to Clark, that 
it was a surprise to the rest of them, that we went from 2,200 
to 5,500. You could not have known that when you submitted this 
document.
    Mr. Lew. In preparing the estimates, there were a number of 
cases where the Department--I will defer to Dr. Hamre on some 
of the details, identified a range of costs and a range of 
resources that might be needed to deploy the resources that 
were being called for.
    We have, if anything, erred on the side of high estimates 
rather than low estimates to permit us to have the room to say 
with some confidence that we have taken account of what we have 
anticipated to be the resources required for the balance of the 
year.
    I would not for a minute sit here and say that there will 
not be some surprises. We have actually planned this package, 
so that we have the ability to deal with costs that might arise 
that we did not anticipate.
    As you know, we put in a readiness reserve fund where, in 
terms of operations, we provided $150 million in excess of our 
firm estimates so that to the extent that there are operational 
requirements in excess of what we have projected, we have the 
ability to pay for those without having a readiness issue arise 
in other areas.
    In the case of munitions, we provided for $700 million to 
replace munitions that may be used over the course of the year.
    We had not tried to do a dollar-for-dollar or bullet-for-
bullet replacement. What we wanted to do was give the 
Department the ability to deploy the munitions that it needs to 
accomplish the task, with the firm knowledge that they have the 
resources to replace what they use with what they need.
    And if those are different weapons, different munitions, if 
they are somewhat more costly, more modern, we provided the 
additional funding to deal with that.
    So we have tried to design this package to anticipate as 
much as we can, but also to understand that there are costs 
that we cannot firmly project and to build on the flexibility 
necessary so that we will not find ourselves resource 
constrained to respond to the situation as it develops.
    I have, in the course of responding to your question, gone 
through many of the issues that I was going to raise with 
regard to the Department of Defense.

               Summary of request for humanitarian relief

    And if I could, I would like to say a few words about the 
humanitarian relief effort, because I think it is very, very 
important and demands our attention.
    We must fund the U.S. commitment to provide humanitarian 
relief now and to respond to potential future refugee 
assistance needs. There are hundreds of thousands of refugees 
and internally displaced persons from Kosovo, who need urgent 
assistance. We are planning to assist through several means at 
least 1 million and possibly up to 1.5 million refugees.
    The President's supplemental request of $220 million for 
the migration and refugee assistance account and the emergency 
refugee and migration assistance account will provide the 
resources necessary to cover the estimated U.S. share of the 
multilateral costs for 1 million refugees or internally 
displaced persons through the end of fiscal year 1999.
    The U.S. contribution shares the burden with other 
countries by providing roughly 25 percent of the estimated 
cost.
    The requested funds will also permit the United States to 
help meet its commitment to bring up to 20,000 refugees to this 
country and provide them with a safe haven. In addition to 
bringing 20,000 refugees to this country, we have undertaken a 
commitment through the Department of Defense to provide 
assistance to 20,000 refugees in Albania. That funding is 
provided for in the Defense portion of the humanitarian 
request.
    For refugees outside Kosovo, there may be unknown costs 
that we cannot project with the precision that we would like. 
And for that reason, the request provides the necessary funds 
for additional large scale refugee outflows from Kosovo, or if 
necessary, provides the humanitarian assistance to those Kosovo 
Albanians in Kosovo if conditions permit.
    We are not requesting funding for long-term reconstruction 
activities, but we think it is prudent to anticipate the need 
for planning for refugee repatriation and for that 
reconstruction.
    Moreover, our request for funds in the Eastern European 
assistance program allows for the possibility that we can 
address the most immediate costs such as digging wells, 
providing shelter and other infrastructure needs associated 
with the return of Kosovo refugees to their homes once we 
achieve a solution to the conflict.
    Overall, the request includes $721 million for the 
humanitarian relief activities of the Departments of State and 
Defense and AID.
    With this request, we believe that we have fully addressed 
both the critical short-term needs of the refugees and others 
adversely impacted by the crisis.
    If I could provide just a few more details on the State 
Department's portion of the refugee assistance, overall within 
the State Department, we have requested $386 million in 
humanitarian assistance.
    Of this, $125 million is requested for the migration 
refugee account (MRA), and $95 million for the emergency 
refugee and migration account.
    The MRA funds would be used to respond to the appeals of 
international and non-governmental organizations such as the 
United Nations (U.N.) High Commission on Refugees.
    The supplemental emergency refugee management account 
(ERMA) funds would be used to ensure that the account has 
sufficient funds to meet any urgent and unforseen requirements 
that arise from the crisis, which could conceivably be doubling 
the refugee population, while enabling the fund to meet the 
need to provide frontline life-saving responses to humanitarian 
emergencies worldwide.
    It is also the ERMA fund that will provide assistance to 
the 20,000 Kosovo refugees who are brought to the United 
States.
    The President has also requested $71 million for AID's 
Office of Foreign Disaster Assistance. And the $68 million is 
primarily going to be used to deal with the unusual nature of 
refugee assistance that is being provided.
    There are an enormous number of refugees who are being 
taken into people's homes and into community facilities, not 
through the traditional refugee assistance network. And the 
flexible approach taken in the AID's Office of Foreign Disaster 
Assistance gives us the opportunity to help support those very 
critical efforts.
    The last issues that I would like to mention are the 
funding for the diplomatic operations and other stabilization 
efforts and the assistance we have requested for frontline 
states. The supplemental includes $55 million for diplomatic 
operations and other stabilization efforts.
    This includes $25 million to meet diplomatic and security 
requirements arising from the crisis in Kosovo and will enable 
us to fund many activities including some training of law 
enforcement officers and investigations related to prosecuting 
alleged atrocities in Kosovo.
    The funds would be used to interview refugees and to 
prepare the necessary documentation for possible war crimes 
that may be forthcoming.

                   Assistance to the frontline states

    Finally, I would like to talk about the assistance for 
frontline states. And I think this is probably the piece of the 
President's request that has been the most misunderstood and 
really deserves an extra moment of attention.
    The needs of the frontline states are immediate. It is not 
a question of going ahead with reconstruction. This is a 
question of: What does it take to have the frontline states 
maintain their security during these very difficult times and 
not to have one or more of the frontline states simply implode 
from the pressures both financial and physical, in terms of 
their infrastructure during this critical period?
    The President has requested $150 million, which would 
enable us to provide both economic and physical support. There 
are short-term economic pressures, both in terms of debt 
payments and loss of trade.
    There are immediate needs in terms of infrastructure that 
is just being overtaxed to the point that it is going to 
collapse in some areas.
    As we go through the questions, this is an area that I know 
has caused some concern to many on the committee, but it is 
absolutely critical.
    I know on Friday at the NATO events, I had the opportunity 
to talk with General Clark for a few minutes. And the thing 
that he emphasized to me was that this is a critical area of 
funding, that everything we are doing depends on maintaining 
the stability in the region and not forgetting the frontline 
states.
    I would like to conclude just by thanking the committee for 
holding this hearing and thanking the Chairman for his interest 
in moving quickly.
    I know that there are going to be issues about additional 
funding that the committee may be thinking of. I would urge all 
members of the committee to try and work in a bipartisan manner 
on this and in a very quick manner, because timing is of the 
essence.
    We cannot allow this to become delayed by controversy or by 
the kinds of issues that have in the past delayed supplemental 
requests.
    At the same time, we have urgent needs in Central America, 
in our own farm communities and we need to keep our eyes 
focused on completing the emergency supplemental request that 
was pending prior to the submission of this package.

                           prepared statement

    Mr. Chairman, with that, I would like to complete my 
opening remarks. And I would be happy to defer to my 
colleagues.
    Chairman Stevens. Thank you very much.
    [The statement follows:]
                   Prepared Statement of Jacob J. Lew
                              introduction
    Mr. Chairman and distinguished members of the Committee, thank you 
for the opportunity to explain the Administration's request for 
supplemental appropriations to finance military and humanitarian 
operations related to Kosovo. Since you are very familiar with the 
foreign and military policy objectives of our Kosovo operations, I will 
restrict my comments to describing the President's proposed 
supplemental funding request, its key assumptions, structure, and 
purpose.
    Last week the President transmitted a $6.049 billion emergency 
supplemental appropriations request to provide the resources necessary 
for the key elements of our military, humanitarian, and diplomatic 
efforts. It sends a very clear message--we will protect readiness and 
provide the resources to continue current operations for as long as 
necessary to succeed. While this is an fiscal year 1999 supplemental 
request, it does not represent either a schedule or a deadline for 
those operations. The Administration's package: protects the military 
readiness of those forces in the Balkan theater and all other U.S. 
forces; ensures our military has the full measure of resources 
necessary to carry out the Kosovo air campaign; and, funds the U.S. 
commitment to provide humanitarian relief now and respond to potential 
future refugee assistance needs.
    Because the current situation in Kosovo was not anticipated when 
the fiscal year 1999 appropriations were enacted or when the fiscal 
year 2000 budget was prepared, we have submitted this supplemental as 
an emergency request. It is critical Congress act quickly to pass this 
emergency request to ensure that the Departments of Defense and State 
and the U.S. Agency for International Development (AID) have the proper 
resources to carry out their missions. In particular, we urge the 
Congress to act quickly to avoid any degradation to our military 
readiness. We hope that Congress will act expeditiously on this package 
and avoid delays brought about by consideration of extraneous matters. 
Our armed forces and the humanitarian crisis in Kosovo demand nothing 
less. We also urge Congress to act expeditiously on the Central 
American and Agriculture relief supplemental requests without adding 
extraneous legislative riders or unrelated matters.
    As I mentioned earlier, the overall package totals $6.049 billion 
and covers only the fiscal year 1999 costs of these operations. Funding 
for military activities is $5.123 billion, with $3.301 billion of that 
for current and projected operations in Kosovo, $698 million for 
munitions replenishment, and $850 in contingent funding for a readiness 
and munitions reserve. It is important to note again that U.S. forces 
will remain as long as necessary to accomplish their mission, and we 
intend to provide full funding to support that endeavor. Also included 
in the total for DOD military activities is $274 million to cover the 
Department's unanticipated strike and operations costs in Southwest 
Asia. On the humanitarian side, the request also includes $335 million 
for DOD refugee assistance, bringing DOD's total to $5.458 billion. The 
total for the international affairs is $591 million. This includes $386 
million for humanitarian operations, $55 million for State Department 
operations and other stabilization efforts, and $150 million for 
securing the front-line states. Combined, this package requests $721 
million for humanitarian operations and refugee relief.
                               objectives
    This supplemental request is designed to meet the following 
objectives:
    1. We must protect the military readiness of those forces in the 
Balkan theater and all other U.S. forces. A chief priority of the 
Administration has been to ensure this supplemental fully covers the 
costs of the Kosovo effort and maintains U.S. readiness. Currently, 
Kosovo operations are being paid for with funds that already are in 
DOD's budget for normal operations and training activities during the 
last three months of the fiscal year. Expedient action is needed to 
restore these funds to avoid serious readiness consequences later in 
the year. Moreover, to ensure that we will have sufficient stocks of 
critical munitions for future operations, we must begin to replace 
those munitions already used and those we anticipate using during this 
operation. This supplemental meets these needs. That is why we are 
anxious to work with Congress on a bipartisan basis to enact this 
supplemental as soon as possible.
    2. We must ensure our military has the full measure of resources 
necessary to carry out the Kosovo air campaign for as long as 
necessary. To provide maximum flexibility to our military commanders, 
we are requesting sufficient funding to provide the capability to 
continue operations at a high pace with the currently approved forces. 
The supplemental request assumes that the currently approved level of 
U.S. forces, including a carrier battle group, more than 600 Air Force 
and Marine Corps aircraft, one Marine Expeditionary Unit, several Army 
helicopter battalions and missile batteries, and other support forces 
are sustained in the Balkans for as long as necessary. This 
supplemental would support these force levels for the remainder of 
fiscal year 1999. The requests also provide the capability for U.S. 
forces to maintain the air campaign at the current rate of sorties and 
strikes on Yugoslavia.
    3. We must fund the U.S. commitment to provide humanitarian relief 
now and respond to potential future refugee assistance needs. Hundreds 
of thousands of refugees and internally displaced persons from Kosovo 
need urgent assistance. Although there is no precise count, we are 
planning on assisting through several means at least one million and 
possibly up to one and one-half million refugees and internally 
displaced persons. The President's supplemental request of $220 million 
for the Migration and Refugee Assistance (MRA) and the Emergency 
Refugee and Migration Assistance (ERMA) accounts will provide the 
resources necessary to cover the estimated U.S. share of the 
multilateral costs for one million refugees or internally displaced 
persons through the end of fiscal year 1999. The U.S. contribution 
shares the burden, with other countries providing 75 percent of the 
required resources. The U.S. 25 percent share is consistent with 
customary practice, which demonstrates a strong U.S. commitment while 
fostering a multilateral burden-sharing approach. The requested funds 
will also permit the U.S. to help meet its commitment to bring up to 
20,000 refugees to this country to provide them a safe haven.
    No one can be sanguine, however, about the final costs of helping 
the refugees and internally displaced persons. We do not know the full 
needs of a population that we have been unable to help directly, the 
displaced Kosovars in Kosovo. For the refugees outside Kosovo, there 
may be other as yet unknown costs as the international community helps 
build temporary camps for hundreds of thousands of people, and arranges 
assistance though a non-governmental and private voluntary 
organizations. For that reason, our request provides the necessary 
funds to provide for additional large-scale refugee outflows from 
Kosovo or to provide humanitarian assistance for those Kosovo Albanians 
in Kosovo if conditions permit.
    We are not requesting funding for long-term reconstruction 
activities, but we think it prudent to anticipate the need for planning 
for refugee repatriation and for that reconstruction. Moreover, our 
request for funds for in the Eastern Europe assistance program allows 
for the possibility that we can address the most immediate costs, such 
as digging wells or providing shelter, associated with the return of 
Kosovo refugees to their homes once we achieve a solution to the 
conflict.
                          detailed explanation
    The highlights of our funding request for military operations, 
humanitarian operations, diplomatic operations, and readiness and 
munitions replenishment are as follows:
Military Operations
    Military Readiness.--As a first priority, this supplemental package 
protects military readiness through funding levels based on robust 
assumptions, such as providing the capability to sustain operations for 
the rest of fiscal year 1999. In addition, we have requested 
contingency funding to cover unanticipated costs that might arise 
during the prosecution of this action. We have worked hard to ensure 
that this package would provide DOD sufficient funding to sustain 
military readiness while action in Kosovo continues.
    Kosovo Operations.--First, this package provides $287 million to 
fund the estimated cost of the initial U.S. air campaign through April 
30, 1999. Also requested is funding to cover the costs of U.S. forces' 
support to the Organization for Security and Cooperation in Europe 
operations in the Balkans and the Kosovo Air Verification Mission, 
which ended shortly before the air campaign began. Second, this package 
requests $3.01 billion to sustain air operations against Yugoslavia, 
which will continue as long as necessary. We cannot predict when the 
air campaign will achieve its desired outcome. Therefore, to provide 
maximum flexibility to our military commanders, we are requesting 
sufficient funding that will provide us the capability to continue 
operations at the current, planned levels with the currently approved 
forces. Funding will cover the cost of operating aircraft and ships, 
deployment of assets, force protection and base activities, spare 
parts, transportation, logistics services, equipment maintenance, 
special pay and allowances, supplies, and other support costs for U.S. 
forces in the Balkans. I should stress that the supplemental request 
does not provide funding for the deployment of U.S. ground forces to 
Kosovo.
    There has been a lot of discussion concerning the monthly cost of 
this military operation. First, the costs associated with Southwest 
Asia ($451 million, of which $274 million is for operations and $177 
million for munitions) and refugee relief ($335 million) should be 
removed from the total. In the remaining $4.6 billion, our request 
includes nearly $500 million in one-time start-up costs that cover 
deploying forces and setting up facilities in theater. The costs will 
be incurred in the early part of the operation; therefore, as the 
operation proceeds, the actual costs per month will decrease. Including 
munitions costs, discussed below, the recurring costs for the Kosovo 
operation total $4.1 billion or approximately $700 million per month. 
This package fully funds the Department's request for operations.
    For the Kosovo operations, the Department of Defense is requesting 
authorization to call up approximately 33,000 reservists. Approximately 
25,000 will support Air Force strike operations, 2,000 will support 
Navy and Marine Corps operations and 6,000 will meet the Army's demands 
for support to Task Force Hawk. We have included approximately $450 
million for fiscal year 1999 in the supplemental for costs associated 
with the call-up.
    Munitions Replenishment.--The Administration requests $698 million 
to replenish and upgrade cruise missiles and certain other types of 
``smart'' munitions used in Kosovo and Iraq. This request both replaces 
munitions used in Iraq and Kosovo to date and covers anticipated usage 
of these critical weapons. It includes: $445 million to upgrade older 
Tomahawk missiles (including Tomahawk Anti-Ship Missiles) to the more 
capable Block IIIC Tomahawk Land Attack Missile; $178 million to 
convert 322 nuclear-Air Launched Cruise Missiles to Conventional Air 
Launched Cruise Missiles; $35 million to accelerate Joint Direct Attack 
Munition (JDAM) production; and $40 million to accelerate air-launched 
towed decoy production. This funding will protect readiness by ensuring 
that adequate stocks of these critical munitions will be available for 
current and future operations. This request will not only replenish 
those critical munitions already expended, but will also increase the 
inventories of these munitions from when we began the operation. For 
example, for JDAMs, the request funds 33 percent more units than 
contained in the inventory at the start of the operation.
    As we work to ensure readiness in all theaters, both now and into 
the future, it is imperative that we replace certain munitions as 
rapidly as possible through this emergency supplemental. Of the 
programs included in the supplemental, deliveries of all but Tomahawk 
will actually begin this calendar year. However, we continue to 
maintain substantial reserves of these missiles. Tomahawk deliveries 
will not begin until fiscal year 2001, but supplemental funds will 
ensure that we have an adequate and more capable inventory for future 
operations.
    Readiness and Munitions Contingency Reserve.--The Administration's 
proposed contingency reserve fund will ensure readiness levels of all 
forces remain high while operations continue in Kosovo and that 
inventories of critical munitions are adequate for future operations. 
The Administration proposes that $850 million of the Department of 
Defense funding request be set aside in a contingency fund to: (1) 
prohibit any degradation in the readiness of our forces in the Balkans 
and around the world that could result from the uncertainties of 
conflict in Kosovo; and (2) replenish the inventories of munitions that 
could be used in Kosovo but have not been used to date. Prudent 
planning for quickly-changing operations calls for setting aside 
additional funding on a contingency basis to assure that a high level 
of military readiness is maintained in and outside of Kosovo, and that 
the supply of munitions, an essential element of readiness, remains 
sufficient for future operations.
    Southwest Asia.--As you know, we are still conducting operations in 
the Persian Gulf at higher than anticipated rates. Therefore, a total 
of $274 million is requested to cover the costs of Operation Desert 
Thunder and Desert Fox, as well as to fund higher-than-anticipated 
operating levels in and around Iraq through the remainder of the fiscal 
year. Funding to replace CALCMs and Tomahawk missiles used in Operation 
Desert Fox totals $177 million.
    Before I conclude my discussion on funding for military operations, 
I want to reiterate the necessity for rapid consideration of this 
package. The military will soon need to make decisions regarding its 
fourth quarter training program. In order to plan effectively, DOD must 
know that it has sufficient funding available to carry out those 
activities. Further, it is difficult to defer costs in the fourth 
quarter, making it imperative that DOD have sufficient resources 
available immediately to undertake all the necessary readiness 
activities during the fourth quarter. I strongly urge the Congress to 
consider this supplemental request expeditiously to protect military 
readiness.
Humanitarian Operations
    Our request includes $721 million for the humanitarian relief 
activities of the Departments of State and Defense, and the AID. With 
this request, we believe we have fully addressed both the critical 
short-term needs of the refugees and others adversely impacted by the 
crisis and also begun planning for the long term humanitarian 
implications for the region. We have requested our share of the 
multilateral effort to supply food, shelter, water and sanitation, 
health, and other life sustaining elements for up to a million refugees 
that United Nations High Commissioner for Refugees (UNHCR) has 
currently projected to result from this crisis. We are confident our 
request also fully addresses the potential needs of the hundreds of 
thousands of people in Kosovo who may be without shelter, and the 
hundreds of thousands of other Kosovars whose lives have been 
tragically altered by the policies of the Milosevic government.
    The Department of Defense's costs for aiding Kosovar refugees fall 
into three categories. First, for the last three weeks DOD has provided 
$25 million in defense articles and services under the drawdown 
authority signed by the President March 31. This amount has funded the 
provision of humanitarian rations, tents, blankets, and other relief 
supplies. Our supplemental request would replenish the operation and 
maintenance accounts that have been the source for these funds. Second, 
DOD may contribute up to $10 million toward a NATO-led task force that 
is providing refugee relief, and our request includes these funds. 
Finally, DOD plans to construct and operate a temporary camp for up to 
20,000 refugees, likely in Albania, and provide other assistance as 
needed. Our request provides $300 million to carry out this plan.
    The President is requesting $220 million for the Department of 
State's refugee accounts. Of this amount, $125 million is requested for 
the MRA account and $95 million for the ERMA account. The MRA funds 
would be used to respond to the appeals of international and non-
governmental organizations, such as the UNHCR, International Committee 
of the Red Cross, and the International Organization for Migration. 
These appeals would fund programs providing critical life-sustaining 
assistance to refugees, displaced persons, and conflict victims and 
support the multilateral effort to transport Kosovar refugees to 
temporary refugee countries. The supplemental ERMA funds would be used 
to ensure the account has sufficient funds to meet any urgent and 
unforseen requirements arising from the crisis--such as a doubling of 
the current refugee outflows--while enabling the fund to meet the need 
to provide front-line, lifesaving responses to humanitarian emergencies 
worldwide. Moreover, we will use $40 million of ERMA funds to provide 
for the Department of State's share of the costs of resettling up to 
20,000 Kosovar refugees in the United States.
    The President is requesting $71 million for AID's International 
Disaster Assistance account. Of this amount, $68 million would fund 
programs providing direct humanitarian assistance to the victims of the 
Kosovo crisis. A large percentage of the Kosovar refugees are not in 
traditional refugee camps supported by UNHCR, but in private homes, 
schools and other host government facilities, and these kinds of 
arrangements are likely to increase as refugee outflows continue. The 
humanitarian assistance requirements for refugee communities living in 
these arrangements are substantial. Working through private voluntary 
organizations, AID disaster assistance can provide prompt and critical 
support for the affected communities, as well as continue to provide 
essential assistance in specified sectors within the more traditional 
refugee camps. The request would also provide $3 million to support the 
Federal Emergency Management Agency's role in the U.S. response--a 24 
hour toll-free phone bank for private donations. That phone bank has 
received thousands of phone calls a day.
    The President is requesting $95 million to address regional 
requirements for the well-being, safety and return of the Kosovar 
refugees. The current situation is highly uncertain, no one has a 
crystal ball to predict when a settlement will be reached. We have 
requested these funds in the Eastern European Assistance account, which 
has particularly broad authorities, to permit us to respond to a broad 
number of possible requirements for the care and return of the refugee 
population. Should greater resources be necessary to handle additional 
outflows of refugees, these funds could be used. If there is an 
unexpectedly early end to the hostilities, these funds could be used 
for urgent relief within Kosovo.
Diplomatic Operations and other Stabilization Efforts
    The supplemental request also includes $55 million for diplomatic 
operations and other stabilization efforts. These funds include $25 
million to meet diplomatic and security requirements arising from the 
crisis in Kosovo funded through the State Department's operating 
accounts and $25 million to be funded through the Assistance to Eastern 
Europe and the Baltic States account to do background checks on Kosovar 
police recruits, and to train these recruits for their eventual return 
to Kosovo. We are also requesting $5 million for the Economic Support 
Fund (ESF) to begin the difficult process of documenting alleged 
atrocities in Kosovo. The funds would be used to interview refugees and 
prepare the necessary documentation for possible war crimes that may 
have been committed in Kosovo.
Securing the Front Line States
    Albania, Macedonia, Bulgaria, Bosnia, and Romania, and the Republic 
of Montenegro within Yugoslavia were struggling to make the transition 
to democracy even before the current conflict. These countries have 
suffered significant reductions in trade and investment as a result of 
the conflict. They have borne the burden of the refugee exodus from 
Kosovo. They also are under threat if Milosevic expands the conflict, 
as witnessed by border incidents such as the Serbian shelling of a 
village inside Albania. The confluence of these events threaten to 
undermine the political stability of these countries as they struggle 
to make the transition to market democracies. Therefore, we are 
requesting $150 million, $100 million in ESF funds and $50 million of 
the funds requested for the Eastern European Assistance account, to 
help increase stability in these countries and to alleviate the 
disruption created by the fighting in Kosovo. It is clearly in our 
national interests to help stabilize these countries and prevent both 
the spread of the conflict and erosion of the hard-won progress on 
reforms in the region. The ESF funding will be closely coordinated with 
World Bank, IMF, and other donor contributions, which will far exceed 
these levels, to help maintain stability in the region. We anticipate 
the U.S. share of this assistance will be around 10 percent, with the 
Europeans and other donors providing the lion's share of assistance.
                             other concerns
    Let me also mention other urgent supplemental priorities. The fact 
that we are asking the Congress for funding to respond to an enormous 
emergency far away does not in any way diminish the importance of an 
emergency that is very close to home. The Central American relief 
package remains urgent. Every day we delay means another day the people 
of Central America lose hope in their ability to rebuild their homes, 
earn their livelihood, and achieve a prosperous future in their 
homeland.
    In addition, the fiscal year 1999 supplemental request for $100 
million in assistance for Jordan is critical to stabilizing the 
Jordanian economy and ensuring a smooth transition of leadership. 
Jordan is a key to the Middle East Peace process and the implementation 
of the Wye River memorandum, and our continued strong support for 
Jordan will help to achieve the goal of peace in the Middle East that 
we all share. Also of critical importance is our request for 
agricultural relief to our farmers that both the House and Senate have 
included in the supplemental appropriations bill. I urge the Committee 
to act quickly to enact these emergency packages expeditiously.
                               conclusion
    Despite months of allied diplomatic efforts to achieve a balanced 
peace plan, the government of Slobodan Milosevic defied the 
international community and pursued a course of repression and terror 
against the people of Kosovo. We determined that we could not allow 
these actions to go unchallenged. Now, we have a responsibility to our 
country and to the men and woman serving our country in the Balkans and 
to address the humanitarian crisis provoked by the Milosevic 
government. We have provided you with our best estimate of the 
resources required to achieve our goals in Kosovo. We ask the Congress 
to act quickly upon this request and send a clear message to 
Milosevic--his actions will not be tolerated and that we are prepared 
to back our words with action.
    Thank you. I am prepared to answer questions that you may have.

                         DEPARTMENT OF DEFENSE

STATEMENT OF HON. JOHN J. HAMRE, DEPUTY SECRETARY OF 
            DEFENSE

                 prepared statement of secretary cohen

    Chairman Stevens. Dr. Hamre.
    Dr. Hamre. Well, thank you very much, Mr. Chairman.
    I do not have a written statement, but I did bring 
Secretary Cohen's statement that he offered in front of the 
House Appropriations Committee last week. And with your 
permission, I would ask that that be included in your record.
    Chairman Stevens. Yes, we will put it in the record.
    [The statement follows:]
                 Prepared Statement of William S. Cohen
    Mr. Chairman, members of the Committee, it is a pleasure to be here 
to discuss President Clinton's request for fiscal year 1999 
supplemental appropriations for Kosovo military and refugee relief 
operations and for other requirements.
    Before detailing our supplemental request, let me assure this 
committee and the American people that our Kosovo operations remain on 
track and that we and our NATO allies are more determined than ever to 
succeed.
    Our purposes are clear, and they have broad international support. 
President Milosevic must withdraw his military, paramilitary and police 
forces from Kosovo. He must also allow all refugees to return, with 
full access for humanitarian assistance and with the deployment of a 
NATO-led international security force. And the people of Kosovo must be 
given the democratic self-government that they have too long been 
denied.
    Clearly, Milosevic will try to divide NATO. But we will not be 
divided. Our allies are getting stronger in their determination as the 
operations continue. Every NATO country is contributing to the effort, 
in a military or humanitarian capacity. We will stand our ground. And 
we will be patient. NATO operations will continue until our terms are 
met. We will intensify our air operation, and we will provide our 
commanders the tools they need.
                         operation allied force
    Our military objective is to degrade and damage the military and 
security structure that President Milosevic has used to depopulate and 
destroy the Albanian majority in Kosovo. To this end, NATO forces are 
making significant military progress. We have gained tactical 
maneuverability over a tough air defense system, even in the face of 
difficult weather and terrain. This allows us to fly where we want and 
when we want with acceptable risk, 24 hours a day. We are 
systematically choking off the Yugoslav army and security forces in 
Kosovo by cutting their supply lines. We have already eliminated 100 
percent of Milosevic's refining capability and 50 percent of his 
ammunition production. As we isolate and weaken the Serb forces in 
Kosovo, we are launching aggressive attacks against troops on the 
ground by hitting staging areas, headquarters, and forces in the field. 
These attacks will accelerate as we continue to subdue Serb defenses 
and deploy additional aircraft. We will continue to attack Milosevic's 
command, control and communications and other elements of the 
infrastructure that supports his machinery of repression.
    The United States currently has well over 500 planes assigned to 
air operations over Yugoslavia, part of an allied force of well over 
700 planes. In terms of attack sorties, we have flown about 60 percent, 
our allies 40 percent--and approximately the same proportion applies to 
overall missions such as support, reconnaissance and tankers.
    We and our allies are unanimous that we should intensify the air 
campaign against Milosevic. Such intensification is part of our 
planned, sustained, phased air campaign. We have advised the allies 
from the beginning that, once we start, we have to see the campaign 
through to its successful conclusion. They have agreed. And they, and 
we, have planned for a tough, hard campaign.
    Earlier this month I approved an enhanced air package of 82 
airplanes requested by the SACEUR, General Clark. The addition of these 
aircraft will allow us to do two things: expand the number of strikes 
over any 24-hour period; and give us more deep strike capacity as 
necessary. This will allow us to increase the intensity of the air 
campaign over Kosovo and Yugoslavia.
    General Clark has more recently requested a substantial number of 
additional U.S. planes, and this request is being reviewed now. The 
planes fall into three categories: ground attack, air suppression, and 
tankers. If approved, this enhancement would allow for tradeoffs 
between various types of planes, and the Joint Staff is considering the 
appropriate ways to fulfill it. We hope to have a decision on this 
soon.
    Apache Helicopters.--On April 3, President Clinton approved the 
deployment of two battalions of Apache attack helicopters to Albania to 
help support our air operations. These are to be accompanied by 
Multiple Launch Rocket System artillery, a robust force protection 
element, plus military intelligence, aviation maintenance, and other 
required support. There also will be support helicopters, such as Black 
Hawks and Chinooks. The deployment of the Apaches is taking about 10 
days--not because of moving the Apaches themselves, which could be 
self-deployed in about two days--but because moving the support 
elements requires numerous C-17 loads into an already overtaxed and 
quite limited airport in Tirana, Albania, and requires establishing an 
operating base in a difficult location.
    Providing the Apaches was done at the request of General Clark, who 
wanted a wider variety of weapons to attack tanks, artillery and other 
targets on the ground in Kosovo. It is very much in line with our 
stated objective of degrading and diminishing the Yugoslav ability to 
attack Kosovar Albanians. However, one should not expect miracles from 
the Apache or any other single system. There will be no silver bullet 
in Kosovo. NATO resolve and patience will be our decisive weapon. 
Additionally, the introduction of Apache helicopters should remind us 
that the risk of casualties on our side remains very real.
    Ground forces.--Let me address the issue of ground forces. We 
believe, based on the advice of our military commanders and the reports 
of our intelligence, that the air campaign is being increasingly 
effective and will produce the success that we desire. That campaign 
will continue, with more missions, more sorties, more aircraft--and 
more targets and more effect. There is no intention to use ground 
troops in a hostile or non-permissive environment. Nor is there any 
consensus in the Alliance, or among the American public and their 
representatives in Congress, to do so.
    NATO has examined the possibility of ground operations from the 
very beginning of the crisis. There has, of course, been detailed 
planning for a NATO-led peace implementation force, operating in a 
permissive environment. In addition, NATO considered an option to enter 
Kosovo to maintain a cease-fire without a comprehensive peace agreement 
between Belgrade and the Kosovar authorities.
    Last year, the NATO military authorities made an assessment for 
various options for use of ground troops in a nonpermissive or hostile 
environment. The options included an operation to enter the Federal 
Republic of Yugoslavia (FRY) with force against full-scale resistance 
by Belgrade and conduct offensive operations throughout the FRY, as 
well as an operation using ground forces against military resistance, 
but with the objective limited to defeat of the FRY forces in Kosovo 
itself. These assessments included estimates of the forces that would 
be required. Without going into details, suffice it to say that any 
such operation, while militarily feasible, would involve very 
substantial forces and carry considerable risks.
    These assessments could be quickly updated and developed into full-
scale operational plans should the need arise. As General Shelton and I 
have said, should General Clark and the Chairman of the NATO Military 
Committee make a recommendation that the earlier assessments be 
updated--that is, should they advise that the point has been reached 
where further planning for possible use of ground troops is necessary--
we will take that request under advisement, aware that the planning 
could be done within a short period of time.
                        refugee crisis in kosovo
    True to form, Belgrade is taking every opportunity to make a bad 
situation worse. We are deeply concerned that hundreds of thousands of 
people are at risk within Kosovo. It appears that Belgrade is 
deliberately depriving them of food and shelter. We are receiving many, 
many credible reports of atrocities. NATO has released images of what 
appear to be mass gravesites in Kosovo. We should not be surprised if 
more graves are found.
    Belgrade has been warned. Those found responsible for war crimes 
and crimes against humanity will be held accountable. Our nations are 
providing information to the International Criminal Tribunal for the 
Former Yugoslavia. And the Tribunal will follow the evidence however 
far or high it leads.
    Milosevic has not achieved his primary goal of eliminating the 
Kosovar Liberation Army. Although it is weakened, the KLA continues to 
fight, and its ranks are increasing.
    As NATO air power meets our military goals, NATO is also responding 
to the refugee crisis. The Department of Defense (DOD) is now providing 
and transporting more than 1 million rations and thousands of tents, 
sleeping bags, and other supplies for the refugees in Albania and the 
Former Yugoslav Republic of Macedonia. We are also providing troops 
from our Marine elements in the region to help respond to the refugee 
crisis. Meanwhile, our allies are also providing relief supplies and in 
fact are responsible for the vast majority of the shelter, medical 
supplies, and food relief sustaining the latest victims of Milosevic's 
brutality.
        content and assumptions of fiscal year 1999 supplemental
    In partnership with our allies, America's armed forces continue to 
perform superbly in Kosovo and other critical regions around the globe. 
Their near flawless execution of assigned missions should be a source 
of enormous pride for the American people. Now, with this supplemental 
appropriations, we must ensure that our forces have everything they 
need to continue their current operations and to sustain their 
readiness for future dangers.
    This is an emergency, non-offset supplemental totaling $6.05 
billion: $5.458 billion for DOD and $591 million for the State 
Department and international assistance programs. The DOD portion of 
the supplemental has these major components:
    Kosovo Military Operations ($3.3 billion).--The request funds 
projected force levels and the current high operating tempo through the 
end of the fiscal year. All U.S. forces that have been deployed or 
ordered to deploy are assumed to remain in theater and operate at 
current sortie and strike levels. The request does not fund possible 
deployment of U.S. ground forces to Kosovo or peacekeeping operations 
or reconstruction there.
    For Kosovo operations, Air Force assets have grown from about 200 
aircraft in early February (most of them from in theater) to over 500 
now. Navy assets include a carrier battle group and land-based 
surveillance aircraft (EA-6Bs primarily). Army supplemental funding 
supports the deployment and sustainment of Apache helicopters and other 
assets and support. The request includes costs of the Call-up and 
deployment of 100 Army, 700 Navy/USMC, and 25,000 Air Force Reservists.
    Refugee Relief Operations ($335 million).--Funding will cover DOD's 
costs for support of U.S./NATO refugee operations. It includes the cost 
estimated as needed to set up and operate a refugee camp for 20,000 at 
Guantanamo Bay, Cuba. However, we need the flexibility to apply those 
funds to establishing a camp in Albania, if that is deemed a better 
location for the refugees.
    Munitions ($698 million).--This enables the needed replenishment of 
munitions inventories based on current and projected usage in 
operations in Kosovo ($521 million) and SWA ($177 million). Fully $623 
million of this is for replenishing and upgrading Conventional Air 
Launched Cruise Missiles (CALCMs) and Tomahawk Land Attack Missiles 
(TLAMs).
    Readiness and Munitions Contingency ($850 million).--The 
supplemental requests $850 million to be set aside in a contingency 
fund for possible use to (a) prevent any degradation in readiness that 
could result from Kosovo operations and (b) replenish munitions that 
could be used in Kosovo, but for which we cannot now estimate 
consumption.
    Southwest Asia SWA ($274 million).--The request covers costs for 
Operations Desert Thunder and Fox and unbudgeted enhancements to 
ongoing Operations Northern and Southern Watch.
                       preserving force readiness
    Currently, most of the costs of our Kosovo operation are being 
accommodated from within the military services' Operation and 
Maintenance (O&M) accounts by borrowing funds that will be required for 
4th quarter training. The services are continuing to conduct normal 
training for those forces not involved in Kosovo operations, and 
readiness is not currently being affected. However, expeditious action 
on this supplemental is needed to restore previously budgeted fiscal 
year 1999 funds and avoid serious readiness impacts later in the year. 
As for U.S. personnel in theater, they are gaining valuable, real 
mission experience and increasing their skill and proficiency. What 
about the impact of Kosovo operations on our security in other regions? 
The bulk of the Air Force and Army forces deployed or being deployed to 
the Balkans come from Europe and the U.S. The carrier deployment to the 
Balkans necessitated rescheduling of other carriers, including moving 
the Kittyhawk from the Pacific to Southwest Asia, but DOD is using 
other forces and measures to help compensate for the Kittyhawk's 
absence from the Pacific. The key point is that we are still postured 
to be able the support the national military strategy despite our 
operations in Kosovo.
                                closing
    Congressional debate on national security issues is vital, healthy, 
and helpful. This hearing is one part of our intensive, continuing 
dialogue with Congress on the Kosovo crisis. I was grateful that a 
number of members of Congress have traveled to visit our troops and 
consult with our allies in Europe. We have seen a strong and growing 
consensus in Congress and in the country for the campaign that we have 
under way. NATO is engaged in a serious military effort in Kosovo. It 
will not be quick, easy, or neat. We have to be prepared for the 
possibility of casualties among NATO forces. But we cannot falter, and 
we will not fail. Our engagement in Operation Allied Force is justified 
by U.S. interests--strategic, political, and humanitarian. We intend to 
see it through. I urge your prompt and full support of our fiscal year 
1999 supplemental appropriations request. Together we must work to 
promote the success of our critical operations in Kosovo and Southwest 
Asia and to ensure the future readiness of U.S. forces.

                 Responding to congressional inquiries

    Dr. Hamre. If I might begin by first apologizing to you, 
Senator Burns. I know that you had written to us in March. I am 
very embarrassed that you have not received a letter yet in 
response to that. Before the day is out, you will hear from me 
and I will find out what is going on. I am sorry.
    Senator Bond, you raised your concerns that we have not 
been forthcoming to you as to what units are involved in the 
operation and the expenditure rate and things of this nature.
    I do not know what you have asked for and what you have 
been denied. I will get on top of that, because I see no reason 
why our oversight organization should not have answers that 
they legitimately asked that we have to be responsive to. And I 
will certainly find out about that.
    Senator Bond. Mr. Chairman, if I may, we were advised that 
NATO told you you could not provide us the information, which 
really lit my fire.
    Dr. Hamre. Sir, I can understand that.
    Because this is a coalition operation, we really do have to 
operate within general framework that we have worked out with 
our allies.
    I still believe we have an obligation to respond to you as 
an elected member of the Congress and in your oversight 
responsibilities. And, again, I will get back to you and try to 
work through that, sir.
    And, Senator Harkin, I am unaware of the study the General 
Accounting Office (GAO) has done about our stewardship. I am to 
meet with the head of GAO this afternoon on a courtesy call, 
and I will raise it with him and find out more about this study 
that you are alluding to. So I will follow up on that, sir.
    Senator, thank you very much for hosting the hearing and 
for inviting me to participate in it. I will be very brief.

                   Preparing the supplemental request

    If I might just relay: When we were building the 
supplemental and you ask a number of questions about ``How 
could you anticipate it?'' and things of that nature, we worked 
in probably an unusual relationship this year with the Office 
of Management and Budget (OMB), because things were moving 
fast, and we knew the magnitude was such and occurring so late 
in the fiscal year that it would have very serious readiness 
problems if we could not get funded.
    We had an unusual cordial and cooperative working 
arrangement in building this supplemental. To my knowledge, 
anything that we could identify as being tied to the war and 
would make a difference in fighting the war, we got what we 
asked for. It was not an issue.
    There was a test that was applied to us, which is if it is 
a nice thing to do, for example a new runway, in some place in 
Europe, but it was not immediately tied to the war effort, they 
said, ``That is--that might be a perfectly legitimate issue, 
and you ought to pursue that in the normal authorization and 
appropriation process. It is not something for the 
supplemental.''
    But anything that we needed to fight this fight and to be 
able to carry out this operation, we were given. And so I--and 
that is one thing I would ask you to think about as you are 
looking at the extra supplemental funding if you want to 
provide it to us is that, we will take what you feel we need, 
and we will be very open with you about our needs.
    We think the test is probably the same that OMB imposed on 
us, which is: It has to be tied to the war, or it has to be 
tied to this conflict, and it has to be something we can really 
execute in the time frame of our supplemental. Otherwise, it 
really belongs in the normal authorization and appropriations 
process.
    Now, Senator Byrd raised, I think, a very tough question. 
And that question was, ``Should we anticipate the costs of this 
operation and budget for it in advance?''
    Now, I was on the receiving end of a very sharp lecture 
from Senator Byrd about three years ago when it came to 
budgeting in advance for operations. And I remember he read for 
me a book--it was a parliamentarian during the Revolutionary 
War on the British side, who was complaining about how the 
Royal Army was hiding away little pots of money and doing all 
sorts of duplicitous things.
    I was the comptroller at the time. And I--he was giving me 
lots of good ideas, which I have not been able to execute on. 
[Laughter.]
    And--but this gets to be one of those very real problems. 
Do we budget in advance for something we do not know if it is 
going to occur or not occur?
    And there are no funds that we are asking for now to 
continue operations past the 30th of September. I think that is 
a very important policy question.
    But I do not know what I would ask you for right now. I do 
think that we have to ask for your resources for a 
supplemental, that we be able to undertake our current 
operations through the rest of this fiscal year. And I hope 
that Milosevic and others come to their senses and try to reach 
an accommodation and we do not need to spend all this money.
    But I cannot tell you with good conscience that we will not 
need to spend the money through at least this fiscal year. So 
we have asked for that. And we have only asked for the things 
that we currently have agreed--agreement that we are going to 
do.
    We have not asked for money for ground operations, because 
we are not contemplating ground operations in a hostile 
environment.
    I do recognize if you get into what is the longer term 
questions--Senator Specter, you raised that, ``Where is this 
going?'' Senator Byrd asked that ``Should we be budgeting for 
it?'' I really do not know how to do that right now.
    But I do recognize it is a very important question for us 
all to be contemplating. But nothing that we have asked for 
here is being denied us ability to carry the operation out that 
we are currently directed to carry out through this fiscal 
year.

                           Readiness concerns

    I think the third issue that was put before us is, you 
know, is our readiness broken? And do we have to add extra 
funds because we are a broken military? I do not think we are a 
broken military. We are under stress. We are working awfully 
hard.
    We have got people deployed in many places, and we had not 
anticipated that. And there is a lot of strain that comes with 
that.
    But we have been able to carry out these missions in the 
time lines the President gave us. And I think--our underlying 
readiness, while we are stretched, I think we are OK.
    But if we do not get this supplemental, we are going to be 
broken. And we are going to need this supplemental really 
before the Memorial Day recess, because we really only have six 
months left in this fiscal year. And without the additional 
resources now, we are going to have to fundamentally just shut 
down operations in order to cover these bills.
    So I would ask for your help. And I know you are committed 
to doing that. You have put this on a fast track. Had it not 
been for your leadership, I am not sure it would be this fast. 
So I thank you for it, sir.
    Thank you very much. And I would be glad to answer any 
questions.
    Chairman Stevens. Thank you very much, Doctor.

               U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

STATEMENT OF HON. J. BRIAN ATWOOD, ADMINISTRATOR
    Chairman Stevens. Mr. Atwood, I have a dilemma. You see the 
number of people we have at this table and the primary issue 
this morning is military.
    You are coming up Thursday morning, I understand it, to the 
Foreign--for our Foreign Assistance Subcommittee. Unless, there 
is a serious objection, I would like to ask you to make your 
statement and let us have questions of you at that time rather 
than now, because I--we are just not going to get through by 
12:30.
    And all of us are going to conferences. This is going to be 
one of the subjects of those conferences on military aspects.
    So would you mind, sir, if we asked you to make your 
statement and we will address questions to you on Thursday 
morning?
    Mr. Atwood. Absolutely--I would be delighted, actually. 
[Laughter.]
    Chairman Stevens. Is there any objection? Any objection?
    [No response.]
    Chairman Stevens. Therefore, give us your statement, Mr. 
Atwood. So we get--in relevance to this other----
    Mr. Atwood. OK.
    Chairman Stevens. It--it is really one-eighth or one-
sixteenth of the total by the time we are through here and--but 
it is a very important portion. I do say that.
    But I do not see any reason to be redundant. We will be 
questioning you on Thursday morning also.
    Thank you.
    Mr. Atwood. Mr. Chairman, let me be very brief, because 
Jack Lew has covered the International Affairs account request 
that we made of you today, but I do want to share some thoughts 
about my recent trip to Albania and Macedonia and reflect a bit 
on your comments as well.
    I do appreciate very much the fact that you were recently 
there. I would say this, that even since I was there--and I 
have come back only a few days ago--the situation has changed. 
This is a situation that changes on an hourly basis.
    We now have 365,000 refugees in Albania. When I was there, 
it was about 340,000. There are 138,000 in Macedonia, and when 
I was there, it was 122,000.
    So we really continue to be under tremendous pressure to 
handle these refugees. I have to give great credit to the host 
families who are taking in people. It is clear that we cannot 
build camps fast enough to handle the flow of refugees that are 
coming.
    If I had a central message, Mr. Chairman, for this 
committee as it considers the supplemental request, I hope you 
will understand that this--the refugees and the humanitarian 
aid that we are requesting--is an integral part of this entire 
NATO undertaking.
    The refugees are not a byproduct of the war. They are the 
central fact of the war. And Milosevic has cruelly forced these 
people from their homeland. And when it suits his purpose, he 
turns the spigot off and on.
    There was evidence when I was there that he was taking 
people from various quadrants. His military would surround a 
section of Kosovo and just drive everyone out either by train 
or forcing them out through fear to the borders of Macedonia 
and Albania.
    There is no question in my mind that one of the goals that 
he has is not only to ethnically cleanse Kosovo, but possibly 
to destabilize Macedonia and Albania as well.
    And this request that we have made of you includes 
assistance for those countries, so that he will not be 
successful in that goal.
    The refugees themselves are coming out in very poor shape 
physically. The camps, I think, have been run well. But as 
Senator Mikulski indicates, we are talking about finite 
organizations. The Catholic Relief Service has a number of 
people that it has on its payroll.
    The person that was running the camp in Brazde, the camp 
that you saw, is a person that was taken from the Phillippines 
to move quickly into the breach.
    We have people from both CARE and Catholic Relief Services 
and the International Rescue Committee that are working on 
Hurricane Mitch, or working on the situation in Sierra Leone.
    There are a finite number of so-called humanitarians in the 
world that are working on these crises, and a finite number of 
people, I might add, from the U.N. High Commission for Refugees 
Office (UNHCR).
    We need desperately to augment what UNHCR is doing in this 
situation. We need to augment what the NGOs can do. And the 
resources we have requested are partially going to help solve 
that problem.
    I say partially, because I want to make it clear that other 
nations are also contributing. Our traditional contribution to 
U.N. appeals for these kinds of situations is 25 percent, and 
that is the basis for our request.
    I agree with the comments made about our military. They 
have performed heroically. They have also performed very well 
on the humanitarian side and, frankly, we would not be able to 
handle these numbers of refugees if the military had not been 
there to build some of these camps.
    But I also want to say a word for some of these relief 
workers that are performing with exceptional courage in 
conditions of great personal danger.
    When I was in Albania, the relief community was deeply 
saddened by the death of two Americans, David and Penny McCall, 
who were Board members of Refugees International, who were 
killed in an automobile accident on the road to Kukes.
    I cannot tell you how many times I have said to members of 
Congress and other groups that I have spoken to since I took on 
this job that this road to Kukes is very dangerous. And it is 
deteriorating rapidly, and we need to do something about fixing 
it.
    Well, this is exactly the road where these people went off 
a cliff, fell about 4,000 meters and were killed instantly.
    Their dedication, it seems to me, is representative of 
thousands of relief workers around the world who place 
themselves in harm's way in order to relieve human suffering.
    Mr. Chairman, just to briefly sum up again, we are 
requesting $386 million directly for support of the 
humanitarian situation that we face today.
    This is money for disaster relief, with commodities, tents, 
medical kits, the like, for food, for the refugees themselves, 
in support of the U.N. operations there; and also for support 
to the countries so that they can fix some of the 
infrastructure that relates directly to the humanitarian 
operation, and also give some support to the host families that 
are taking a great deal of this burden.
    There is also support for the frontline states, or I prefer 
to call them the neighboring states, who are under tremendous 
budgetary pressure.
    The government of Macedonia, some 30 percent of its trade 
was with Belgrade, with Serbia. That country is in very bad 
shape economically now. They had expected to see economic 
growth. The same is true of Albania, and even as far away as 
Bulgaria and Romania.
    These countries are suffering because of this war. The 
World Bank has done a very good assessment on what their needs 
are.
    We want to contribute some ten to eleven percent of the 
overall effort to provide balance of payments and economic 
assistance support to them so that those countries will not be 
destabilized and so that our $3 billion investment in the 
support--the support for Eastern European democracy over the 
years is not threatened by this war.
    We also want resources for police training and I would 
relate this again directly, if we can--if we can train refugees 
to do police work, it will enhance the effort once we get into 
Kosovo, and it will be part of the exit strategy for our 
military as well. We need obviously to do this.
    There is $5 million for the war crimes tribunal, to assist 
in documentation of atrocities and other war crimes. There is 
$25 million for State Department operations to support U.S. 
diplomatic facilities operating under crisis conditions. We are 
in desperate shape. I visited, as you did I believe, our 
embassy in Macedonia. It was attacked some three weeks, four 
weeks ago now.
    Our embassies are really stretched very thin. People are 
working around the clock, and we really need the operating 
expense resources that we have requested here, so that we can 
maintain these operations.
    Mr. Chairman, I will cease and look forward to answering 
your questions on Thursday.

                           prepared statement

    Chairman Stevens. Thank you very much. You should be 
alerted, we think you need a little bit more money there too, 
based on our visit. We will talk to you about that on Thursday.
    [The statement follows:]
                 Prepared Statement of J. Brian Atwood
    Mr. Chairman and Members of the Committee: It is a pleasure to be 
here to speak in support of the President's supplemental request for 
humanitarian assistance to the Kosovo refugees and for support of the 
frontline states of the region.
    I have just returned from Albania and Macedonia, where I met with 
refugees, relief workers, diplomats, officials of the frontline states, 
representatives of nongovernmental organizations, and leaders of NATO. 
On the basis of what I saw and heard, I feel strongly that the refugee 
crisis must be seen in the context of the entire military and political 
crisis in the Balkans. The humanitarian aid we propose is an integral 
part of the total NATO undertaking.
    The refugees are not a byproduct of the war. They are the central 
fact of the war. Slobodan Milosevic has cruelly forced these people 
from their homeland, and when it suits his purpose he cynically turns 
their exodus on and off like a spigot. He is attempting not only to 
seize their homeland but also to use their plight as a weapon to 
destabilize other countries in the region. His actions are ruthless and 
criminal and cannot be permitted to succeed. That is why the funding we 
propose is intended not only to meet the urgent needs of the refugees 
but to strengthen this entire region as it confronts this unprecedented 
challenge.
    It is difficult to convey the scope of this disaster and the horror 
that has been inflicted on these innocent people. Something like 
700,000 men, women and children have been forced from their homes and 
have crossed the borders into Albania, Macedonia and Montenegro. No one 
knows how many are still in hiding in Kosovo--estimates go as high as 
800,000 or more--or how many have been executed.
    The refugees are in bad shape, physically and psychologically. They 
have been traumatized by the brutality of Serb military forces. Many 
have seen their friends and loved ones killed and their homes burned to 
the ground. They have been herded onto trains, or forced to flee on 
foot, and deported from their country. Many have been tortured. Parents 
are desperately concerned about the fate of their children, and 
thousands of children have become separated from their parents. By some 
estimates, two-thirds of those in the camps are children. To see these 
people's courage in the face of such adversity is to realize that we 
must pursue our humanitarian mission just as vigorously as we pursue 
the military actions that will end this aggression and bring these 
people home.
    I cannot say enough about the heroic performance of the aid workers 
I met. Some are American, others are from many other nations, and all 
are working tirelessly to bring life and hope to the refugees. I'm 
particularly proud of USAID's two Disaster Assistance Reponse Teams 
that are in the area, one in Albania and one in Macedonia. These teams 
serve as our eyes and ears on the ground, gathering invaluable 
information in support of our relief efforts.
    Throughout the region, relief workers are performing with 
exceptional courage in conditions of great personal danger. When I was 
in Albania, the relief community was deeply saddened by the death of 
two Americans, David and Penny McCall, board members of Refugees 
International, who were killed in an auto accident on the road to 
Kukes, along with the organization's European representative, Yvette 
Pierpaoli. They died as they had lived, while helping those in need. 
Their dedication was representative of thousands of relief workers 
around the world who place themselves in harm's way every day to 
relieve human suffering.
    Before outlining the supplemental request, I should note that the 
United States government has been active in meeting the present crisis 
since it began early last year. Since March 1998 our government has 
provided more than $184 million in humanitarian relief to deal with the 
crisis, including about $77 million from USAID, $48 million from the 
Department of Defense and $59 million from the Department of State. 
USAID's Bureau for Humanitarian Response has provided more than $31 
million in commodities and grants to NGOs and over $46 million in Title 
II food aid to meet humanitarian needs in Albania and Macedonia. Since 
March 24, we have sent to Albania 700 tents, 20,000 five-gallon water 
jugs and 15,000 hygiene kits; during those same weeks we have sent to 
Macedonia 94,000 blankets, 2,260 tents, 1,630 rolls of plastic 
sheeting, 33,600 five-gallon water jugs, 300,000 humanitarian daily 
rations, and 35,000 hygiene kits. And yet the flood of refugees demands 
an even greater response.
    Mr. Chairman, the President's supplemental request includes $591 
million to be used for Function 150 humanitarian assistance for the 
refugees and for urgent economic support to the frontline states during 
the remainder of this fiscal year. This funding will support programs 
carried out by both the Department of State and USAID. The $591 million 
includes $386 million for humanitarian assistance; $150 million for 
assistance to the frontline states; $30 million for security 
assistance; and $25 million for diplomatic operations of the Department 
of State and other agencies in the region.
                        humanitarian assistance
    We do not know how many refugees will ultimately need our help. In 
addition to those who have already crossed the borders, there are a 
great many more men, women and children in Kosovo who have been driven 
from their homes but are still in hiding in Kosovo and must be assumed 
to be in urgent need of assistance. Our plans are based on care and 
maintenance for up to a million or a million and a half refugees and 
internally displaced persons for the rest of this fiscal year.
    The $386 million for humanitarian assistance includes $220 million 
for refugee assistance. This comprises $125 million for the Department 
of State's Migration and Refugee Assistance Account and $95 million for 
State's Emergency Refugee and Migration Assistance account to respond 
to urgent refugee needs by supporting programs carried out by 
international and nongovernmental organizations. The funds will be used 
for life-sustaining assistance to people uprooted by the Kosovo crisis, 
to support the multilateral effort to transport Kosovar refugees to 
temporary shelter in other countries, and to provide resources should 
additional refugee needs arise.
    This humanitarian assistance also includes $71 million to USAID for 
International Disaster Assistance. Of this amount, $68 million will 
both replenish the disaster assistance account for help already 
provided in the region and also provide additional funds to assist 
Kosovo refugees for the remainder of the fiscal year. The basic relief 
assistance provided for includes emergency shelter, adequate water and 
sanitation, food, clothing, and medical care. In addition, many of the 
refugees have been traumatized by the brutality that has been directed 
against them by the Serb aggressors and are in urgent need of 
counseling.
    A large percentage of the Kosovo refugees are not in traditional 
refugee camps supported by the United Nations High Commissioner for 
Refugees, but are in private homes and other facilities. These kinds of 
unconventional arrangements are likely to continue and expand as 
refugees continue to grow. The humanitarian assistance requirements for 
refugee communities living in these unconventional arrangements are 
substantial. USAID's Office of Foreign Disaster Assistance, working 
through private voluntary organizations, will provide prompt and 
crucial support to the affected communities and will provide essential 
assistance within the more traditional refugee camps.
    USAID expects to be called upon to support a variety of programs 
for the air, sea and land distribution of food, medicine and other 
supplies. USAID also expects to play a role in short-term 
infrastructure support, such as repairing roads and local water and 
sanitation systems that are overwhelmed by the influx of refugees. Such 
assistance is essential to maintain current and future relief efforts. 
When it is possible for the refugees to return to their homes, we 
intend to have the people, programs and supplies pre-positioned to 
address needs in Kosovo. These funds will also support the work of 
USAID's two Disaster Assistance Response Teams (DART) in the region, 
which are playing an extremely important role in assessing needs in the 
frontline states and refugee camps and advising and coordinating the 
U.S. relief operation.
    This $71 million also includes $3 million to support the Federal 
Emergency Management Agency's role in the crisis, including its 
operation of a 24-hour, toll-free phone bank for private donations. 
This phone bank has thus far received 41,000 phone calls and has 
referred these potential donors.
    Finally, the humanitarian assistance includes $95 million 
humanitarian assistance to frontline states and Kosovars funded by the 
SEED (Support for Eastern European Democracy) account. The $95 million 
is for assistance for countries in the region affected by the crisis 
and to address regional requirements for the safety, well being, and 
return of Kosovar refugees in Albania, Macedonia, Bosnia and 
Montenegro. These funds would be used for such activities as repair or 
strengthening of host-community water wells, roads, power systems, 
schools and clinics that are used to serve the refugees; assistance for 
traumatized victims of the refugee crisis; support for local 
nongovernmental organizations that assist the refugees; job creation in 
host communities; and support for voluntary organizations started by 
the refugees in the camps.
              economic assistance to the frontline states
    The requested $150 million includes $100 million for balance of 
payments relief and $50 million of bilateral assistance to the 
frontline states. These funds are intended to counter the destabilizing 
effects, both political and economic, that the refugee crisis is having 
on the states around Serbia. Because of the crisis, these states' 
commerce and tax revenues are falling while the demand for their 
services is skyrocketing. These funds will be used to provide stability 
in countries that are in the midst of difficult transitions from 
communism to free-market democracies and are offering vital support to 
the NATO coalition. In addition to the proposed U.S. assistance, the 
International Monetary Fund, the World Bank and the European Union will 
supply a larger amount of funding to help these countries survive the 
pressures that now beset them.
    Of the proposed $150 million, $100 million from the Economic 
Support Fund account will support a campaign largely carried out by 
international financial organizations to close the balance of payments 
gap for the independent countries of Albania, Bosnia, Bulgaria, 
Macedonia and Romania, and for Montenegro, which is part of Yugoslavia. 
(The tentative breakdown is Albania, $7 million; Bosnia, $22 million; 
Bulgaria, $25 million; Macedonia, $22 million; Romania, $14 million; 
and Montenegro, $10 million.) The World Bank, IMF and the Department of 
the Treasury believe this is an effective way to bolster these 
counties, all of which are supporting the NATO war effort and the 
international effort to assist the refugees. For Montenegro, whose 
independence within Yugoslavia is threatened, our approach is bilateral 
because the World Bank and IMF cannot work with the Yugoslav 
government.
    Additionally, the administration is requesting $50 million in SEED 
assistance to the frontline states to strengthen friendly and reform-
minded governments; to address several economic and social pressures 
caused by the crisis; and to protect the $3 billion SEED investment 
already made in this region. (These SEED funds have gone for 
strengthening the rule of law, developing financial institutions and 
free markets, supporting elections and a free media, and developing 
local governments and nongovernmental organizations.) Initiatives would 
include training law enforcement officers, providing financial advice 
to governments and financial credit to small entrepreneurs, and 
supporting public health projects in areas serving refugees.
                            security support
    $30 million is requested for security programs, including $25 
million for preparations to establish a local police force in Kosovo so 
that such a force will be available as soon as possible after the 
Kosovars are able to return to their homes. Additionally, $5 million is 
requested to support the documentation of war crimes and other 
atrocities by the International Criminal Tribunal for the Former 
Yugoslavia. The Tribunal has been charged by the international 
community with investigating alleged war crimes and bringing offenders 
to justice. U.S. policy strongly supports such action.
                         diplomatic operations
    The requested $25 million would help meet the diplomatic and 
security requirements arising from the crisis, including increased 
operations and protection of personnel stationed in the region.
    Mr. Chairman, these outlays make up the $591 million that the 
President has requested for Function 150 humanitarian purposes. We are 
not alone in taking action to meet the crisis that has been caused by 
the Serb aggression and its massive violation of the basic human rights 
of the ethnic Albanians in Kosovo. A larger amount of assistance is 
being provided by the European Union and other countries, and it is 
important that all developed nations join forces against the Serb 
aggression. But it is also important for the United States to provide 
its traditional ``fair share'' of twenty to twenty-five percent of 
major international humanitarian assistance programs, both to maintain 
our historic leadership role and because of our strategic interests in 
this part of the world. There will be need for a major reconstruction 
program in Kosovo once the refugees have returned to their homes. We 
expect that the European community would take the lead in such an 
effort, though we should be prepared to contribute.
    Thank you, Mr. Chairman, that concludes my formal statement.

    Chairman Stevens. Ladies and gentlemen, Senator Byrd has 
concurred with my suggestion that we limit questions to seven 
minutes per person.
    That will take us roughly an hour and a half to get through 
the first round and even more than that, as a matter of fact, 
but we will have more than one round if we have to do that.
    Let me start off, Mr. Lew and Mr. Hamre--and Mr. Atwood, if 
you do not mind, we will excuse you if you do not want to stay, 
not that we do not want you to stay and listen, be my guest, 
but I will see you Thursday morning.
    Mr. Atwood. Thank you.
    Chairman Stevens. I brought back a series of the papers we 
had briefings on. I am going to just pass it along here. I 
cannot mention some of those numbers in there, but I want 
members on each side to see what we were briefed on.
    This is to both of you. Even at the time we were there, we 
had roughly one-fifth of the deployment of aircraft that are 
anticipated to be on station there by the end of next month.

  Is funding sufficient to meet the evolving situation on the ground?

    This supplemental was given to us at a time when--if you 
will recall, Mr. Lew, our conversation--that many people 
thought this was going to be a short war. As a matter of fact, 
you and I talked about just maintaining the image of having 
enough money to take us to October because we did not want 
Milosevic to think that we were not going to stay there for the 
long haul.
    Our conclusions after the trip we took, the 21 of us, is 
the long haul goes way beyond October. Now, we may be wrong, 
just as the original suggestion that it might be short of 
October by the time we got out of there was wrong.
    But from my point of view, listening to the things we heard 
over there, I came to the conclusion that this is going to be a 
lot more expensive.
    So let me just ask you a basic question to start with. We 
are paying for all of the costs of our military deployment over 
there, are we not?
    Mr. Lew. Yes. We are.
    Chairman Stevens. NATO is not contributing at all to our 
deployment.
    Mr. Lew. Well, Mr. Chairman, the--the division of 
responsibilities is that--each of the NATO allies takes their 
responsibilities, and we each pay for our share.
    Dr. Hamre knows the details of this better than I do, but 
overall we are undertaking roughly 60 percent of all the 
sorties. And we pay for that. But we do not pay for the other 
share that our allies are undertaking.
    Chairman Stevens. Well, that may be true of the 60 percent 
of the sorties. This document does not show that.
    Mr. Lew. Yes.
    Chairman Stevens. But it is--90 percent of the total effort 
over there is U.S. supported right now.
    Mr. Lew. Well, if--if I can try and respond to the first 
part of your question in terms of what we have funded, I cannot 
speak to the exact number of aircraft that are deployed.
    Chairman Stevens. I can. I can tell you what they told us 
were there.
    Mr. Lew. No.
    Chairman Stevens. And I know now what General Clark told us 
he is going to ask, which is 1,000 at least.
    Mr. Lew. I could discuss privately with you some numbers 
that we cannot discuss in an open hearing, but just to give you 
a sense----
    Chairman Stevens. OK.
    Mr. Lew [continuing]. We have budgeted for considerably 
more aircraft than are in theater now.
    Chairman Stevens. If you budgeted for two and a half times 
the amount that is on that sheet, you still would not be 50 
percent of what Clark told us he needs.
    Mr. Lew. Well, we have budgeted for everything that General 
Clark has requested and we anticipate that the requests are 
comprehensive.
    So to the extent that there are additional requests that we 
have not seen, I cannot comment on those.
    The number of aircraft that are funded is over 750. The 
number of uniformed personnel we have funded is just under 
30,000. We have a carrier battle group and support ships, and a 
marine amphibious ready group.
    It is a very robust level of funding and a very strong and 
sustained level of continued military operations.
    I would defer to Dr. Hamre in terms of the technical detail 
of what is contained within the 750 aircraft, but I will say 
that is considerably more aircraft than are in theater right 
now.
    Chairman Stevens. Well, because of the apparent, probable 
partisan nature of this debate, I may have to call a secret 
hearing so we can get to these numbers and people can 
understand them as they were given to us.
    Now, the numbers that were given to me do not accord with 
what you have just said. They are in that briefing that was 
given to us at the time and that is just seven, eight days ago.
    But--but beyond that, if you look at the situation when you 
and I first talked, it was with----
    Mr. Lew. It was right before your trip, Mr. Chairman.
    Chairman Stevens. Yes. At the time, we were operating two 
bases that were not in use for Bosnia, that were associated 
with Kosovo. Today, that chart shows 16.
    Now, when you look at the massive buildup that is coming 
there, I do not see--you got a good crystal ball, but I just do 
not see that what you have asked for carries out our original 
intent to maintain the support for what we have got there 
through October, at least.
    So let me ask you this: What about the systems that they 
say they want? What about the electronic warfare priorities 
they gave us? What about their recognizance priority that they 
gave us?
    You did not have that until we got there, and I did not 
have it until we got there. Now, are you going to objective if 
we fund what they told us they need?
    Mr. Lew. Well, Senator----
    Chairman Stevens. I am just asking that one question now. 
Are you going to object if we fund what those military leaders 
told us they need to protect their people?
    Mr. Lew. We have endeavored to fund fully the request that 
they have made. It is hard for me to respond to requests that 
we have not seen, so if I could, let me respond in a way that 
reflects the objectives of the funding package.
    In my opening remarks and all the conversations that we 
have had, in all of my public statements, I made very clear 
that some of the costs of this operation can be estimated with 
precision, and some of the costs of this operation require 
flexibility because there are demands that cannot be fully 
anticipated.
    We have endeavored to construct a package that gives, I 
think, unprecedented flexibility to the Department of Defense 
to deal with upward pressures, so that they will not be mission 
constrained, because of resources.
    To the extent that we are in a course of working on this 
package, in discussions where additional flexibility consistent 
with that principle would be appropriate, we have made clear 
that we have exercised some subjective judgments. What we have 
done in exercising subjective judgments, frankly, is we have 
gone high, not low.
    I think you have to distinguish those kinds of issues from 
non-Kosovo-related funding matters. And Dr. Hamre in his 
opening remarks, I think, drew a very useful distinction. We 
think it would be unwise to proceed into the broader defense 
matters that are not related to Kosovo and----
    Chairman Stevens. Now, wait a minute. I have got only seven 
minutes. I heard him, but he was not talking about the things 
they requested of us.
    Dr. Hamre, let me ask you.
    Dr. Hamre. Sure.

                     Funding fiscal year 2000 items

    Chairman Stevens. The Department of Defense has taken 
assets from South Korea, right? I know they have taken the F-
15s from Alaska, which were backups to South Korea. You have 
taken assets from Kuwait and from Saudi Arabia. They are over 
there now, right?
    Dr. Hamre. We----
    Chairman Stevens. In the 2000 budget, you have requested 
additions in both of those categories. Again, we are under some 
classification here. But you have requested--I think you know 
what I am talking about--in three categories really.
    Dr. Hamre. Sir----
    Chairman Stevens. Why can we not pull those things that you 
got in the year 2000 up now and start now? If you start them--
if you--if we wait for the bill that is going to pass sometime 
in September or October--God knows when; you know how that 
develops--you will not be ordering those until next January.
    Now, if they are to be there in time to help this thing, if 
we have to go beyond October, why not advance those things that 
they told us they need now and get them under contract and get 
them delivered before October?
    You can do that. You know you can do it. The lines are out 
there. They are running in the items you have requested for the 
year 2000.
    Why do you disagree with us but when we--on that list I 
have given out, we are accelerating the request that you have 
already given us for the year 2000? Now, what is wrong with 
that?
    Dr. Hamre. Sir, I--I am--I am not trying to be 
disputatious. I--I honestly think that--again, our ground rule 
was to buy something in the supplemental. The supplemental is 
to supplement the fiscal year 1999 funding.
    Chairman Stevens. But you may need these in this fiscal 
year.
    Dr. Hamre. Yes, sir. And that was a question we do not--I 
do not know how to forecast what our operations are going to be 
after this fiscal year.
    Chairman Stevens. Well, I do not like the way you forecast 
these.
    Senator Byrd.
    Dr. Hamre. Sir, may I----
    Chairman Stevens. You only get seven minutes. It is seven 
minutes, Mr. Hamre.
    Dr. Hamre. May I take 30 seconds, though, to say one thing, 
sir? If I can sit down with you and your staff to look at what 
you have and to try to reconcile it--I do not believe that Wes 
Clark would ask you to fund something he would not ask us to 
fund.
    Chairman Stevens. Well, that----
    Dr. Hamre. And if he has----
    Chairman Stevens. I am going over my time. I will have time 
later. Do not worry.
    Dr. Hamre. Yes, sir.
    Chairman Stevens. We are going to stay here until we get 
the answers that we need to determine this bill.

         Impact of cruise missile funding on security worldwide

    Senator Byrd. Dr. Hamre, I agree with you that it is not 
possible to foresee all the things that you may be faced with. 
The coming events do cast some of their shadows before them.
    You ran out of cruise missiles. Surely someone must have 
been in the position to foresee a possible shortage of those 
cruise missiles. And as the Chairman has just said, you are 
withdrawing assets from Alaska and various other areas.
    And it seems to me that there could be better foresight 
shown than has been. It is easy, I understand, to be critical.

                    Two wars strategy and readiness

    But let me ask you: I have heard it said that we have the 
resources to fight two wars simultaneously. Do you believe 
that? And does it make any difference where those wars are 
fought and with what countries?
    Dr. Hamre. Senator, we--the--first to--to the second 
question, the bigger question, we have never said we can fight 
two wars simultaneously.
    What we have said is that we would want to structure our 
resources in a manner so that we could unequivocally fight one 
major regional contingency, a war, and be able to have enough 
resources to deter our opponent from accomplishing their 
objectives in a second theater until we can clean up the 
operation in the first and move resources over to take care of 
the second, very much the same swing strategy we had in World 
War II.
    And that is our strategy. And I think we do have the 
resources for it, but right now we are committing the 
equivalent of one major regional conflict (MRC) worth of air 
assets for this operation. This is a--this is a major activity 
for us.
    So as to your second question and that is on cruise 
missiles, first, we have not really run out. We are--we are 
constrained in our resources. And we have asked for an 
acceleration for our modification program to supplement those 
that we have--that we have used.
    What we really found is that we are in a transition point 
in our precision munitions. The new generation of precision 
munitions are one to three years away. We have funded them as 
fast as we can, and we really cannot accelerate them very much. 
And we had, frankly, thought we could live with the resources 
we had before. And we found out we could not. We now need to 
supplement them with your help.
    Senator Byrd. Well, I think we all agree that the fighting 
in Kosovo is having very serious effect on U.S. military 
readiness in other parts of the world, particularly Iraq and 
North Korea.
    Are you confident in our ability to handle a flare up in 
Iraq and/or North Korea?
    Dr. Hamre. Sir, the very opening days of the Kosovo 
operation, we did divert aircraft from the northern fly zone--
no fly zone area in Turkey, but we have since returned those 
aircraft. So the assets that we have had for the last year 
maintaining the--the Northern Watch and Southern Watch mission 
in--around Iraq are intact today, even with the ongoing 
operation in Kosovo.
    We did divert an aircraft carrier from Korea, and the 
reason is that is an asset that you can move to a theater. 
There is very limited terrain and geography in the Balkans to 
operate a--an air campaign, and so we frankly needed another 
aircraft carrier.
    But we were able to supplement that by bringing land-based 
air into Korea and that is what we are doing. We thought that 
was actually a fairly prudent step to take.
    Senator Byrd. Well, I have to say that it is with a 
considerable amount of incredulity that I hear you state we--
perhaps you have not--have never said that we are prepared to 
fight two wars simultaneously.
    I have been under that impression for a long, long time, 
not just under this administration, but under previous 
administrations----
    Dr. Hamre. Well, I----
    Senator Byrd [continuing]. That we are prepared to do that, 
that they have the resources.
    Dr. Hamre. Well----
    Senator Byrd. I suppose it would depend, of course, on 
where and with whom.
    Dr. Hamre. Yes, sir. But I am trying to be very precise in 
answering your question, sir.

                 Economic reconstruction in the Balkans

    Senator Byrd. You have certainly taken me by a little bit 
of surprise.
    Mr. Lew, I am concerned about who is paying the bills here. 
I read with interest, as we all did, the announcement that NATO 
nations plan to implement a major reconstruction program in the 
Balkans once the conflict is resolved.
    Is the administration planning to seek funds at a later 
date? I presume there are no funds in this supplemental for 
that purpose.
    Mr. Lew. That is correct, Senator. There are no funds in 
this supplemental to proceed with reconstruction. There are 
funds that will permit us to engage in discussions and 
planning, but not to commit to the reconstruction.
    Senator Byrd. Is the--let me ask another question. Again, 
then, is the administration planning to seek funds at a later 
vote, at a later date to help rebuild Kosovo and shore up the 
economy of the Balkans?
    Mr. Lew. We have no immediate plans to submit additional 
supplemental funding requests.
    With regard to reconstruction, the President has spoken to 
the issue. Secretary Albright has spoken to the issue. We are 
very concerned, as are the Europeans, that there is an enormous 
need for reconstruction, but we share the view that there needs 
to be a very substantial involvement of the European allies in 
any such efforts. The conversations have led us to believe the 
Europeans will take considerable responsibility.
    I cannot sit here today and tell you that we would not at 
some point in the future perhaps have a proposal in this area. 
But we do not today have a proposal that we are putting before 
you or any immediate plans.
    And we are very cognizant of the fact that efforts after 
the conflict is over would require very, very substantial 
European participation.
    I am encouraged by the reports I have had of conversations 
to that effect, and I do not think that we are alone in that 
view.
    Senator Byrd. Well, I believe--I believe that Europe has 
the greatest stake in a rebuilt and revitalized Balkan economy. 
And I would trust that the administration would not get out too 
far ahead of the Congress in contemplating a large share or the 
lion's share of the costs of rebuilding the Balkan economy.
    It seems to me I read somewhere that the President was 
advocating that we--that the United States would belly up with 
25 percent.
    Mr. Lew. No, I do not believe he has ever indicated that.

       What should be the U.S. share of the cost of the mission?

    Senator Byrd. OK. Well, what do you believe that the U.S. 
share of such an effort should be if there have been any 
discussions along that line?
    Mr. Lew. It is very difficult for me to respond to where we 
should go after the conflict. The conversations there are 
ongoing, and there is not a comprehensive plan. So to suggest 
what the U.S. participation would be is premature.
    The United States has played a very important role 
throughout this operation in providing leadership. We continue 
to provide leadership both militarily and in terms of the 
humanitarian effort.
    The portion of this supplemental request, the $150 million 
of assistance for frontline states, we think is a part of that 
leadership. We need now, in a moment of crisis, to shore up 
some of the young democracies, the nations that are struggling, 
that were struggling prior to the conflict.
    Senator Byrd. Mr.--my time is about to run out. The 
leadership does not require that we pay--pay all the bills or 
most of the bills or that we furnish most of the manpower. The 
leadership does not require that.
    And it seems to me that inasmuch as the United States is--
is paying--is providing the major share of the costs of this 
war so--so far, that the European nations should contemplate 
having to restore the economy and rebuild and do whatever 
rehabilitation of the infrastructure that has to be done 
following the close of the--of the conflict.
    Well, the United States should not--the taxpayers of this 
country should not have to do that. And I think the--I think 
the administration has gotten out a little ahead of the 
Congress with respect to where we are over there now.
    I hope it will not get too far out in front when it comes 
to the rehabilitation of the areas that we are having to--to 
bomb and destroy.
    Thank you, Mr. Chairman.
    Chairman Stevens. Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman. I just would 
like to associate my comments with Senator Byrd's. There is no 
question in my mind that----
    Chairman Stevens. See, if you can pull that mike over 
towards you.

               How are the Kosovo mission costs paid for?

    Senator Campbell. Yes, sir.
    They got out ahead of themselves. They got us into somebody 
else's civil war, and I guess they expected to get us out in a 
couple of months without any cost. It is not going to work out 
that way. I have heard, as my colleagues have, that this is 
just the first--the down payment. I really--I really believe 
that.
    And if--I think we are being naive if we think that this is 
going to be the last time we are asked for emergency money as 
the cost goes up.
    But I wanted to direct my--a couple of questions about the 
comments I keep hearing about how this--it is my understanding 
that the administration plans to take this requested money--
``borrow,'' I guess is a better word--out of the Social 
Security trust fund.
    Could you--would you like to elaborate on that a little 
bit?
    Mr. Lew. Senator, the President proposed that this funding 
be emergency funding without offsets.
    We have long held the view that the Budget Enforcement Act 
of 1990 provided this emergency authority for very good reason, 
that when a military conflict or a natural disaster occurs, it 
is simply impossible to go back on each occasion and make the 
reductions in other areas in the short time necessary to 
respond to the urgent need. So this is not a new view for the 
administration.
    Senator Campbell. The answer is yes.
    Mr. Lew. No, I would not agree with that. I think that we 
might disagree as to what the nature of emergency funding is.
    We think emergency funding comes before you calculate the 
surplus. It is something that does not come against the 
surplus. It does get to the bottom line that there is a smaller 
surplus, but the emergency authority was provided for that 
reason.
    Senator Campbell. OK. Well, let me go on a bit, because we 
are already getting calls, and I am sure the other Senators are 
too, from seniors who know we have been talking the last two 
months on how to make sure we keep the Social Security trust 
fund solvent, how we are going to make sure people get the 
money that they have paid in when it is their turn.
    Maybe, you can give us an idea about how we go home and 
tell the seniors now that we have been doing our best to 
protect Social Security, how we are now going to use the money 
to fight a war.
    Mr. Lew. Senator, I would say that being prudent, our use 
of the emergency authority is the first step. Showing that we 
are going to use the emergency authority to fund emergencies is 
the way to have credibility in using the emergency authority.
    So I would urge the committee as it looks at its requests 
for additional funding that it be kept in mind, because I think 
that the American people understand that Kosovo is an 
emergency. They understand that there is a need when there is a 
humanitarian crisis, whether it is in Central America or in 
Europe, for us to respond. They do not understand when we use 
the label for things that do not look like emergencies.
    Now, as far as the funding for Social Security goes----
    Senator Campbell. I think they understand the humanitarian 
effort, but if you think you can go down to the senior Senator 
center--senior Senator--[laughter]--senior center and explain 
to them that we are going to use their Social Security money 
for it, you are wrong. You have not been out there much. But 
let me go on.
    Mr. Lew. Senator, if I might----
    Senator Campbell. I only have seven minutes, so I do not 
want to take all the time just on that one thing.
    But you said there will not be any offsets to this, is that 
correct?
    Mr. Lew. We have proposed it as an emergency without 
offsets, that is correct.
    Senator Campbell. All right. As I also understand the 
testimony, we are paying about 50 percent of all the sorties 
and 90 percent of the total cost. Is that----
    Mr. Lew. Well, I cannot confirm the 90 percent of total 
cost. We were flying somewhat higher than 50 percent of the 
sorties, but the 90 percent of the total cost is a number that 
I am not familiar with.
    Senator Campbell. Well----
    Dr. Hamre. I am not either, sir.
    Senator Campbell. Then in an event that Milosevic does not 
yield to the NATO forces beyond September--and it looks to me 
like he is getting more support and stronger, in my own 
opinion--is the administration going to continue to rely on the 
Social Security trust fund to sustain this beyond September?
    Mr. Lew. I need to take a step back and respond to the 
Social Security portion of the question, because the Social 
Security fund will continue to have all of the resources it 
needs to pay all of its bills.
    This really gets to the question of the difference between 
the on-budget and the off-budget surplus. It does not get to 
the question of funds being available to pay benefits.
    So I would hope that none of us would cause the kind of 
fear among senior citizens that is unwarranted in terms of 
funds being available to pay benefits.
    With regard to future requirements for Kosovo operations, 
sitting here today I can tell you with confidence that we have 
fully funded what we anticipate to be the costs of the 
operation for the rest of this fiscal year.
    I cannot sit here today and project what the costs for 2000 
are. What we need is to give this air operation time and to 
have a policy for the subsequent period after we have succeeded 
with the air operation in order to estimate the cost of it. I 
cannot estimate an operation that does not yet exist.
    Senator Campbell. Well, I---as for one Senator, I am sure 
glad you are thinking about some policy finally, because I 
have--I do not--maybe some other Senators have seen some design 
in this from the beginning, but it seems to me that we have 
been pretty lacking on policy about what the long-range----
    Mr. Lew. We have a very clear policy, Senator. Our policy 
is to continue this air operation and to accomplish the 
objective of enabling the Kosovo Albanians to return to their 
homes. And we are going to succeed in that operation.
    You are asking what is the funding required after we 
succeed? And I am responding that we first have to succeed and 
then see the shape of the operation that succeeds in order to 
put a cost estimate on it.

  What share of the Kosovo mission costs should the United States pay 
                                  for?

    Senator Campbell. Well, we have a dispute about whether we 
are paying 90 percent or not, but one of the Senators--perhaps 
it was Senator Byrd--mentioned that the administration or 
President had said something about rebuilding--the American 
part of that obligation of rebuilding what we are now blowing 
up will be about 25 percent of the cost. But do you think that 
that is a realistic number?
    Mr. Lew. As I responded to Senator Byrd, there are 
discussions going on right now. They took place to some extent 
over the weekend at the NATO summit and they will continue. 
There is serious consideration being given to what it will 
require to rebuild the region and to bring the economy of the 
region back to where it should be.
    The question of what the U.S. role in that is, is something 
that will be determined in the future. We will work together 
with the Congress, in terms of defining that role.
    We concur that there is a very serious need for European 
leadership and responsibility in this area. I cannot sit here 
today and say there is no role for the United States. I cannot 
say that it is 25 percent. That is going to have to be 
determined.
    I think it is fair to say that looking at the costs 
associated with the military and the humanitarian operation is 
probably not a terribly effective way to determine what the 
costs should be for any subsequent operations.
    But I think we will have to discuss that as the policies 
evolve.
    Senator Campbell. Well, in your opening statement, as I 
understood you--you alluded to some rather successful NATO 
summit, that there was some solid support or seemed to be solid 
support, but the Washington Post report said that during the 
summit at least three NATO countries stated they would not 
support the introduction of ground forces, and France stated 
they would not support the use of ships carrying oil to 
Yugoslavia to stop--to be stopped for inspection at sea.
    So it would seem to me that Milosevic gets the same kind of 
reports, and that he would see that there is not a solid 
support in at least some areas of NATO that you seem to think 
there is.
    But let me ask this: If fighting does escalate, including 
ground peacekeeping forces, some of the numbers I have heard is 
that it might cost as much as $300 million a month to deploy 
and sustain each increment of 27,000 troops and that it may 
cost $1 billion a month or more to sustain an air campaign. Is 
that an accurate projection?
    Mr. Lew. Senator, we do not have a policy for ground 
troops. We have not estimated what the costs would be. We have 
fully accounted for all the costs associated with the air 
operation.
    When all of the adjustments for one-time costs are done, it 
is about $700 million a month, not $1 million a month right 
now.
    Senator Campbell. $700 million, not----
    Mr. Lew. $700 million, yes.
    Senator Campbell. Thank you, Mr. Chairman. I appreciate it.
    Chairman Stevens. OK.
    Senator Specter is next.

                    U.S. capacity to fight two wars

    Senator Specter. I, like Senator Byrd, was concerned to 
hear you say that we are not prepared to fight two wars. The 
Congress has the responsibility under the Constitution to raise 
the Army's and Navy's military forces.
    We are now fighting an occasional war against Iraq. We have 
major treaty obligations with South Korea, and we find an 
enormous menace posed on the North Korean issue, so that when 
we consider this supplemental budget as to what we are going to 
do in Kosovo, it seems to me we really have to pick up the 
issue as to what are our obligations worldwide, and I think the 
Department of Defense, you are the number two man there, is 
going to have to tell us what it takes to discharge the 
obligations we have undertaken around the world, which 
certainly to me seems to be a commitment to fight two wars, if 
not more. I think it is a very significant statement that you 
have made here that we are not prepared to fight two wars.
    We are husbanding the missiles, but we are firing the 
missiles periodically at Iraq. We are undertaking acts of war 
as to Iraq, in defense of Kuwait. So I think that is an issue 
which this committee has to take up.
    When you make the statement, Dr. Hamre, that the United 
States is not contemplating ground operations in a hostile 
environment, I accept what you say, and the key word is 
``contemplating.'' That is obviously subject to change.
    President Clinton said over the weekend that he would 
follow the lead of the Secretary General of NATO in reassessing 
the issue of ground forces, and we see that Great Britain and 
France have advocated ground forces, and that is a very open 
question, and it may not be far around the corner.
    There are some in the Senate who have urged that the 
Congress pass a resolution authorizing the President to use 
whatever force the President deems necessary. I personally am 
not prepared to give the President a blank check to use 
whatever the force deemed necessary. It seems to me that there 
are questions which have to be answered, and only the President 
is in a position to give the answers as to what effect the 
airstrikes have had in degrading the military strength of 
Serbia, the Federal Republic of Yugoslavia.
    If we are to think about ground forces, what is it going to 
take? What will the contribution of NATO be? What is the 
projection as to how long we are going to be there?
    We started in Bosnia with a time limit of a year. That was 
extended. That was re-extended. Now, it has been extended 
without any time limit at all, so that notwithstanding your 
statement that, ``Not contemplating ground operations in a 
hostile environment,'' I think we need to know a lot more.
    This is a very difficult question which we have asked the 
Secretary, Secretary Cohen, and we have asked the Chairman of 
the Joint Chiefs of Staff, but do you have any new light to 
shed on the subject? Will the escalated airstrikes solve the 
problem against President Milosevic?
    Is it realistically calculated to bring him to the table or 
to achieve the military objective, and if not, can 
consideration of ground forces be far away? What is the answer 
to that this morning, Dr. Hamre? We will hear it from the 
President tomorrow, but let us hear it from you today.
    Dr. Hamre. You have asked three very hard questions, so if 
I might try to answer first to Senator Byrd's issue, which is 
about two wars at the same time.

                  Two war strategy and Iraq operations

    I have learned to never be sloppy in my thinking or words 
around Senator Byrd, so I was trying to be very precise that we 
do not have a strategy to fight two simultaneous wars around 
the world. We have never advertised that. We have advertised 
that we want to have the resources to be able to fight and 
deter in two separate theaters, and we have----
    Senator Specter. Do we have a strategy to fight one war?
    Dr. Hamre. Yes, sir, absolutely, and to be able to engage 
in a second theater really at the same time in order to deter 
that opponent from accomplishing his or her----
    Senator Specter. Are we fighting a war against Iraq today?
    Dr. Hamre. We are maintaining the air operations that we 
have maintained for four years in Northern Watch and Southern 
Watch, and it is really with no change. We had drawn it down 
temporarily for about a week, as we----
    Senator Specter. We are fighting an occasional war against 
Iraq.
    Dr. Hamre. Sir, we are maintaining the operations in both 
Southern Watch and Northern Watch, as we have for the last four 
years.
    Senator Specter. How is our missile supply with respect to 
what we need to do as to Baghdad, Iraq, and at the same time, 
Belgrade, and the Federal Republic of Yugoslavia.
    Dr. Hamre. You know, because we have submitted to you and 
your committee was very quick in responding, gave us 
supplemental funding to augment especially the one area where 
we are short right now, and that is in conventional air-
launched cruise missiles.
    You have given us the resources, we have already started 
the factory working, it is producing, and we will get those out 
here in several months.
    Senator Specter. Dr. Hamre, let me move to a couple of 
other topics, because my time is about to expire, too. If you 
could supply written answers, it would be very helpful, because 
time is very limited.
    Dr. Hamre. Of course.
    Senator Specter. When you talk about 60 percent of the 
sorties and the question is raised as to whether we are 
providing 90 percent of the costs, and that is a figure which 
is in the public milieu, I think we need to know what it is 
that we are paying.
    If 90 percent is not the figure, Mr. Lew, Dr. Hamre, I 
think we ought to know, and I think we ought to know what the 
other NATO forces are providing, because these are hard 
questions that we get understandably from our constituents, 
aside from the Social Security issue, which is a big one, when 
we have, as Senator Campbell has outlined, the funds coming out 
of the surplus, which is, in a public relations context, talked 
about solely for Social Security.

                     Funding of war crimes tribunal

    Let me come to the question of the war crimes tribunal, and 
I know that Administrator Atwood will take this up in some 
greater detail, and the figure of $5 million is used. I believe 
it is very important when we are talking about $6 billion or 
more that we keep in very sharp focus what the needs are of the 
war crimes tribunal.
    Justice Arbour, who is directing that operation, has 
submitted a conservative estimate of the need now for $18 
million, more than $8 million for full-scale investigations in 
Kosovo, some $3 million on exhumations costs, some $2 million 
on a center to correlate all the available information.
    There has been a lot of tough talk about treating President 
Milosevic as a war criminal. This goes back to 1992, when then 
Secretary of State Eagleburger pretty much branded him a war 
criminal, but those investigations cannot be conducted unless 
financed.
    They have a very effective hard-hitting prosecution team 
over there in The Hague at the present time, and Ambassador 
Scheffer has been there. The team is taking a look at what is 
necessary on the ground, so I urge, Mr. Lew, that you take a 
very hard look and not shortchange the war crimes tribunal.
    Dr. Hamre. Senator Specter, we agree that those 
investigations need to be financed. To my knowledge, we have 
funded every request that we have received in that area. If 
there are other needs that we have not seen, we would look very 
seriously at them.
    Senator Specter. Well, there is a pending request which has 
not been funded.
    Chairman Stevens. Your time has expired. I am sorry. 
Senator Burns.

             Explaining the mission to the American people

    Senator Burns. Thank you, Mr. Chairman.
    Mr. Lew, I have contended for some time that it would make 
our job a little bit less painful if President Clinton would 
have gone to the American people and addressed them that we 
have a humanitarian operation underway in the Balkans, which 
includes food, medicine, shelter, relocation, and this type of 
thing, for what has become over a million people. Go to the 
American people and say this is in the interest of the country, 
number one, and it is going to cost real dollars, and then we 
could come to a setting in which we could talk about the 
priorities and allocations.
    It has been very difficult to work under these conditions 
where the President has not stepped forward and gotten prime 
time on television to tell the American people just what our 
objectives are, and what we could expect after the operation is 
over.
    We have spent a lot of time this morning talking about the 
relocation and, of course, the humanitarian needs of the 
displaced people. I am wondering if we should not spend a 
little time on talking about how do we take care of this 
cancer, because I have the feeling from the conversation around 
this table of Senators who are much closer to the situation 
than I, and am getting the feeling that we are low-balling a 
very cancerous situation, and we are doing it at a time that 
would exacerbate the conditions there rather than to take care 
of them. I would ask you, is that your opinion?
    Mr. Lew. Senator Burns, I think in almost every regard this 
package is uncharacteristic of past supplementals, in that it 
has gone high rather than low, because of the uncertainty in 
the operations. On the humanitarian side, we are very aware of 
the urgent needs of people that we cannot get to right now.
    We have built in funding in at least three different ways 
so that regardless of whether we can provide funding directly 
or indirectly through other foreign countries, through private 
voluntary organizations, or through individuals, that we have 
funds in all the necessary accounts for the United States to 
bear a very substantial share of the costs associated with not 
just the relief of the roughly 650,000 refuges who are out of 
the country already, but with the fact that that number could 
double.
    I would not say that there is a precise estimate on the 
cost, because it is very difficult, I would say it is 
impossible, to put a precise estimate on costs that are going 
to come about under circumstances that are not yet clear. We 
erred on the side of asking not once, but twice, or three 
times, for assistance, so that we will be prepared to meet the 
need when it arises. I think that is prudent.
    I feel that that is something we can defend in terms of 
fiscal policy and humanitarian policy, but I do not think that 
there is any aspect of this package where we artificially tap 
down the request to try and save a few dollars.
    Senator Burns. Well, I guess what I am contending is, it 
does no good to deal with the immediate humanitarian side of 
this, without curing the cancer. I think it is important that 
we take care of the cancer. That has to be dealt with. And, we 
have to deal with the humanitarian needs of relocation or 
whatever.
    I am very uncomfortable in this public setting of talking 
about perceived weaknesses that we may be incurring because of 
the military operation. I think that we all need to sit down in 
a more secure setting and honestly discuss the needs of this 
administration, based on its policy, and then deal with the 
humanitarian situation as American people would like it to be 
dealt with.
    I think the American people respond to these kinds of 
situations. What I am trying to do is try to get a handle in 
some way. How do we stop and cure the cancer, and still 
maintain our readiness, our retention, and our modernization, 
and the ability to defend our country? That is what I am 
wrestling with.
    Mr. Lew. Senator Burns, I think the way you just 
articulated the goals is almost exactly the way I presented the 
President's program. Our goal in putting this package together 
was focused equally on maintaining readiness around the world 
and providing all the resources needed so that this operation 
can proceed until it is successful.
    As you say, attacking the cancer means winning, it means 
succeeding in the air effort that we are undertaking right now. 
We cannot wait until afterward to deal with the humanitarian 
crisis. There are people who simply will not be there afterward 
if we do not deal with their immediate needs now. So we need to 
do both. I do not think we can do them sequentially, but we 
propose the funding necessary to do both.
    Senator Burns. Well, I will not ask any more questions, but 
I think the Chairman is exactly right. I think this is a time 
when a little forthcoming, but in a different setting----
    Mr. Lew. I would be delighted.
    Senator Burns [continuing]. In a more honest approach about 
what we are dealing with here would help enlighten a lot of us 
who have to provide the funding for an administration that is 
running a war. I thank the Chairman.
    Chairman Stevens. Senator Shelby.
    Senator Shelby. Mr. Chairman, thank you.
    Senator Burns. Mr. Chairman, may I submit the letter to Mr. 
Cohen for the record?
    Chairman Stevens. Without objection.
    Senator Burns. Thank you.
    [The information follows:]
                    Letter From Senator Conrad Burns
                                      United States Senate,
                                     Washington, DC, March 9, 1999.
The Honorable William Cohen,
Secretary of Defense, United States Department of Defense, Pentagon, 
        Room 3E880, Washington, DC.
    Dear Mr. Secretary: Last month I raised with you my concern about 
the relationship between the decline in our nation's military readiness 
and the cumulative impacts from the repeated use of our military forces 
overseas. I asked for information on past as well as planned costs for 
both Iraq and Kosovo. To date that information has not been 
forthcoming.
    The American public deserves an explanation about why our national 
defense capabilities are in a downward spiral with no upturn in sight. 
Morale is low at all levels and recruitment in both quantity and 
quality is down. The shortages are also across the board, in regular 
forces, reserves and the guard. The Navy reportedly was short 7,000 
recruits last year. The Secretary of the Army recently projected a 
shortfall of as many as 10,000 recruits this fiscal year. Even the 
Montana Army National Guard suffered a 20 percent reduction in full 
time employees over the past decade. Common sense tells us that our 
military personnel are over extended. The deficiencies in equipment are 
equally serious. And yet no halt is on the horizon.
    The particular focus of this letter is on our military 
interventions in Iraq and Kosovo. But a wider public debate on the 
Administration's high risk interventionist strategy is required. What 
happened to our national strategy of defending against armed aggression 
as in World War II, Korea and Vietnam? Without any effort to persuade 
Congressional representatives of the merits--and certainly with no 
immediate emergency at hand--we drifted into a pattern of intervening 
in internal ethnic conflicts. These are civil wars and our national 
military forces are acting as international policemen. If this radical 
transformation in strategy has merit, the Administration ought to be 
happy to talk about it in detail with Congress, well before we plunge 
deeper into the quagmire. We must husband our dwindling military 
forces.
    Roughly every other day for the past ten weeks, we have bombed 
mostly radar interception sites in Iraq with no discernible results. If 
our goal was to topple Saddam Hussein, why not bomb targets to achieve 
that end? Our current bombings may in fact be strengthening this 
despot's grip on power. If we were to bomb the Republican Guard, 
results worth supporting might be visible.
    In Bosnia, we inherited a mess after the United Nations got in over 
its head. Are we now stuck with a European problem where we carry the 
lion's share of the burden while European nations slash their armed 
forces? Why do we show more political will than the Europeans? Bosnia 
may be a U.N. problem; it may even be a European problem but the 
Administration has not made the case that it is an American problem.
    Kosovo is, of course, a part of a long festering Balkan problem. 
The Administration's credibility is strained to the limit when it 
proceeds on the naive belief that we can impose peace before the 
parties themselves are ready for it. What qualifies us to intervene in 
these ancient rivalries? Even if it were our business, is it worth the 
costs in terms of the adverse impacts on our readiness elsewhere? Even 
superpowers have limits. What is our exact military mission and what is 
our exit strategy? The Administration told Congress that we would be in 
Bosnia for one year and that was over three years ago. Can we now 
believe that American forces will only occupy Kosovo for three years as 
represented in the purported agreement? What are realistic objectives? 
Are we really facing an open ended commitment? Are U.S. interests 
served by promoting a new independent state of Kosovo? Will Serbia give 
up its sovereignty? Are we comfortable backing the Kosovo Liberation 
Army? How much money and how many American lives is Kosovo worth? Will 
we cut and run if our forces sustain heavy losses? We have more 
questions than answers.
    The President acts as if he can make open-ended commitments on the 
use of our military forces without accounting to either the American 
people or to the elected representatives in the Congress. I challenge 
that attitude and that pattern of Executive conduct. The Administration 
has an obligation to justify its military interventionist strategy well 
before our ground troops are deployed to Kosovo. At least that lesson 
should have been learned from Vietnam. The brave men and women in our 
armed forces are still willing to put their lives on the line for this 
great country. But they must only be asked to do so when our national 
interests are clearly established. They and we deserve an explanation 
about Kosovo and related interventions. And even with a strong 
rationale for the repeated use of our military forces overseas, the 
continued decline in our nation's readiness cannot be tolerated. 
Something has to give.
    Bill, I appeal to you as one of my most respected and thoughtful 
former colleagues. Talk to us. Persuade us that what the Administration 
is doing is best for our country.
            Sincerely,
                                                      Conrad Burns.

                 Model of Apache helicopter for Kosovo

    Chairman Stevens. Senator Shelby.
    Senator Shelby. Dr. Hamre, it is my understanding that we 
are deploying what they call the ``A'' model Apaches to 
Albania, not the Longbows. Why not deploy the more capable, as 
a lot of the military people think, Longbows? Why are they not 
going there?
    Dr. Hamre. Sir, I think the main thing is the difference 
between the two capabilities.
    Senator Shelby. That is why I asked the question.
    Dr. Hamre. One is, of course, the fire-and-forget 
capability, and that is the Longbow, and in this kind of 
environment where you really want to avoid civilian casualties, 
you want to be able to know exactly what it is that you are 
aiming at and trying to hit, and being able to keep a laser 
beam located on that target. It probably gives us a little 
higher assurance that we are going to be able to avoid civilian 
casualties.
    Senator Shelby. But we are also trying to win the conflict, 
are we not?
    Dr. Hamre. Yes, sir. Yes, sir. I am just going to have to 
defer, if they have asked to have ``D'' models, we would send 
``D'' models. I mean I do not think anybody----
    Senator Shelby. If General Clark asked for it, would you 
send it?
    Dr. Hamre. Sir, we did not direct one way or the other what 
they had to have or had to live with. I mean if that is what 
they had asked for, I am pretty sure we would send them.
    Senator Shelby. Was there any political decision in----
    Dr. Hamre. None that I know of, no, sir. None that I know 
of.
    Senator Shelby. Could you check that?
    Dr. Hamre. I sure will. That is an important question, and 
I know absolutely nothing, and I will find out.
    Senator Shelby. It sounds more like a political decision 
than military.
    Dr. Hamre. Sir, I do not think so, because I do not know 
what the margin would be for us to do that, to tell a 
commander-in-chief (CINC) that he cannot have what he thought 
he needed to carry out that war. I will find out.
    Senator Shelby. Find out. We would like to know.
    Dr. Hamre. Absolutely.

           Dealing with two nearly simultaneous contingencies

    Senator Shelby. Dr. Hamre, Senator Byrd alluded to this, 
Senator Specter did, it is my understanding that as of now that 
we have a policy of having the military force structure to 
fight and win two major regional conflicts, is that correct?
    Dr. Hamre. Yes, sir, but Senator Byrd's question----
    Senator Shelby. Is that the policy?
    Dr. Hamre [continuing]. Was at the same time.
    Senator Shelby. At the same time.
    Dr. Hamre. He had never indicated simultaneity.
    Senator Shelby. But not two big wars.
    Dr. Hamre. Well, a major regional contingency. I mean that 
is like fighting on the Korean Peninsula or fighting again in 
Southwest Asia.
    Senator Shelby. OK. For example, if during the current 
crisis we have in the Balkans, if the North Koreans launched an 
attack across the thirty-eighth parallel, could we respond 
effectively in defense of our South Korean allies?
    Dr. Hamre. Yes, sir, I think we can. I really do.
    Senator Shelby. Do you know we can or you think we can?
    Dr. Hamre. I am pretty sure we can. That is why we have had 
to move in some supplementary aircraft for ground based, after 
we took the aircraft carrier.
    Senator Shelby. Have we taken forces out of that area?
    Dr. Hamre. We diverted an aircraft carrier.
    Senator Shelby. That is right. A whole group?
    Dr. Hamre. Well, yes, sir, it has supplementary ships that 
go with it, but we diverted an aircraft carrier, but then we 
put replacement aircraft on the ground to complement that, or 
to----
    Senator Shelby. How long would it take to get a carrier 
battle group to the Western Pacific?
    Dr. Hamre. Well, it would depend on--I would have to get 
back to it officially for the record, but it depends on what 
state of workup a replacement carrier--I am assuming you mean 
one that is not already deployed, but that would depend on 
where they are in their workup----
    Senator Shelby. Where they are, and so forth.
    Dr. Hamre [continuing]. And that varies from month to 
month, but I will find out.
    [The information follows:]

    Using a 20-knot Speed of Approach (SOA), it would take a 
West Coast-based carrier battle group (CBG) 14 to 17 days to 
respond to the Sea of Japan for a contingency in Korea, 
assuming all training requirements were accomplished and 
replenishments completed. Using the same high SOA, it would 
take 13 to 16 days to redeploy a CBG from the Arabian Gulf in 
the U.S. Central Command (CENTCOM) area to Korea.

    Senator Shelby. Do we have the military airlift and sealift 
capacity to get reinforcements to the battle in time, if there 
were a battle in the thirty-eighth parallel area?
    Dr. Hamre. We are very much paced by airlift capability. We 
do not have enough airlift capability to do two at the same 
time major theater contingencies.
    Senator Shelby. That would really strain us, would it not?
    Dr. Hamre. That would really strain us. We cannot do it at 
the same time. That is why partly it is not a simultaneous 
operation, it has to lag, because we do not have the airlift 
resources to be able to do that. Sealift is not so much the 
pacing problem as much as it is airlift, and that is where we 
have just never had the resources to do it at exactly the same 
time, but because they are airplanes, we roll them over to a 
new role and a new mission.
    Senator Shelby. What if, in addition to North Korea, we had 
a breakout there at the same time an escalation in the Iraqi 
area, and with the Balkan situation going on, what would that 
do, as far as straining our forces? It would certainly strain 
them.
    Dr. Hamre. It would be very stressful, yes. I mean, again, 
we have not committed so many ground forces here, and we do 
have pre-positioning for our ground forces both in the Korean 
Peninsula and in Southwest Asia, but because we have committed 
fairly significant air assets, and especially what we call the 
low-density air assets, the J-Stars, the U2s, the early-warning 
aircraft, the AE6Bs, the electronic jamming----
    Senator Shelby. Make no mistake about it, it would really 
strain our military capabilities.
    Dr. Hamre. I am assuming your question is if we were to 
continue the entire air operations in the Balkans, and do 
something in Korea, and then have Southwest Asia happen on top 
of it, would be stressful? You are darn tootin'.

            Estimate of costs for reconstructing the Balkans

    Senator Shelby. It has been talked about here about the 
reconstruction of Kosovo and perhaps Serbia. Has anybody put 
any numbers on that?
    Mr. Lew?
    Mr. Lew. Senator, there have been discussions, I would say 
it is not yet something that has been assigned a number. I 
cannot say that I know what the number is. One has to define 
what you mean by reconstruction in order to even come close, 
because there could be a very small or a very large number.
    I think the importance of restoring the economic position 
prior to the conflict in the region is very clear. The question 
of the U.S. role in that is something we have to work our way 
through, what it costs, how quickly it is done. That is 
something that would have to be undertaken after very extensive 
discussions with all of our allies. I have read numbers in the 
newspaper, frankly, that do not bear much resemblance to 
numbers I have heard speculated about, and I think it just 
suggests how early that discussion is.
    Senator Shelby. It is early, but if there is such a plan 
down the road, and the President is certainly alluding to it, 
this money too would come out of the Social Security fund, 
would it not?
    Mr. Lew. Well, it is very difficult for me to say, not 
knowing what the total cost is, what the U.S. share is, or 
under what terms we might be seeking it, where the funds would 
come from. I hope we have the luxury of being here very shortly 
discussing what we will do after we have succeeded in the 
conflict. We are not at that point yet.
    Senator Shelby. I do not believe you are going to have a 
lot of luxury with the Chairman here. Thank you.
    Chairman Stevens. Senator Inouye.
    Senator Inouye. Thank you. Dr. Hamre, the budget request 
before us is based upon certain assumptions, and one is that we 
will be participating in this conflict at least until October 1 
at its current pace.
    I personally believe that it will go beyond that, but even 
assuming that the conflict abruptly ends on October 1, our 
personnel will still be there for at least six months, if not 
in increased numbers, because of occupation assignments, our 
equipment will still be there, because aircraft will be flying 
around at least to monitor the situation.

                      Rotation of deployed troops

    Now, having said that, I have a couple of questions. When 
members of this Defense Subcommittee visited the desert about a 
year ago, Kuwait and Saudi Arabia, the first question asked of 
us was, when do I go home, and it was rather apparent at that 
time that we did not have an articulated rotation policy. There 
was uncertainty, and I believe this played a major role in our 
problems with retention and recruiting. Now, do we have a 
rotation policy established for this conflict?
    Dr. Hamre. Sir, we do have a rotation policy, I believe, as 
it relates to reservists, who we will be calling, but I do not 
believe we have a rotation policy in the sense that someone who 
is in the air combat unit is guaranteed of a date that he is 
departing right now. I do not know. I will find out officially 
the answer, but I do not think so.
    Senator Inouye. If we do not have one, why not?
    Dr. Hamre. Well, sir, because we are in the middle of a 
transition period with the air force towards the air 
expeditionary forces, and we will, indeed, be able to do that 
once that is in place, but that has just been started. We do 
not have that in place, so we still will operate under the 
previous resourcing policies of the air force that we have been 
using in Southwest Asia, because we have not yet stood up fully 
the air expeditionary force concept.
    Senator Inouye. As you know, with the air force we are 
suffering from this low-retention policy, and we are still 
having problems with retention and recruiting, especially among 
pilots.
    Dr. Hamre. Sir, the last two months have been pretty 
encouraging. I mean the sign-up rate for the bonuses dropped as 
low as 25 percent, and that really worried us when it fell that 
low. It is now up to about 45 percent. It is a good 
development. We think that frankly your early endorsement of a 
pay raise for the troops and for retirement benefits has had a 
big effect on that.

                     Replacement and recovery costs

    Senator Inouye. Then another question on the assumptions. 
You have funds requested for munitions replacement----
    Dr. Hamre. Yes, sir.
    Senator Inouye [continuing]. But you have no funds for 
additional repair work caused by over-utilization of equipment, 
aircraft and otherwise, and you know very well we are going to 
be using them.
    Dr. Hamre. Yes, sir, and both you and Senator Stevens have 
raised this with me, and it is this question--I think we do a 
pretty good job of capturing direct operating costs. I mean our 
models now are good enough, we have been at this a while.
    I am not sure our models are as good at capturing kind of 
the longer-term wear-and-tear sorts of costs, and that is 
something that I have asked Bill Lynn, who is the comptroller, 
to try to tackle, so we do not have an allocation in this 
request for, for example, a long-term overhaul if we expect 
that there is greater wear and tear. We are assuming that is in 
the program depo rates and we have budgeted for those, but I 
understand your question and I will try to get a better answer 
for you over time.

                            Target approval

    Senator Inouye. Following the events as closely as I can I 
have this conclusion, that you may have targets that you wish 
to bomb, but they all have to be cleared by a committee, the 
NATO council. Are we fighting this war by committee action?
    Dr. Hamre. Sir, first of all, I hope that Senator Stevens 
would, indeed, schedule a classified hearing so that we can 
answer more fully a question like this.
    I do not want to get into specifics of targeting and that 
sort of thing in this hearing, but we are fighting as a 
coalition, and that does mean that we have to have a consensus 
for how we are undertaking things, but as to specifics on how 
that is applied on a targeting basis, if you would let me defer 
and talk to you about that in a classified hearing I would be 
delighted to do that, but I also think that our forces really--
I have heard Wes Clark in a number of our VTCs, our video-
teleconferences, he has a full agenda and he has more than 
enough things that he could act on. I do not believe he is 
being held up by committee votes, as it were.
    Senator Inouye. And my final----
    Chairman Stevens. Senator Byrd.
    Senator Inouye. Yes, please.
    Senator Byrd. The newspapers have been full of this. This 
is being done by a committee. You have to run by everybody to 
get their approval on the targets, that is what the press has 
been saying.
    Dr. Hamre. What did you say, Senator Byrd?
    Senator Byrd. I am sorry. I hope this will not come out of 
Senator Inouye's time. I said the newspapers have been full of 
this. Everybody has heard that the targets are agreed upon by 
the full group, so it is a committee. Why is it classified? We 
all know that is the case.
    Dr. Hamre. Sir, I do not want you to conclude that I am 
trying to be evasive in answering this question. If I might, 
sir, what NATO is doing, as a coalition, because we are 
fighting this together as a coalition, is to determine the 
policy parameters around which General Clark and his staff will 
design an air operation, and I believe that they are doing 
that. Is that a committee operation on picking targets? I do 
not think it is. I think it is a coalition process of 
determining the policies that would guide the ongoing campaign.
    Now, as to specific targets, if we want to get into that I 
would be happy to get into that. I would frankly like to bring 
my military counterparts to join in on that discussion, but I 
do not think it is the case of a committee saying, well, I like 
that one, or I like that one, that does not happen.
    I think it is the political councils are deciding what are 
the policy parameters around which we must guide the air 
operation, and that is a coalition operation, but as to 
specific targeting, I believe that is being done very much by 
General Clark directly with his war staff.
    Chairman Stevens. Senator Domenici, I am constrained to 
take a minute of my next time, but Dr. Hamre, the trouble is 
that we met with the ambassadors, we met with them when we were 
in Brussels, and the Senator is right, it is a coalition, and 
they must approve any targets. Our people submitted to them a 
list of targets, that is true, that is true, but we only hit 
the ones they approve. We have 90 percent of the assets there, 
and we have one out of the nineteen, as far as the people are 
meeting at that table. As a matter of fact, the President 
himself said that Clark was like, you were there, Mr. Lew, a 
majority leader trying to get a bill through the Senate to get 
approval of any targeting. So I do not know why it is 
classified.
    Mr. Lew. Senator Stevens, if I may, the President was 
commenting on a situation that had been resolved, that it was 
not being conducted that way, and I think Dr. Hamre----
    Chairman Stevens. Well, I do not think he was. That was 
before it was resolved. I was there at the White House at the 
time he made the statement, but as a practical matter, NATO is 
a facade. They are doing business with Yugoslavia.
    Many of the people at that table represent countries who 
are doing business with Yugoslavia right today. That is what 
bothered us when we were there.
    Senator Shelby. I was there with Senator Stevens. He is 
absolutely right. It is a committee.
    Senator Byrd. May he have a couple of minutes extra?
    Senator Inouye. No, no, no. That is all right.
    Chairman Stevens. You can have 15 seconds.

                      Duration of Kosovo operation

    Senator Inouye. One final question, sir. Would it be safe 
to extend the assumption and say that this conflict will go 
beyond October 1, at this current pace?
    Dr. Hamre. Senator Inouye, we have talked about this 
countless times on what should we do in building this proposal. 
In large measure it is guided by the fact that we are asking 
for a fiscal year 1999 supplemental, what it takes to do it in 
fiscal year 1999. We do not want a signal to Milosevic or 
anyone else that we are going to stop on the 30th of September 
or that we are automatically going to continue. In so many ways 
what we are doing with this request is reflecting a bit of the 
artificiality of the way we put together budgets, where it is 
an annual appropriation, so we are asking for the increment 
that we know we need to get through this fiscal year. Maybe in 
a couple of months it will be clearer, or a month it will be 
clearer what we have to past the 30th of September.
    I may harbor the same sorts of suspicions that you have 
that this could very well go beyond that, but I do not know 
what I would absolutely do as a policy decision now. I do not 
want to send the signal to the world, and I do not intend to, 
that we are going to stop if we have not accomplished our goals 
at that time, but that is going to be in a much broader policy 
debate that we are going to have to have in this country, and 
that is I know exactly what you are expecting from the 
administration, is to come over and talk about the longer-term 
directions for this.
    Chairman Stevens. I only have to interject before Senator 
Domenici. We have one supplemental in conference now, we have 
this supplemental we have to get through, and the leaders want 
us to get the regular defense bill out of committee before the 
end of May. Now, we cannot stand another supplemental. That is 
what we are trying to tell you.
    Dr. Hamre. Yes, sir.
    Chairman Stevens. You have to err on the side of caution 
and put in this bill what you might need. If you do not need it 
by October, we will carry it over and we will apply it to the 
next year, but this idea that suddenly it becomes a political 
mechanism, we are not trying to embarrass the Administration--
--
    Dr. Hamre. Oh, no, no, no.
    Chairman Stevens [continuing]. We are trying to make sure 
the administration is not embarrassed. That is the problem. 
Senator Domenici.
    Senator Domenici. Mr. Chairman, thank you so much for these 
hearings and for your personal attention to this cause. Mr. 
Lew, I remain convinced that the President made a very wise 
choice in selecting you, and whatever I said about not getting 
enough information about future costs have no bearing on your 
authenticity and the way you run your office.
    Mr. Lew. Thank you.

               Is there a cost estimate for a ground war?

    Senator Domenici. I would like to say to everyone, I am 
very, very pleased that even on a discussion of a war we are 
talking about the Social Security trust fund. We would not 
think about that for the last 25 years, at least 15 of which we 
spent the Social Security trust fund as if it was going out of 
style for anything and everything. At least we are going to be 
very cautious, and it is going to have to be legitimate 
emergencies.
    Now, having said that, let me say to the witnesses, it is 
very difficult for this Senator to understand how you can come 
before us and the President can keep going before the American 
people, and, in fact, over the weekend talk to his best allies 
so that the words ``we may need to go in on the ground with 
ground forces'' just will not be used. Now, that is an amazing 
sleight of hand.
    Everybody is suggesting, well, 90 percent of the military 
people are suggesting it is probably going to happen. It looks 
like it is creeping into place; for example we are moving 5,000 
soldiers to protect helicopters.
    Now, why in the world cannot the committee, who has to pay 
for this, ask them to tell us what a ground war will cost in 
general terms. It should not be the beginning and the end of 
what we do, but if there is one thing that Senator Byrd has 
said, that I have said, can we not be better prepared for what 
it is going to cost us to do something?
    Now, having said that, I believe it is preposterous for the 
budget people for the administration, when asked questions 
about a war on the ground, to spout a political slogan. The 
political slogan is, we are not going in on the ground, but the 
question is, what if we have to? Should we not have some 
estimate of what the manpower and everything with it will cost? 
Do you want to use the Congressional Budget Office as the only 
source?
    Senator Byrd. Would the Senator yield?
    Senator Domenici. I will be pleased to yield.
    Senator Byrd. These people are doing exactly what the 
President tells them to do.
    Senator Domenici. That is right.
    Senator Byrd. I have been down to that White House three 
times recently, and I have heard the President on television, I 
have read what he says in the press, he is the one who is 
saying that, I have no intention, we have no intention, we have 
no intention, we have no intention.
    We cannot expect these people to come up here and say--they 
are not going to get out ahead of him, and I am not criticizing 
the Senator for asking that question.
    Senator Domenici. Well, actually, we could ask them just 
for estimates, and whether the President is for it or not, the 
military has to give us some estimates.
    Senator Byrd. Well, I would hope that we would get a little 
better direction from the top.

 Emergency funding for humanitarian disaster relief in Central America

    Senator Domenici. Well, having said that, I want Mr. Lew to 
know that this Senator understands what emergencies are, and I 
want to remind all the Senators here that we have an emergency 
pending, speaking of refugees and civilians that need our 
assistance.
    Honduras and Nicaragua had a gigantic hurricane flood that 
killed people and left them without houses, and we got a 
supplemental to take care of that human tragedy, and we have 
not passed it yet. We are wondering about how to pay for it, 
when it is just as much of an emergency as the refugees from 
Kosovo, let me tell you. They happen to be closer to us.
    They are all Spanish-Americans and Mexicans from this 
hemisphere, and we have not yet provided emergency assistance 
to them. I for one think they are just as much in need as the 
refugees from Kosovo, and we ought to take care of that, and 
take care of it quick.
    Mr. Lew. Senator Domenici, I could not agree with you more. 
The urgency with which the need in Central America should be 
addressed is greater even at this season than when we proposed 
it. As you know, the planting season is a short one there. The 
rainy season comes.
    There either will be the opportunity to provide assistance 
when people can make the decisions to provide for themselves 
and take care of their economic livelihood, or it will simply 
be too late. So the urgency is great, and we believe it should 
be done as an emergency without offsets.
    If I could perhaps respond at least generally to the first 
part of your remarks. We obviously could get involved in 
theoretical discussions of unit costs of troops. I do not know 
how much that would inform a discussion until you have a 
policy, because the policy would dictate what the real costs 
would be.
    Senator Domenici. I understand.
    Mr. Lew. Until you have a policy, there is not something to 
estimate, and I think it would be inappropriate for a budget 
exercise to take a lead on what is a military and a diplomatic 
decision.
    The question of what the environment is, what portion of an 
undertaking would be shared with which partner, these are very 
difficult questions, and we have not made a decision to 
proceed, but it would be inappropriate to suggest that we have 
by coming forward with numbers that would respond to that.
    Senator Domenici. Well, I wonder if you could tell us, 
would the administration object to Congress conditioning the 
request for appropriation by requiring that the President 
obtain congressional authorization prior to the use of ground 
troops in the kind of environment we are in? Since you-all do 
not want to talk about it, it is like it disappeared, you 
should not object to us conditioning it.
    Mr. Lew. We have made it very clear, Senator, that we will 
come back if there should be a decision and work with the 
Congress. We have not included in this request funds that would 
permit us to proceed, but we think it is a very different 
question to come for funding than it is to have the kind of 
condition you described, which you know we do object to for a 
number of reasons.
    Senator Domenici. Senator, let me just say, Senator Stevens 
and I last year signed a joint letter to the GAO, because we 
wondered if the Pentagon was asking our military men why the 
morale was low and why they were leaving.
    GAO got a preliminary report out, and I would like 
everybody to know, the principle reason for dissatisfaction is 
not what we have been debating in terms of pay, in terms of 
pensions. Actually, it has to do with the very basic issue of 
readiness, that they do not have sufficient equipment, spare 
parts, munitions; they are running out of munitions; they do 
not have the right kind of personnel filling in when somebody 
is gone. These are the number one concerns.
    Now, the reason I think we ought to go high rather than low 
on this bill is because we were suffering from readiness, and 
we are not going to come out of this war in better shape on 
readiness. We are going to come out worse, and six months after 
it the military are going to be more dissatisfied than they are 
now if we do not begin to take care of those kinds of problems. 
Some of those can be fixed in this supplemental, and it is in 
that context that I think we ought to be asking some questions 
beyond the ones here about what would be some readiness issues.
    I am absolutely convinced that our situation with reference 
to our equipment is going to come out worse, with reference to 
moral, it is going to come out worse, and we ought to do 
something to take care of it, if we can, now.
    Thank you very much, Mr. Chairman.
    Chairman Stevens. Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman. I share the 
concerns just stated by Senator Domenici. I was on the same 
trip with Senator Domenici, the Chairman, and Senator Inouye, 
and when you said, Dr. Hamre, that we are stretched, but not 
broken, I am telling you, we were stretched before this, 
including our Guard units and our Reserve units. I think we 
must address that issue from a retention and recruitment 
standpoint, and what we are going to do to keep these people 
from the overdeployment and mission fatigue that many of our 
guardsmen and reservists are feeling, and now we are calling up 
20,000 more. So this is a major issue, I think, for our own 
readiness.

                         Allied burden sharing

    Senator Byrd opened the line of questioning on the sharing 
issue. He was discussing the rebuilding, which surely will 
come, and talking about the European's fair share. I would like 
to address the next six months, the next three months, and this 
ongoing operation. The air attacks are quite expensive, we know 
that. We have stated that 90 percent of that is American costs.
    Because of the way NATO operates, we are, I assume, taking 
care of our own expenses when it is our part of the operation, 
as opposed to Desert Storm, where there was more of a sharing 
of the total expenses, is that correct?
    Dr. Hamre. Senator Hutchison, it is not comparable to 
Desert Storm, where there was a large international 
contribution to help defray our costs. We are paying a hundred 
percent of our costs, but I do not know what this 90 percent 
figure is. I do not recognize that. We are flying about 60 
percent of the sorties, and I would guess----
    Chairman Stevens. John, I will get you that secret briefing 
that I passed around the committee.
    Dr. Hamre. OK.
    Chairman Stevens. You look at that and you will see where 
we got the 90 percent.
    Dr. Hamre. OK. I mean all I know is we are flying about 60 
percent of the sorties.
    Senator Hutchison. Well, everything that I have seen says 
90 percent. Now, I think it is pretty important that the 
Department of Defense be testifying to the same number that the 
committee is using.
    Dr. Hamre. Oh, I agree. Absolutely.
    Senator Hutchison. There is a gap between 60 and 90.
    Dr. Hamre. Oh, absolutely. I will be glad to try to 
reconcile it.
    Senator Hutchison. I think you need to come forward----
    Chairman Stevens. Senator, Mr. Kochese has pointed out to 
me, we were looking at strike sorties, you are talking about 
air hours. The patrol over the area in non-combat conditions is 
not a sortie under that briefing. We are talking about 90 
percent of the war sorties.
    Dr. Hamre. Of the actual strikes-on-the-ground sorties. 
That could be. I do not know what that number is, but I know 
from the total sorties on a daily basis, we fly about 60 
percent of them.
    Senator Hutchison. Well, let me just ask what the 
administration's position is on a fair sharing of the cost, 
when it is clear that the United States is bearing the greatest 
share of a very expensive air operation. Is there any plan to 
try to get more of a fair share in ongoing operations and 
perhaps offsetting some of the costs of our air operations by 
asking the rest of NATO to take the lion's share of any kind of 
further operation, whatever it may be?
    Dr. Hamre. I do not mean to be flip about it, in all 
honesty, he would not give a direction like that to General 
Clark, to say we want you to constrain it, because we do not 
want to pay any more than 50 percent or 60 percent.
    I mean we have not, to my knowledge, ever told him what he 
could or could not ask us, and he is designing an air campaign 
to undertake a set of military objectives consistent with the 
political guidelines that have been laid out in the NATO 
councils.
    Senator Hutchison. My question was not what are you going 
to direct General Clark to do. The question was: What is the 
administration's position on asking the other NATO allies about 
taking over more of a fair sharing arrangement, considering 
that we have taken the lion's share of the air operations?
    Dr. Hamre. I do not know if there were private discussions 
during the weekend that may change what currently has been 
going on. If you look at the air contribution of each of the 
countries as a percent of what they have in their respective 
air forces, actually, we are at roughly the same percent across 
the board, NATO, United States, and the other countries of 
NATO.
    Now, maybe there is another method for calculating that we 
ought to look at, and I will talk to the Secretary, I will 
raise with him the question you have asked me and find out if 
we have discussed that, but I am personally unaware of any plan 
on our part to suggest an alternate allocation of commitments 
on the part of our allies.
    Senator Hutchison. Well, when Secretary Cohen was 
discussing a peacekeeping mission where we would not fight our 
way in, he was talking about a 15 percent American----
    Dr. Hamre. Yes. Yes.
    Senator Hutchison [continuing]. Force. Is that a 
realization that there is perhaps a sharing that would be fair, 
where we are taking the lion's share of an air operation, and 
if there were ground operation, it would be in the opposite 
percentage, which is what Secretary Cohen had suggested in a--
--
    Dr. Hamre. I honestly think that there has been a calculus 
that traded off what we would do in the air and what we would 
do in the ground. I think that the Secretary said that he felt, 
while we should participate, it ought to be a relatively 
smaller percentage of ground contribution in a permissive 
environment for a peacekeeping operation. I do not believe that 
that was in any sense tied to a decision on how we would 
resource an air campaign. I am not aware of that.
    Senator Hutchison. Well, Dr. Hamre, I hope that we are not 
talking about taking from our surplus in Social Security, and I 
would hope you would perhaps look at what would be a fair 
sharing for the American taxpayers.
    Dr. Hamre. Yes, ma'am.
    Chairman Stevens. Senator Bennett.

              Kosovar refugees coming to the United States

    Senator Bennett. Thank you very much, Mr. Chairman. Mr. 
Lew, let us talk about the 20,000 refugees coming to the United 
States. How were they chosen?
    Mr. Lew. The process by which individuals are being chosen 
is underway now, but the objective was to select people with 
some ties to either relatives or others in the United States. 
That process is underway now. I wish I could answer in more 
detail, but it really has just begun, and I cannot.
    Chairman Stevens. Senator, we are going to have Mr. Atwood 
before us on Thursday morning. We excused him. I just wanted to 
point that out to you.
    Senator Bennett. OK. Maybe these questions are more 
appropriate for him. I am wondering how many people will be 
coming over in the next five years, because I am assuming that 
the 20,000 will be eligible to bring their immediate families, 
so what is the total going to be? Do you have any feel for 
that, or should I hold it for Mr. Atwood?
    Dr. Hamre. I think it would be better to ask these 
questions to Mr. Atwood, but my understanding is that the 
20,000 is 20,000, and what that means in the long term, I mean 
our objective is for people to be able to return to their 
homes, so we would certainly hope that it is not in any way 
deviating from that as the real objective.
    Senator Bennett. I find a slight disconnect between that 
and your first answer if they are being chosen because they 
have a connection in the United States with relatives. It 
sounds to me that they are coming to the United States 
permanently.
    Dr. Hamre. No. I think it actually has more to do with the 
form in which emergency refuge will be provided. The preference 
would be to have people come to an environment that is somewhat 
more desirable than a barracks or other kind of situation like 
that.
    We have not in any way deviated from our objectives that 
refuges should be able to return to their homes, and do not 
intend for a policy to bring some of the refuges here for 
emergency relief to be seen as a change in that policy.
    Senator Bennett. Well, I will follow the Chairman's 
admonition and wait for Mr. Atwood, but I--well, I will wait 
for Mr. Atwood.
    We are in a war. It is turning into a major war. It is 
threatening the surplus with diminution, if not elimination, 
and it shows no end in sight. I will not go into all of the 
ramifications of that, because that is a separate issue, but 
there are all these consequences when you go into a war, and 
one of them clearly is our relationship--one of the 
consequences is clearly a major deterioration of our 
relationship with Russia.

                       U.S. relations with Russia

    Dr. Hamre, there are a number of things the Russians have 
canceled by virtue of their dissatisfaction with our decision 
to move ahead in Kosovo. Would you be open to pursuing any 
effort to try to maintain or increase ties to Russia around 
this conflict? Do you think it is important for us to try to do 
that?
    Dr. Hamre. Sir, we do. We think it is very important not to 
have those relationships just shattered, and frankly, I think 
it is very important for Russia to realize that it should not 
seek a future where its allies in the world are Milosevic, and 
Kadafi, and Saddam Hussein, and those are the only buddies they 
have. I mean that would be a very serious mistake for Russia.
    We do not think it is in their long-term interest to simply 
identify in the passions of the moment with some flawed leaders 
that are leading very flawed causes. By that I think we ought 
to continue to keep an open hand, be willing to engage. I think 
that is a very important dimension.
    Senator Bennett. I will send you a letter about a parochial 
issue, where I think we are sending the Russians the message 
that we do not want to deal with them. I will not raise it with 
the full committee here.
    Dr. Hamre. I think I am aware of it, and I would be happy 
to meet with you and talk with you about it.
    Senator Bennett. All right. We can talk about that. Well, 
Mr. Chairman, most of the questions and comments that I would 
have about the war in particular have already been raised by 
other members of the committee, so I shall wait for Mr. Atwood 
to pursue this question of the refuges. I find it interesting 
that we are talking about 20,000 refuges, how were they chosen?
    Were they picked by lottery? Well, if they are picked--we 
have many, many times 20,000 refuges who probably would like to 
come to the United States and get medical attention, and so on, 
and we are picking them, and we are--I am not quite sure 
anyway. I will raise all those issues with Mr. Atwood.
    Chairman Stevens. Well, thank you very much, Senator. I am 
sorry about that. We just felt that we would not be able to 
take care of Mr. Atwood.
    Senator Bennett. Well, I think you were right.
    Chairman Stevens. I feel we are still heading for a 
collision. Tomorrow, in the afternoon, we are going to do our 
best to have a classified hearing. We will be in touch with 
you. The staff is out looking for space and to make certain 
that we clear out enough time for that space so we can have 
that meeting.
    I am concerned. I certainly do not want to leave the 
impression that the military commanders in the field were in 
any way breaching any chain of command consideration in telling 
us what they told us. We asked them direct questions as to what 
they needed, and they gave us answers. I am sincerely worried. 
I guess it is generational for Senator Byrd and me. We lived 
through one world war.
    This, if it kept going, might well be the prelude to 
another one if we are not very careful, because all we need to 
know is see North Korea and Iraq join in some sort of axis with 
this madman and we have ourselves another real, real problem.
    It would be like a calliope. They would set off one in one 
place and another in another place, and we cannot take care of 
that. We have to get this done and done as quickly as possible.

                        Kosovo operations status

    The conditions that I saw these people flying in are 
overwhelming. When we were there it was a rain so hard you 
could not even hardly drive a car, but they were flying, and 
the mud was so thick you could not believe it. The Apaches had 
to wait for pads to be brought in so they could land on the 
pads. They just could not land on the ground, they would sink 
right in the mud. These are conditions that are unbelievable 
for that area.
    Now, they are going to get good weather in another two 
weeks, three weeks, we hope, and we will see a change in the 
pace of this war, but my problem is, I think they have some 
real deficiencies in what they need to conduct a war and try to 
assure minimum, minimum casualties. With the Apaches going in 
there at low level this next week, I think that is going to 
raise the level of my fear perceptively.
    I do believe that we do need a lot more money in this 
pipeline to bring these items that the administration has asked 
for in the next year, and one of them I know is even in 2001. 
They are needed now. We lost an Apache yesterday. We have 
already lost one of the Predators. That is not classified. We 
are going to start having an attrition on these planes that we 
have, particularly if it turns into a real shooting war.
    According to my information he has really not used his 
missiles yet and we really have not had a real severe attack 
yet to deal with. We urged that the television station be taken 
down, we took it down all right, but it is back up in less than 
24 hours from what I understand.
    Dr. Hamre. We took off the antenna last night.
    Chairman Stevens. You took it again last night.
    Dr. Hamre. Yes, sir.
    Chairman Stevens. Well, there is no reason for him to send 
propaganda to the world about how he is not feeling the impacts 
of this war, and I congratulate whoever signed off on that one. 
I do hope, though, that we get down to talking about numbers.
    If we really have a thousand airplanes there in some 16-
plus fields, bedding those airplanes down is a considerable 
expense. We have just taken 30 more tankers from the United 
States over there. Every one of those planes has to fly a real 
long distance to get to the war zone.
    The main thing that bothers me about this is there are 20 
million people in Yugoslavia, there are 780 million people in 
the 19 countries that are a part of NATO. Now, certainly we 
ought to find some way to devise a policy to terminate this 
engagement a lot sooner than it looks like it is going to 
happen.
    As a pilot from World War II, I hope that we find the first 
time that this will be an air war that we can win the whole 
engagement from the air. It has never happened before, but let 
us pray to God it can happen now, but it will not happen if we 
do not give those people everything they need.
    My feeling is we should overreact to what they need. If 
they say they need two, I would give them four of the planes 
that I know that they need. We know what they need and you-all 
know what they need. They are in short supply in the world, as 
far as we are concerned, and one of them is no longer being 
made any more.
    In our bill part of the money will be to attempt to convert 
some other planes so that they can perform that mission. Now, I 
do not know whether we will classify that or not, but we 
certainly have a great need over there to get this money there, 
and I trust--whether we put it up or not you are going to spend 
it. That is what bothers me. We are now paying for two things 
that we did not get budgeted for, both in Bosnia and for this, 
and we are going to be behind the curve.
    The one thing we absolutely cannot stand is another 
supplemental during this year if we are going to get the 2000 
bill out and get it to you as we should without any wrangling 
about any attachments or having it become a Christmas tree, 
because people know it is going to be signed quickly.
    I urge you not to contemplate another supplemental. It is 
just not in the cards. This is it. Whatever you need to fight 
the war between now and the end of this calendar year, it ought 
to be in here, because you are not going to get the other money 
until sometime in October, and you will not get that process 
until January. October 1 was a bad date, is what I am saying.
    In my opinion, we ought to be dealing with a full calendar 
year funding, what is needed to win this war, and God save us, 
I think we can win if we do it right.
    Senator Byrd.
    Senator Byrd. I just want to thank Mr. Lew and Dr. Hamre 
and their staffs. What is our timetable, as you see it, Mr. 
Chairman, on this bill and the other supplemental?
    Chairman Stevens. If we have this classified hearing 
tomorrow I would anticipate that we would try to take up the 
bill and mark it up on Tuesday. Is that too soon? Tuesday or 
Wednesday. We believe the House will be taking it up next week. 
It will be taken up on the floor on Wednesday or the committee. 
The House is taking it in their committee tomorrow, and they 
are going to take it on the floor by next Wednesday, we 
understand.
    We have been waiting for them so we are not going to have 
any argument about what is going on until they finish their 
committee action, and then we will have ours as soon as 
possible. I think that will be Tuesday, if we can get the 
classified hearing tomorrow. We would hope that we would be 
finished with our bill on the date we start the markup, and if 
that is so, we should be ready for subsequent action by 
Wednesday, which is the day the House will take up the bill.
    Mr. Lew. Mr. Chairman, I am speaking for the Defense 
Department and ourselves, we will make ourselves available for 
any classified briefings that are necessary for the committee.
    Chairman Stevens. Well, I will ask Mr. Cortese to contact 
you and make sure who comes. I do not think there will be any 
classified questions for Mr. Atwood, so we will be looking for 
you, OMB, and for the Department, and we will have to have a 
representative of the Chairman of the Joint Chiefs tomorrow----
    Mr. Lew. Of course.
    Chairman Stevens [continuing]. I assume. Do you have any 
further comments, Senators? Well, we do thank you. 
Incidentally, I have just been looking over your suggestion. 
Air operations to the end of fiscal year 1999, and this 
supplemental is $3.01 billion. At the rate they are going--we 
were told, by the way, that they contemplated a thousand 
aircraft to cost about $1 billion a year. Yours is based on 750 
and you said $700 million a year. Even $700 million a year is 
more than you have in here.
    Mr. Lew. I do not believe that the number you just referred 
to included the munitions replacements.
    Chairman Stevens. Munitions is another $850 million, right. 
We are not going to get in an argument about numbers. As the 
Senator said, we do not want you to use a credit card, we want 
you to draw it from a bank account when you fight this war.
    Mr. Lew. We appreciate that.
    Chairman Stevens. Thank you very much.
    Senator Leahy. May I ask a question now?
    Chairman Stevens. Oh, my God.
    Senator Leahy. I have been waiting for three hours. I keep 
getting passed over, Mr. Chairman. Am I just a potted plant? I 
have been here all along.
    Chairman Stevens. Senator Leahy, you did not have a seat at 
the table.
    Senator Leahy. I was sitting under the table.
    Chairman Stevens. I understand.

                        Assistance to Macedonia

    Senator Leahy. Mr. Chairman, we did have, as you know, the 
other hearing I was at. I was going to ask Dr. Lew, and I will 
make this quick, but Dr. Lew, your request includes budget 
support for the government of Macedonia. In 1994 Macedonia 
signed the convention relating to the status of refugees, and 
the parties of that convention pledged not to expel refugees to 
countries where their safety would be at risk.
    Should we condition our funds to the Macedonian government 
on its compliance with the convention? Is that unrealistic?
    Mr. Lew. Senator, I must say that I am not familiar with 
the convention, so I prefer to answer it more generally rather 
than specifically. We have looked at the needs of the 
surrounding states with an eye towards dealing with the very 
immediate need to make sure that none of them collapse at the 
worst possible moment, and that has really guided both the 
humanitarian and the front-line----
    Senator Leahy. I did not expect an answer, but I did want 
to have that at least in people's minds.
    Mr. Lew. I appreciate that.
    Senator Leahy. I think we have a total mess over there from 
the reports I have read. I hate to fault the planning, but I am 
very concerned that not enough planning was given to prepare 
for the steps that Milosevic might take.
    I think when he was given initially the view that there 
would be no ground troops, I think it emboldened him to do what 
he did, and we were not prepared. We, NATO, all of us, were not 
prepared for the number of refugees.
    The most terrible part about this is to look at the 
suffering of those refugees. I think of the children who will 
die, the elderly who will die, of everything from dysentery, on 
through, unless we do a lot more. Your request has $50 million 
for assistance to the front-line states, Albania, Macedonia, 
Bulgaria, Romania, Bosnia, and Croatia. I suspect $50 million 
is just the opening gamut.
    Mr. Lew. Are you asking me to respond to that?
    Senator Leahy. Yes.
    Mr. Lew. Well, there is additional assistance to the front-
line states in the form of the $150 million that is being 
requested for economic and stabilization assistance. The needs 
are immediate. We are bearing just a share of the 
responsibility, but certainly in the time frame, during the 
conflict, there are urgent steps that need to be taken.
    Looking ahead to post-conflict reconstruction is a very 
complicated proposition. A number of Senators asked questions 
about it, and there will be a very heated debate over what the 
appropriate role for the United States is. I do not think there 
can be any dispute that there is a need for reconstruction and 
a need for economic assistance. The question is what the U.S. 
role is, and we will continue to have that discussion both with 
the allies and with the Congress.

      Reimbursement to the United States for some costs of mission

    Senator Leahy. Well, in fact, I think there should also be 
some kind of discussion with the allies about repayment for 
part of these expenses. We have been doing a very large 
percentage of the air war, and Dr. Hamre, I do not recall which 
part of those numbers are classified and which are not, so I 
will just put it in broad terms and refer to what has been in 
the press, that we have done a very large part of the air war, 
because we have the equipment with the stealth bombers, and 
fighters, and so on. That ultimately means we are picking up an 
enormous part of that cost.
    If ground forces are used, I would hope that we would not 
also have to pick up both the personnel and other costs, 
because I think that our NATO allies should fulfill their 
obligations.
    If they are not, then I question whether some of those 
allies are in there for just the political comfort the alliance 
gives them and not for the responsibilities that come with it.
    Dr. Hamre. Senator Leahy, I think that is what is operative 
when it comes to the ground forces is what we were prepared to 
do, had there been a peace agreement and a permissive 
environment, which is we are prepared to go in, and our view at 
that time, our contribution would be roughly 15 or 16 percent, 
not a disproportionately large one.
    Senator Leahy. If we have to fight our way in, what would 
it be?
    Dr. Hamre. We do not have plans to fight our way in.

             Handling refugees coming to the United States

    Senator Leahy. Well, if we wait long enough there will not 
be anyone left there anyway. We are going to bring 20,000 
Albanians here?
    Chairman Stevens. You said 25,000 once today. Is it 20,000 
or 25,000.
    Mr. Lew. If I said 25,000, I misspoke. Twenty thousand is 
the number. I thought I said 20,000.
    Chairman Stevens. I understood it was supposed to be 
20,000.
    Mr. Lew. It is 20,000. Correct.
    Senator Leahy. Is it 20,000 coming here?
    Mr. Lew. Correct, Senator.
    Senator Leahy. Interestingly enough, if somebody had their 
I.D. papers stolen from them by Milosevic's people as they were 
murdering part of their family, and that person escaped, and 
came here, we can then deport them right back without a hearing 
under the immigration law that this administration signed and 
this Congress passed.
    Dr. Hamre. There are going to be extraordinary demands on a 
number of fronts, and dealing on a case-by-case basis with the 
applicants, with the potential refugees to come here will be 
one of those. I know there are many people who are working hard 
to make sure that we have the ability to deal on a case-by-case 
basis in a fair way, and we are dealing with circumstances that 
are quite unusual.
    I need to find out more myself as to where we are. This is 
a relatively new commitment, and I am confident that we will do 
it in a way that we will treat people fairly as possible.

                   Adequacy of proposed supplemental

    Senator Leahy. Last, Mr. Chairman, Dr. Hamre said they had 
the money needed for the operation, if I am correct in your----
    Dr. Hamre. Pardon me, sir?
    Senator Leahy. You have had the resources needed so far.
    Dr. Hamre. Well, we have been borrowing them for the last 
three months of the fiscal year, but we are going to be in 
extremes if we do not get supplemental funding here by the end 
of May.
    Senator Leahy. I am glad to see the supplemental funding. I 
just would hope that if we go beyond what supplemental funding 
is needed for this operation in the defense budget, we might 
look at some of the foreign operations programs. We know by the 
year 2000 the number of people infected with HIV worldwide is 
going to top 40 million. It is the number one health problem of 
our time.
    We have very little money in foreign operations to do 
anything about it. I suggest that part of our security is 
there, too, and we should look at that, if we are going to go 
beyond what is needed for this operation, as someone suggested, 
a wish list of defense programs. I am not picking you out, Dr. 
Hamre----
    Dr. Hamre. Somebody has to----
    Senator Leahy. No, I like you, and I think you are doing a 
superb job, and I think we are darn lucky that we have both you 
and Dr. Lew, but if we are going to be increasing the Defense 
budget from people's wish lists, I have a few items in the 
foreign ops area that we ought to take a look at, too.
    Thank you, Mr. Chairman.
    Chairman Stevens. I am going to put in the record a sheet 
that I asked for, it is called ``Responsibly Sharing Report.'' 
It shows defense spending of all of our allies in NATO, the 
Pacific, and the Gulf Cooperation Council. It shows that the 
United States is still spending more than 50 percent of all the 
defense spending in the world, and this was before we had the 
Bosnia, and before Kosovo. It is something to keep in mind, 
where is the end to our involvement.
    [The information follows:]

                                          TABLE E-4.--DEFENSE SPENDING
                                 (1998 Dollars in Billions--1998 Exchange Rates)
----------------------------------------------------------------------------------------------------------------
                                                                                                 1998
                                                                                     ---------------------------
                                           1990     1994     1995     1996     1997   Percent
                                                                                       change  1997-98   1990-98
----------------------------------------------------------------------------------------------------------------
United States..........................    379.2    313.6    297.9    283.8    282.3    269.8     -4.4     -28.9
NATO Allies:
    Belgium............................      4.9      3.7      3.6      3.6      3.6      3.6       .4     -26.9
    Canada.............................     10.5      9.6      9.0      8.2      7.7      7.1     -8.1     -32.7
    Denmark............................      2.8      2.7      2.7      2.7      2.7      2.8       .8      -3.3
    France.............................     44.1     42.6     40.6     39.8     40.2     39.2     -2.4     -11.1
    Germany............................     46.1     34.0     33.3     32.8     32.0     31.9     -0.3     -30.7
    Greece.............................      4.5      4.4      4.5      4.7      5.0      5.4     +8.9     +20.9
    Italy..............................     25.5     24.9     22.4     22.6     22.4     22.4  .......     -12.1
    Luxembourg.........................       .1       .1       .1       .1       .1       .1     +6.2     +32.2
    Netherlands........................      7.8      6.9      6.6      6.8      6.7      6.5     -2.2     -16.4
    Norway.............................      3.3      3.4      3.0      3.2      3.1      3.2     +2.4      -3.7
    Portugal...........................      2.3      2.2      2.3      2.3      2.3      2.3     -0.3      +1.2
    Spain..............................      8.4      7.3      7.6      7.4      7.5      7.2     -3.8     -14.7
    Turkey.............................      6.1      6.7      7.1      7.2      7.6      8.0     +4.9     +30.6
    United Kingdom.....................     51.3     42.7     39.3     39.0     37.0     37.1      +.3     -27.7
                                        ------------------------------------------------------------------------
      Subtotal.........................    217.7    191.2    182.2    180.6    177.8    176.7     -0.6     -18.8
                                        ========================================================================
Pacific Allies:
    Japan..............................     33.7     36.1     36.6     37.7     38.6     38.0     -1.4     +12.8
    Republic of Korea..................      7.0      8.0      8.3      8.8      9.7      9.5     -2.1     +36.1
                                        ------------------------------------------------------------------------
      Subtotal.........................     40.7     44.0     44.9     46.6     48.3     47.6     -1.6     +16.8
                                        ========================================================================
Gulf Cooperation Council:
    Bahrain............................       .2       .3       .3       .3       .3       .4    +38.3    +101.3
    Kuwait.............................  \1\ 14.      3.4      3.5      4.1      4.0      4.0     -0.8  \1\ -71.
                                               0                                                               7
    Oman...............................      1.7      2.0      2.0      1.9      1.8      1.8     -0.4      +9.2
    Qatar..............................       .3       .4       .8       .8      1.4      1.2    -10.3    +390.3
    Saudi Arabia.......................     34.3     13.4     13.3     17.3     18.1     18.4     +2.0     -46.3
    United Arab Emirates...............      4.0      2.4      2.3      2.3      2.5      3.7    +49.4      -5.6
                                        ------------------------------------------------------------------------
      Subtotal.........................     54.4     21.8     22.2     26.6     28.0     29.6     +5.4     -45.7
                                        ========================================================================
      Grand Total......................    692.0    570.6    547.2    537.5    536.5    523.6     -2.4     -24.3
----------------------------------------------------------------------------------------------------------------
\1\ Figures for 1990 reflect severe distortions due to the Gulf War.

Yearly data rounded. Percent changed calculated using non-rounded figures.

                     Additional committee questions

    Chairman Stevens. I agree with the Senator about finding 
some way to make the Europeans understand that this is truly a 
NATO war, we certainly are not to paying the share of the war 
that we are paying.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Pete V. Domenici
           cost to sustain and/or expand military operations
    Question. In the April 19 White House briefing on this 
supplemental, both Mr. Hamre and Mr. Lew made clear that the funding in 
this supplemental for military operations and munitions for the Balkans 
region, which appears to be $5.1 billion, is intended to pay for all 
these costs through the end of September. Mr. Lew also stated that the 
cost of the first month of operations was $985 million ($287 million 
for operations; $698 million for munitions). In its cost estimate, CBO 
agreed that the first month of bombing cost about $1 billion.
    However, General Clark has asked for an additional 84 aircraft, and 
then an additional 300. Clearly air operations will intensify--and 
become more expansive. There are five more months to go. How can $5.1 
billion pay for six months of air operations at a cost of $1 billion 
per month?
    Answer. The cost of $1 billion for the first month of operations 
cannot be used to estimate the cost of the air campaign for the 
remainder of the fiscal year. The $698 million for munitions is not a 
monthly figure. Rather, it is for specific munitions that have been or 
may be expended in both Southwest Asia and Kosovo. The Supplemental 
request includes $3.3 billion to fund the operating costs for the air 
campaign through the end of fiscal year 1999. This estimate includes 
the additional aircraft requested by General Clark.
    Question. How can this same $5.1 billion pay for five months of 
expanded air operations?
    Answer. When we were building the supplemental request, we included 
costs for all known assets that General Clark had formally requested. 
Thus, the $3.3 billion requested for the air campaign covers known 
operating costs of U.S. Forces participating in Allied Force through 
fiscal year 1999, to include the approximately 300 additional aircraft 
requested by USCINCEUR.
    Question. Were the costs of the Apache helicopter deployment to 
Albania included in the original cost estimate? What are these costs?
    Answer. Yes. The Supplemental request includes $678 million for 
Task Force Hawk, the Apache helicopter deployment to Albania. This 
amount covers Operation & Maintenance and Military Personnel costs 
associated with deployment, OPTEMPO, and sustainment of the task force 
through fiscal year 1999.
    Question. Were the costs to blockade Yugoslavian imports of 
petroleum included in your initial estimate? What are these costs?
    Answer. [Deleted.]
    Question. What are your initial estimates of a deployment of 
significant ground forces, if such a decision were to be made? Do you 
have reason to disagree with CBO's estimate of $200 million per month 
per 27,000 man increment, with an additional $100 million if combat 
occurs?
    Answer. Based on first-year Bosnia experience, the CBO estimate of 
$200 million per month per 27,000 man increment seems too low. The CBO 
estimate equates to $2.4 billion for a full year. In comparison, the 
first-year Bosnia costs for a 20,000 man force totaled approximately $3 
billion (not adjusted for inflation).
                       increased readiness needs
    Question. GAO is competing the first phase of its retention/Quality 
of Life study for myself and Senator Stevens. GAO briefed our staffs 
last week. They found that across all military services, both enlisted 
personnel and officers, the number one complaint and stated reason to 
leave military service is lack of needed equipment--meaning spare 
parts, munitions, and other support equipment. Another major reason was 
``manning''--meaning undertrained, misassigned, or simply missing 
personnel.
    What information has been made available to you about the 
seriousness of spare parts and equipment shortages and the impact to 
morale?
    Answer. Due to the seriousness of these issues, I routinely review 
and discuss spare parts and personnel shortages, mission capable and 
cannibalization rates, and key munitions shortages with our Service 
Chiefs as part of our monthly deliberations in the Senior Readiness 
Oversight Council. In addition, I have reviewed a number of trip 
reports from my readiness staff members on the issues, including spare 
parts shortages, that they have encountered in their readiness 
assessment visits. Finally, I hear these issues ``first hand'' from our 
men and women in the field during my travels.
    We take these shortages and their impact on morale very seriously. 
With your help, we have added billions of dollars to buy more spare 
parts and support equipment. We have already seen some improvement in 
the parts situation and expect a continual improvement over the next 
several years.
    Question. Especially for the type of combat aircraft being used in 
the Persian Gulf and the Balkans, what is the status of War Reserve 
stocks for maintenance and munitions?
    Answer. The expenditure of munitions in the Balkans and Persian 
Gulf is being carefully monitored and evaluated by the Joint Staff and 
the Services. Shortages exist of some preferred munitions due to the 
fact that they are currently in low rate initial production status 
(JDAM, JSOW), or production lines are cold and conversion of old 
weapons (TLAM, CALCM) is required to replenish the inventory. This has 
required both resupply from available world-wide inventories and 
acceleration of production contracts. The Joint Requirements Oversight 
Committee (JROC) is currently evaluating production priorities of those 
weapons being produced to better meet the task force commander's 
requirements.
    Question. How do cannibalization rates for fighters and fighter-
bombers compare to one year ago.
    Answer. Cannibalization, or the procedure of removing a part from 
one aircraft to make another aircraft operational, is normally 
accomplished due to mission expediency or lack of a specific spare 
part. As the average age of our aircraft fleet has risen, and the 
utilization of these aircraft increases, our aircraft are experiencing 
increased wear and tear and failure of aircraft components. This, in 
turn, has manifested itself in increased cannibalization rates. For 
instance, the USAF ``cann'' rate in fiscal year 1995 was 7.8 ``canns'' 
per 100 sorties. That number grew to a 12.4 rate in fiscal year 1998, 
and reached a 13.8 canns per 100 sorties for the 1st Quarter, fiscal 
year 1999.
    Question. For personnel not yet deployed overseas, how does pilot 
experience compare to that for forces in the U.S. one year ago? How 
does it compare for deployed pilots? (b) Please answer the same 
questions for aircraft maintenance and munition personnel.
    Answer. As you are aware, we have experienced troubling retention 
rates in our pilot force for the past several years. Though the reasons 
for pilot separations are numerous and complex, the impact on our 
experience levels is somewhat easier to capture. As we lose pilots with 
9-14 years experience, and replace those pilots with recent graduates 
from undergraduate pilot training (UPT), our overall experience levels 
decrease. Over the past year, we have seen a gradual decline in fighter 
and bomber pilot experience levels, but we still remain above the 
overall experience metric for most weapon systems (fighter aircraft 
metric is to have 50 percent of pilots experienced with more than 500 
flying hours). For example, the F-16 experience level dropped from 74 
percent in March 1998 to 64 percent in March 1999. Loss of experience 
due to separations, assignments, etc. has always been a planning factor 
in managing our overall experience levels, but the current low pilot 
retention rates contributes to the decline in our overall experience 
levels. Moreover, the planned increases in UPT production (to 1,100 per 
year) are expected to lower the overall experience levels of the pilot 
force due to the increased number of new UPT graduates in our 
squadrons.
    (b) In addition to our pilot shortfalls, we have experienced 
retention problems in our enlisted force as well, particularly in the 
2d term re-enlistments of specialized, high demand fields such as 
aircraft maintenance. The impact of missing 2nd term reenlistment goal 
(75 percent) is declining mid-grade manning and expertise, key to 
successful flightline operations. Recent initiatives to improve 
reenlistment rates, to include reenlistment bonuses, have achieved some 
degree of success. For instance, 2nd term reenlistment for F-16 crew 
chiefs improved from 64 percent in fiscal year 1997 to 76 percent in 
fiscal year 1999 (as of February 28). F-16 avionics specialist 
reenlistment rates improved from 67 percent to 71 percent over the same 
time period. However, overall USAF 2nd term reenlistment rate in fiscal 
year 1998 was 69 percent, down from 71 percent in fiscal year 1997 and 
below goal of 75 percent. We still face significant reenlistment and 
experience challenges, and monitor reenlistment status carefully.
    Question. How do stocks of laser guided bombs compare to 1990 (the 
year before Desert Storm)?
    Answer. Stocks of laser guided bombs (LGBs) are 30 percent higher 
than they were in 1990 prior to Desert Storm. Several LGB variants are 
currently in production. Suitable substitutes exist for most preferred 
munitions in the near-term. In the long term, as the Kosovo conflict 
continues, use of less preferred munitions will be required.
    Question. Where are our biggest problems for the human and material 
readiness of ground forces? Please specify types of military 
specialties and types of hardware.
    Answer. For our ground forces, personnel shortfalls are our most 
pressing concern. Specifically, the Army continues to report in the 
Joint Monthly Readiness Review a shortage of available leadership 
(insufficient numbers of NCOs and Captains) as well as shortages in 
specialty MOSs, particularly in the combat support, combat service 
support, and military intelligence specialties. These personnel 
shortfalls add risk to a two-MTW scenario.
    For material readiness, the most critical concerns are shortages in 
our prepositioned equipment sets, medical supplies, and Army War 
Reserve Secondary Items (WRSI). Prepositioned equipment is critical to 
the early stages of an MTW as CONUS-based Brigades are required to 
``fall-in'' and fight on this equipment and supplies. Currently, these 
CINC brigade sets need additional parts to be considered fully 
fightable. We are working to rectify an estimated $1.8 billion 
shortfall in WRSI, critical to sustainment of the warfight.
                          allied contributions
    Question. Please specify the percentage of combat aircraft and air 
to ground sorties being performed by non-U.S. NATO forces.
    What is the number and percentage of non-U.S. NATO forces now in 
the Balkan region, or supporting forces there?
    Answer. The current share of military personnel and assets 
committed by the United States and NATO are broken out as follows (as 
of May 12, 1999): [deleted].
    Question. (a) What is the dollar cost of non-U.S. NATO operations 
up to this point in time? (b) Is the U.S. paying for any non-U.S. 
operations or forces? (c) Is non-U.S. NATO paying for any U.S. 
operations or forces?
    Answer. (a) The cost of non-U.S. NATO operations is not available. 
(b) and (c) Each NATO participating country is paying its own way for 
its forces engaged in operation Allied Force. Specifically, the NATO 
plan for Allied Force specifies that logistics support is the 
responsibility of each troop contributing nation from their national 
sources to the most forward operating area. The logistics annex states, 
``All requirements for logistic support including logistic support 
units, formations, supplies, services, transportation, movement 
control, maintenance, medical, and personnel administration or adequate 
support agreements are a national responsibility.'' These NATO support 
procedures, which are similar to those in effect in Bosnia, require 
nations to finance their participation in the operation.
    Question. According to the CRS, appropriations to DOD for U.S. 
Peacekeeping and Other Military Operations since 1991 are the 
following:

------------------------------------------------------------------------
                                                                 2000
                                                   1991-1999    request
------------------------------------------------------------------------
Iraq............................................         6.9         1.1
Bonsia..........................................         9.4         1.8
Haiti...........................................         1.0  ..........
Somalia.........................................         1.5  ..........
Others..........................................         2.0  ..........
Kosovo..........................................         6.0         ???
                                                 -----------------------
      Total.....................................        26.9   2.9 + ???
------------------------------------------------------------------------

    Is it correct that these data do not reflect all costs? Aren't some 
of the costs hard to quantify but very real? (For example: costs for 
canceled training, equipment worn out faster, munitions consumed, 
stressed out troops, and separated families are not included in the 
table above).
    Answer. The CRS data reflects the incremental cost of contingency 
operations. We measure the cost of contingency operations in terms of 
incremental costs or costs that are incurred only because we have 
undertaken the operation. Tangible costs such as fuel, repair parts, 
supplies, transportation, food, lodging, contract services, etc. are 
included. Intangible costs such as psychological stress on troops and 
families are not included since they are very difficult to quantify in 
dollar terms.
    Question. Please submit an estimate for the deployment related 
costs of: accelerated equipment usage; increased consumption of spare 
parts; rescheduling all canceled training; retention losses due to 
``opstempo''; and replacing all munitions consumed in combat operations 
since 1992.
    Answer. We capture in our contingency cost estimates any 
incremental cost related to a contingency. This includes additional 
maintenance required because of a higher operating tempo, additional 
spare parts, and refresher training if these costs would not have been 
incurred if we had not undertaken the operation. We cannot measure 
retention losses due to the operating tempo of contingency operations. 
Our supplemental request identifies the munitions requirements for 
Southwest Asia and Kosovo, but we do not have data for other combat 
operations since 1992.
                                 ______
                                 
               Questions Submitted by Senator Larry Craig
                          allied contributions
    Question. 800 U.S. aircraft are planned for deployment to the 
Balkans. This deployment reportedly will tie up seven combat air wings 
out of 20. Please explain how our current expenditure of forces for 
Operation Allied Force will impact our ability to respond to war in 
other regions, the Pacific (Korea), or the Gulf.
    Answer. [Deleted].
                             ground troops
    Question. Also, please explain how the deployment of U.S. ground 
troops in Kosovo will impact on the U.S.' ability to respond to war in 
other regions, the Pacific or Gulf, where our national interests are at 
stake.
    Answer. [Deleted].
    Question. The administration is asking for $6 billion to pay for a 
continued air campaign against Yugoslavia. How much money will be 
required, and over what period of time, if U.S. ground forces are 
deployed to Kosovo:
    (a) In a peacekeeping role (with 8,000 to 10,000 Americans 
involved)
    (b) To expel Yugoslavia's forces in Kosovo (with 20,000 to 30,000 
U.S. troops involved?)
    (c) To secure a liberated zone in Southern Kosovo (with about 
10,000 American troops involved?)
    Answer. We do not know specifically how much money will be required 
or over what period of time it will be required since the decision to 
send in ground troops is dependent upon numerous factors to include the 
success of the air campaign and the Serbian peoples' continued support 
for Milosevic.
    As a point of comparison, I can tell you what we spent in Bosnia. 
The cost of the Bosnia implementation force (IFOR) for the first 12 
months (December 1996-November 1997) was $3 billion. This was for a 
U.S. force of 20,000 troops. In fiscal year 1999, the Bosnia security 
force (SFOR) of approximately 6,900 troops will cost about $1.4 
billion.
                             allied forces
    Question. What percent of the cost of the current air war against 
Yugoslavia will our allies pay?
    Answer. NATO does not provide data on the cost of each member 
nation to carry out operation Allied Force. However, the NATO plan for 
Allied Force specifies that logistics support is the responsibility of 
each troop contributing nation from their national sources to the most 
forward operating area. The logistics annex states, ``All requirements 
for logistic support including logistic support units, formations, 
supplies, services, transportation, movement control, maintenance, 
medical, and personnel administration or adequate support agreements 
are a national responsibility.'' These NATO support procedures, which 
are similar to those in effect in Bosnia, require nations to finance 
their participation in the operation.
                             ground troops
    Question. If NATO ground troops are deployed, what percentage of 
that cost will our allies pay?
    Answer. Each nation will pay for its own deployed forces.
                    paying for future nato missions
    Question. Newspapers are reporting that NATO leaders on Saturday 
(April 24, 1999) approved a new ``strategic concept'' embracing 
military operations in volatile regions beyond NATO's borders. How do 
you expect the United States to pay for such operations?
    Answer. First, the Department must dispel any misperceptions about 
NATO's new Strategic Concept. The current Strategic Concept is an 
update of the 1991 version, not a radically-changed text. The 1999 
version has been carefully crafted to uphold NATO's ``policy of 
preserving peace, preventing war, and enhancing security and 
stability''. Its purpose is not to serve as a blueprint for ad hoc 
adventurism by the Alliance; rather, its stated purpose is to 
``maintain collective defense and reinforce the transatlantic link'', 
ensuring ``a balance that allows the European allies to assume greater 
responsibility'' in defense missions. The 1991 version stated, ``In the 
event of crises * * * the Alliance's military forces can complement and 
reinforce political actions within a broad approach to security * * 
*''.
    This theme has been picked up and amplified in the 1999 update, 
most notably in adding a new fundamental security task that charges the 
Alliance ``* * * case-by-case and by consensus * * * to engage actively 
in crisis management, including crisis response operations''. The new 
Strategic Concept, while clearly and carefully acknowledging security 
risks and threats that could arise within and on the periphery of 
NATO's borders, will ensure that NATO maintains a defense posture that 
contributes to regional peace and stability, not detract from it.
    Thus, from the Department's perspective, the new Strategic Concept, 
which states NATO's political-military intentions, is far removed from 
the carte blanche document ``embracing military operations in volatile 
regions'' implied in the question.
    That said, the United States must stand prepared to meet any 
mission NATO (as a body) decides to undertake. Should NATO embark on a 
specific mission that falls within the terms of its Strategic Concept, 
the United States will pay the costs of such an undertaking in two 
ways. As with Bosnia and more recently, Kosovo, responsibility for NATO 
and national costs will be established under terms of funding 
principles agreed by all members. Any agreed NATO mission would cause 
the United States to pay between 20-25 percent of the common military 
costs of such an operation. At the same time, it is likely that the 
United States would pay its own operating costs for whatever military 
contingents might be assigned or provided to participate in or support 
the NATO operation.
    Since the Department cannot predict when or if such a situation 
might arise, it is premature to project how the Department would pay 
for such an operation.
                                 kosovo
    Question. Your Administration claimed that one of the reasons for 
U.S. involvement in Bosnia was to prevent that war from spreading. It 
appears that the U.S. mission in Bosnia was unsuccessful in this 
regard, given the current crisis in Kosovo. Furthermore, U.S. air 
strikes appear to have exacerbated the humanitarian crisis in Kosovo, 
jeopardized stability in neighboring Macedonia, allowed the Yugoslav 
forces to target ethnic Albanians in Montenegro, caused an increase in 
the Yugoslav's security presence in Kosovo, and created conditions for 
that Army to dig in. Please explain how the current situation in the 
Balkans comports with U.S. national security objectives.
    Answer. Regional stability in Eastern Europe has long been a 
primary concern of the United States and the NATO alliance. We have 
clear national security interests at stake in Kosovo. The United States 
has an interest in preserving NATO's credibility as a guarantor of 
European stability and our credibility as the leader of NATO. NATO's 
involvement in Kosovo serves to further enhance regional stability and 
the leadership role of the United States in the Alliance, as it has in 
Bosnia. We have an interest in preserving Bosnia's significant progress 
toward peace under the Dayton Peace Accords, for which our soldiers, 
diplomats, and humanitarian workers have given so much. We are 
constantly faced with difficult decisions on our potential involvement 
in an international crisis. We clearly cannot help every country in 
every situation. Thus, we are forced to be as selective as possible, 
and must base our decisions on a determination of our national 
interests. As noted above, United States involvement in the Balkans 
clearly meets this criterion. We can take great pride in the fact that 
U.S. involvement adds both credibility and conviction to the NATO 
mission in Kosovo, as it has in Bosnia. As is true throughout the 
world, we bring to this mission unique capabilities and, in our 
estimation, leadership that cannot be exercised from afar. We must 
maintain the resolve of the NATO Alliance if we are to successfully 
achieve a lasting peace settlement.
    President Milosevic is clearly responsible for the humanitarian 
crisis we are facing today. The Serb campaign of repressive operations 
and ethnic cleansing began well before the NATO air campaign commenced. 
Even as the talks were continuing in Rambouillet and Paris, we 
witnessed a tremendous build-up of Serb forces in and around Kosovo. We 
have clearly outlined the military objectives of the NATO air 
operations: to demonstrate resolve on the part of the NATO alliance; to 
deter President Milosevic from carrying out his campaign of ethnic 
cleansing; and failing that, to make him pay a serious and substantial 
price for doing so and to take his military down as best we can through 
air power. To realize an end to the bombing campaign, President 
Milosevic must:
  --Ensure a verifiable stop to all military action and the immediate 
        ending of violence and repression in Kosovo;
  --Withdraw from Kosovo his military, police, and para-military 
        forces;
  --Agree to the stationing in Kosovo of an international military 
        presence;
  --Agree to the unconditional and safe return of all refugees and 
        displaced persons, and unhindered access to them by 
        humanitarian air organizations; and
  --Provide credible assurance of his willingness to work for the 
        establishment of a political framework agreement based on the 
        Rambouillet accords.
    It should be clear that NATO is united and determined to achieve 
its stated goals.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan
                               munitions
    Question. If we've expended $521 million in munitions in the first 
30 days of the air war, what confidence do you have that $850 million 
will be sufficient for the rest of the fiscal year?
    Answer. Based on current inventory levels and expenditures to date 
in both Kosovo and Southwest Asia, we feel that $850 million is a 
reasonable estimate to ensure that inventories for critical munitions 
remain adequate for future operations. This amount will also ensure 
readiness levels remain high for U.S. forces worldwide. These funds are 
in addition to the $698 million included in the Supplemental request 
for specific munitions--Conventional Air Launched Cruise Missiles 
(CALCMs), Tomahawk Land Attack Missiles (TLAMs), Joint Direct Attack 
Munition (JDAM), and Air Force towed decoys.
                             kosovo funding
    Question. If the funding for the direct costs of Kosovo effort were 
provided to the DOD on an incremental basis, perhaps after a monthly 
report that specified costs and replenishment needs, how would it 
affect your ability to prosecute the air war?
    Answer. We would not allow funding decisions to inhibit our 
execution of the air campaign in Kosovo. Lack of timely funding would 
have a significant impact on planned execution of training and 
maintenance requirements during the fourth quarter, particularly in the 
Air Force. Some of these planned activities would have to be deferred 
or canceled which could impact the readiness levels of the nondeployed 
forces.
                                 kosovo
    Question. What is your assessment of the transfer of intelligence 
information pertaining to war crimes in Kosovo to the International 
Tribunal? Is the United States providing all it can, and are there 
still concerns among our allies which are delaying or prohibiting the 
transfer of such information?
    Answer. The ICTY was established under a U.N. Security Council 
resolution and has been functioning since 1991. Any investigations, 
prosecutions or decisions about war crimes in the former Yugoslavia 
would be determined by the ICTY. Their investigations will follow the 
evidence and go where it leads them. The U.S. and NATO will continue to 
work closely with the ICTY. We have been cooperating with the Yugoslav 
Tribunal through an accelerated and intensified information-sharing 
program. Many hundreds of documents pertaining to Kosovo alone, 
classified and otherwise, have been provided to the Tribunal since 
March of 1998; hundreds have been provided since mid-March of this year 
alone and many more are in the pipeline. These documents are provided 
pursuant to rule 70 of the Tribunal Rules. We not only support the 
Tribunal's mandate to investigate wherever the evidence leads it but we 
also look forward to the day when a democratic Serbia with a strong 
independent judiciary brings other perpetrators of crimes in Kosovo to 
credible justice.
                              nato allies
    Question. What are the contributions by NATO allies in terms of 
cost for Kosovo operations? Has there been any discussion about a cost 
sharing arrangement like that used for the Gulf War?
    Answer. NATO does not provide data on the cost of each member 
nation to carry out Operation Allied Force. However, our NATO allies 
provide a significant contribution to Kosovo operations. For Operation 
Noble Anvil, the current air campaign, allied aircraft fly 
approximately 40 percent of all sorties flown. In addition, other NATO 
countries committed and deployed over 11,000 troops to Macedonia in 
anticipation of supporting KFOR, NATO's Peace Implementation Force, and 
the extraction force for OSCE Kosovo Verification Mission.
    I am not aware of any discussion about a cost sharing arrangement 
similar to that used for the Gulf War.

                         conclusion of hearing

    Chairman Stevens. We will recess this until we convene 
again tomorrow at sometime. We will notify you, and hopefully 
we will get that behind us so that we can have a markup next 
Tuesday.
    Thank you very much.
    Dr. Hamre. Thank you very much.
    Mr. Lew. Thank you, sir.
    Chairman Stevens. Thank you.
    [Whereupon, at 12:45 p.m., Thursday, April 27, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                 <all>

</pre></body></html>
